<html>
<title> - ACCESS TO THE CALIFORNIA DESERT CONSERVATION DISTRICT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
         ACCESS TO THE CALIFORNIA DESERT CONSERVATION DISTRICT

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

           Monday, August 18, 2003, in San Diego, California

                               __________

                           Serial No. 108-49

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

88-929              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, August 18, 2003..........................     1

Statement of Members:
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     5
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Bramham, James E., Member of the Board of Directors, American 
      Sand Association, Sacramento, California...................    44
        Prepared statement of....................................    46
    Brown, Howard, Geologist, OMYA (California) Inc., Lucerne 
      Valley, California.........................................    57
        Prepared statement of....................................    58
    Davis, Sheri, Director, Inland Empire Film Commission, 
      Riverside, California......................................    67
        Prepared statement of....................................    70
    Denner, Roy E., President & CEO, Off-Road Business 
      Association, Santee, California............................    29
        Prepared statement of....................................    34
    Dorame, Hon. Michael A., Supervisor, District 5, Inyo County, 
      Lone Pine, California......................................    13
        Prepared statement of....................................    15
    Hardiman, Michael, Private Property Inholder within the 
      California Desert Conservation Area, Imperial County, 
      California.................................................    73
        Prepared statement of....................................    76
    Hubbard, David P., Counsel, Off-Road Business Association et 
      al., Escondido, California.................................    47
        Prepared statement of....................................    49
    Kemper, Ron, Renewable Resources Representative, and Chair, 
      Desert Advisory Council, East Highlands, California........    53
        Prepared statement of....................................    55
    Leimgruber, Hon. Wally, Supervisor, District 5, Imperial 
      County, El Centro, California..............................    11
        Prepared statement of....................................    12
    McQuiston, Hon. Jon, Supervisor, District 1, Kern County, 
      Bakersfield, California....................................     6
        Prepared statement of....................................     8
    Pool, Mike, California State Director, Bureau of Land 
      Management, U.S. Department of the Interior, Sacramento, 
      California.................................................    86
        Prepared statement of....................................    90
    Postmus, Hon. Bill, Supervisor, District 1, San Bernardino 
      County, San Bernardino, California.........................    18
        Prepared statement of....................................    20
    Thompson, Steve, Manager, California/Nevada Operations 
      Office, Fish and Wildlife Service, U.S. Department of the 
      Interior, Sacramento, California...........................    92
        Prepared statement of....................................    93
        Response to questions submitted for the record...........    96


   OVERSIGHT HEARING ON ACCESS TO THE CALIFORNIA DESERT CONSERVATION 
                                DISTRICT

                              ----------                              


                        Monday, August 18, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                         San Diego, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in the 
Shedd Auditorium, Hubbs Sea World Research Institute, San 
Diego, California, Hon. George P. Radanovich [Chairman of the 
Subcommittee] presiding.
    Present: Representatives Radanovich and Pombo (ex officio).
    Also Present: Representative Filner.
    Mr. Radanovich. Good afternoon. If I could have everybody's 
attention. The Subcommittee on National Parks, Recreation, and 
Public Lands will come to order. This is a hearing held at the 
Shedd Auditorium at the Hubbs Sea World Research Institute here 
in San Diego. My name is George Radanovich, and I am from 
Mariposa County, Mariposa, California, and I am Chairman of the 
House Subcommittee on National Parks, Recreation, and Public 
Lands.
    Joining me today is the Chairman of the House Resources 
Committee, Congressman Richard Pombo, from Tracy, California. 
Today the Subcommittee will hear testimony regarding access to 
the California Desert Conservation Area, with emphasis on the 
Imperial Sand Dunes Recreation Area.
    I would like to remind everybody today that this is not a 
town hall meeting, but rather a formal Congressional hearing 
where issues discussed are placed on the record. Therefore, I 
would ask for the public's cooperation in maintaining decorum 
in the room.
    I would also remind everybody that this is indeed a public 
hearing, and therefore anyone here today may submit written 
statements for the record. Please see our clerk, Mike Correia. 
Mike. Please see Mike at the end of the hearing and he will 
make sure that your comments are placed in the record, the 
hearing record, and your ability to do that will remain open 
for about a 2 week period after this hearing today.
    I do want to mention, too, and kind of reiterate what I 
just said. This is not a town hall meeting. There is not--the 
House rules for hearings do not allow for public comment or 
public reaction to the things that are said by people that are 
up front here to testify as to today.
    Nor is there any provision for the allowance of written 
material or posters, or things like that in the back. Audience, 
I will sort of have to ask you to please remove that, too, and 
remove that from the room according to the rules of the House.
    The purpose of the hearing is to get all the facts into the 
record, and by the selection of the three panels that we have 
here today enable us to do that. If you feel that your 
information was not covered by the testimony of the witnesses, 
you are free and able to submit the written text.
    So by in this manner in order to fashion, we can make sure 
that everybody's input is in the record and every viewpoint is 
covered. So with that, we will begin, and I think at this point 
that I would like to ask everybody to stand and face our 
Nation's flag, as Pastor Bob Winterton, of San Diego, leads us 
in the Pledge of Allegiance. Bob, thank you for joining us here 
today.
    [Invocation by Rev. Bob Winterton.]

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Pastor Bob Winterton of locally 
here in San Diego. Today we will hear from 13 invited witnesses 
who represent county government; two Federal agencies 
responsible for managing many of the resources throughout the 
California Desert Conservation Area; and members from the 
recreational community and industry.
    Since Congress first established the California Desert 
Conservation Area in 1976, in a comprehensive long-range 
management plan for the public lands was developed by the 
Department of Interior, it appears that all of the Federal 
agencies who have management responsibility for these lands 
have been locked in a continuous battle between some in the 
environmental community who wish to see as much Federal land as 
possible reserved only for uses that they think are 
appropriate, and the recreation and business communities, who 
believe that these public lands should remain available for a 
variety of public uses.
    In 1994, Congress took action in what it thought would be 
an improvement to the management of the California desert, only 
to see the management situation become worse when it passed the 
California Desert Protection Act.
    I am sure that the Chairman has a few things to say about 
that, and I look forward to the testimony of our witnesses on 
these two issues, as well as the other conflicts within the 
CDCA, and any suggestions for resolving some of the access 
issues.
    Finally, I would be remiss if I did not thank Dr. Kent, who 
is president of the Hubbs Research Institute, and his 
associates, Jennifer LeBlanc and Matt Cruz, for their 
assistance and hospitality in hosting this Subcommittee and 
Chairman Pombo. I now yield to Chairman Pombo for his opening 
statement. Richard.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Good afternoon. The Subcommittee on National Parks, Recreation and 
Public lands will come to order.
    My name is George Radanovich. I am from Mariposa, California, and 
Chairman of the House Subcommittee on National Parks, Recreation and 
Public Lands. Joining me today is the Chairman of the House Resources 
Committee, Congressman Richard Pombo of Tracy, California. Today, the 
Subcommittee will hear testimony regarding access to the California 
Desert Conservation Area with emphasis on the Imperial Sand Dunes 
Recreation Area.
    I would like to remind everyone here today that this is not a town 
hall meeting, but rather a formal congressional hearing where issues 
discussed are placed on the record. Therefore, I would ask for 
everyone's cooperation in maintaining decorum in the room. I would also 
remind everyone that this is indeed a public hearing and therefore 
anyone here today may submit a written statement for the record. Please 
see our clerk, Mike Correia (Mike, please raise your hand) at the end 
of the hearing and he will make sure your comments are placed in the 
record. The hearing record will remain open for two weeks.
    Today, we will hear from thirteen invited witnesses who represent 
county government, two Federal agencies responsible for managing many 
of the resources throughout the California Desert Conservation Area, 
members from the recreational community, and industry.
    Since Congress established the California Desert Conservation Area 
in 1976 and a comprehensive long-range management plan for the public 
lands was developed by the Department of the Interior, it appears that 
all of the Federal agencies with management responsibility for these 
lands have been locked in a continuous battle between some in the 
environmental community--who wish to see as much Federal land as 
possible reserved for only uses they think are appropriate--and the 
recreation and business communities who believe that these public lands 
should remain available for a variety of public uses. In 1994, Congress 
took action in what it thought would be an improvement to the 
management of the California Desert, only to see the management 
situation become worse when it passed the California Desert Protection 
Act. I am sure the Chairman has a few things to say about that. I look 
forward to the testimony of our witnesses on these two issues as well 
as the other conflicts within the CDCA, and any suggestions for 
resolving some of the access issues.
    At this point I want to take a moment to address some local 
criticism about this hearing. Chairman Pombo and I decided to hold this 
hearing today following a number of meetings and conversations with 
some of today's witnesses, who expressed frustration with not being 
able to access a number of areas within the California Desert 
Conservation Area. During this same time, we heard nothing from the 
local environmental community about any access issues. Once we 
confirmed our witnesses, we asked our Democratic counterparts if they 
wanted any witnesses and they declined. I would caution some of those 
in the audience who believe this Committee is obligated to invite 
certain local organizations or individuals to testify when we conduct a 
hearing on access issues to Federal lands in the California Desert. We 
are not, especially when those groups don't seem to have a problem with 
the current management practices. I would also like to point out that 
local Members of Congress were notified of the hearing and were welcome 
to participate.
    Finally, I would be remiss if I did not thank Don Kent, President 
of Hubbs Research Institute, and his associates Jennifer LeBlanc and 
Matt Cruz for their assistance and hospitality in hosting the 
Subcommittee and Chairman Pombo.
    I now yield to Chairman Pombo for his opening Statement.
                                 ______
                                 

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you. I would like to thank the staff of 
Hubbs for their hospitality and to Pastor Bob Winterton for 
delivering our invocation and leading us in the Pledge of 
Allegiance today.
    Mr. Chairman, I commend you for your attention today to the 
conflicts recently expressed by user groups to the California 
desert, many of whom are represented here this afternoon. As a 
sophomore Member of Congress in 1994, I recall the heated 
debates prior to the passage of the California Desert 
Protection Act, and the divisive issues then, the restriction 
on users, creation of wilderness and de facto wilderness, and 
the impact of the Endangered Species Act.
    Those same issues continue to be divisive issues that fuel 
the debate today. I am privileged to now be serving in my sixth 
term in the U.S. Congress, and over the years I have seen 
varying approaches employed to deal with these ongoing 
conflicts.
    And although I don't profess to hold all of the answers, I 
can tell you from my experience what does not work. Pretending 
that mankind is not part of the environment does not work.
    Restricting access to humankind does not work either. I 
believe anything that we do as humans has an impact on our 
environment and our laws should accept that. The reality here 
is that we have a fixed amount of desert land, and a fleet6ing 
ability to access the California desert is a real tragedy.
    Using our environmental laws to lock away our national 
environment is equally tragic. It is not only tragic for 
visitors and recreational users, but it is also tragic for the 
mining community, the ranching community, the film industry, 
and the local California economies that ultimately suffer when 
users are denied access.
    That is not to say that the preservation of sensitive 
species is not important, nor is it to say that preserving a 
glimpse of our wild natural environment for future generations 
is not also important.
    However, I don't think that the way we best accomplish that 
is by pitting user groups against each other, or by 
perpetuating the belief that use and the environmental 
stewardship are mutually exclusive.
    In truth, we in Congress are as much as fault as anyone for 
the significant social consequences that have resulted from 
application of our current environmental laws. However, for 30 
years we have chosen to polarize that debate, and today we find 
that very little progress has been made, and in short it just 
has not worked.
    This afternoon a variety of testimony will be presented. We 
will be hearing from user groups, local government, the Federal 
agencies that are bound by the laws that we in Congress have 
given them to work under.
    However, across the spectrum, I am confident that we are 
going to hear some commonalities. We are going to hear common 
problems that keep coming up over and over, and that is where I 
believe or best chance for progress lies.
    That is where we have got to try and find common ground and 
promote a balanced common-sense solution that we can all live 
with. As many of you in this room already know, these are the 
types of conflicts that brought me to the U.S. Congress a 
decade ago, and I am committed to being part of the solution.
    So, Mr. Chairman, I applaud your efforts today to begin 
this process and I look forward to hearing the forthcoming 
testimony, and identifying if and where there may be 
opportunities to finally make progress on these issues. Thank 
you.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    Thank you, Mr. Chairman.
    I would also like to extend my gratitude to the Hubbs staff for 
their assistance and hospitality this afternoon, and I commend you Mr. 
Chairman for your attention to the longstanding conflicts expressed by 
user groups to the California Desert, many of whom are represented here 
this afternoon. You know, as a sophomore member of Congress in 1994, I 
remember those heated debates prior to passage of the California 
Protection Act, and the divisive issues then--restrictions on users, 
creation of wilderness and de facto wilderness, and the impact of the 
Endangered Species Act--continue to be the divisive issues that fuel 
the debate today. I'm privileged to now be serving in my sixth term in 
the United States Congress, and over the years I've seen varying 
approaches employed to deal with these ongoing conflicts. And although 
I don't profess to hold all the answers, I can tell you from experience 
what doesn't work. Pretending that mankind is not part of the 
environment doesn't work. Restricting access to humankind doesn't work 
either. I believe anything we do as humans has an impact on our 
environment, and our laws should accept that. The reality here is that 
we have a fixed amount of desert land, and the fleeing ability to 
access the California Desert is a real tragedy. Using our environmental 
laws to lock away our natural environment is equally tragic. It's not 
only tragic for visitors and recreational users, but it's also tragic 
for the mining community, the ranching community, the film industry, 
and the local California economies that ultimately suffer when users 
are denied access.
    That's not to say that the preservation of sensitive species is not 
important, nor is it to say that preserving a glimpse of our wild, 
natural environment for future generations is not important. However, I 
don't think the way we best accomplish that is by pitting user groups 
against each other, or by perpetuating the belief that use, and 
environmental stewardship, are mutually exclusive. In truth, we in 
Congress are as much at fault as anyone for the significant social 
consequences that have resulted from application of our current 
environmental laws. However, for thirty years we've chosen to polarize 
the debate, and today we find that very little progress has been made; 
in short, it hasn't worked.
    This afternoon, a variety of testimony will be presented. We'll be 
hearing from user groups, local governments, and the federal agencies 
that are bound by the laws that we in Congress have given them to work 
under. However, across this spectrum, I'm confident that we're going to 
hear some commonalities; we're going to hear common problems that keep 
coming up over and over, and that's where I believe our best chances 
for progress lie. That's where we've got to try and find common ground 
and promote balanced, common sense solutions we can all live with.
    As many of you in this room already know, these are the types of 
conflicts that brought me to the United States Congress a decade ago, 
and I am committed to being part of their solution.
    So, Mr. Chairman, I applaud your efforts today to begin this 
process, and I look forward to hearing the forthcoming testimony, and 
identifying if, and where, there may be opportunities to finally make 
progress on these issues.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Chairman. I just want to 
make sure if everybody can hear in this room. If you can't in 
the back of the room, please raise your hand. Sometimes we talk 
far away from the mike and it does not come out very well. So 
when you are closer, it works. So I just want to make sure that 
everybody can hear. If you do have a problem, please raise your 
hand.
    Today, we have three panels. We have a lot of people to 
testify. The first panel consists of the Honorable Jon 
McQuiston, who is a supervisor from District 1, in Kern County, 
Bakersfield, California; and the second is the Honorable Wally 
Leimgruber, who is a supervisor from District 5, in Imperial 
County, from El Centro; the Honorable Michael Dorame, a 
supervisor from District 5, in Inyo County, at Lone Pine; and 
the Honorable Bill Postmus, a supervisor from District 1, in 
San Bernardino County, San Bernardino, California.
    Gentlemen, welcome to the Committee. I would ask, which is 
typical to the Subcommittee, that we do swear you in. So if you 
would please stand and raise your right hand, I would 
appreciate it.
    [Witnesses sworn.]
    Mr. Radanovich. Thank you very much, and you may be seated, 
and for the benefit of the audience, the way that these 
testimonies work is that generally each person submits an 
entire written testimony, but will have 5 minutes each to be 
able to discuss their written testimony. It is better to give a 
synopsis of it that we can cover it in 5 minutes.
    And what we will do is take statements starting with you, 
Jon, and all the way down, and then we will open the panel up 
for questions from members up here. And the light system here 
works, if you would, it is set to a 5 minute timer. It works 
just like a traffic light; green means go, yellow means speed 
up, and red means stop. So please follow the rules.
    We would like to contain it within 5 minutes because of all 
of the people that are testifying today, and there is going to 
be a lot of talking in here, and so I think people are going to 
be a little bit sore by the end of this thing, and so we want 
to make sure it moves as efficiently as possible.
    So, Mr. McQuiston, welcome to the Committee, and you may 
begin your testimony.

 STATEMENT OF THE HON. JON MCQUISTON, SUPERVISOR, DISTRICT 1, 
              KEN COUNTY, BAKERSFIELD, CALIFORNIA

    Mr. McQuiston. Thank you, Mr. Chairman, for the opportunity 
to appear today. I am coming as you know in representing Kern 
County, and approximately one-third of Kern County lies in the 
California Conservation Area.
    In case there is questions at the end of all of our 
testimony, there are three people that I would like to 
introduce behind me. One is Harold Carter, the Sheriff of 
Imperial County. Harold, you may want to stick your hand up.
    Gerald Hillier, Executive Director of the Quad States 
County Government Coalition; and Lorelei Oviatt, Senior 
Supervising Planner for Kern County, who has been working on 
these issues for over 8 years.
    Now, Mr. Chairman, no substantive discussion of management 
plans or practices within the California Desert Conservation 
Area can occur without an understanding and acknowledgment of 
the role of the desert tortoise in the formulation of these 
plans.
    The desert tortoise is the keystone species up on which the 
major regional plans are based, and the tortoise recovery plan 
defines six environmental significant units which serve as the 
basis for the 14 proposed desert wildlife management areas or 
DWMAs, and has been used as a basis of areas of critical 
environmental concern, and comprising millions of acres within 
the conservation area, and with that as a background, I will 
proceed to my main points.
    The BLM regional planning process during the last 8 years 
has resulted in a substantial reduction and loss of access to 
public lands. The millions of acres comprising the conservation 
area are divided into subregions, each with its own management 
plans.
    I will be speaking today about the West Mojave, the 
Northern and Eastern Mojave Desert Management Plan, and the 
Northern and Eastern Colorado Desert Coordinated Management 
Plans.
    Each of these plans have, as a critical component, critical 
habitat for the desert tortoise and reliance on the tortoise 
recovery plan. The main issue is that under the Endangered 
Species Act, a recovery plan requires monitoring, and this 
monitoring has not been done.
     Further, the desert tortoise recovery plan by its own 
direction includes a requirement for a 3 or 5 year review for 
the inclusion of new science. Yet, no review has occurred, 
despite repeated appeals by local government, the Quad State 
Coalition, and most recently even the Desert Advisory Council.
    Further, the General Accounting Office concluded in its 
December 2002 report that the Mojave Desert Tortoise plan 
needed to be reviewed. Quite simply, the recovery plan fails to 
address appropriate measures to deal with predation and 
disease, which has been the major cause for tortoise 
populations to crash throughout the region.
    Even in areas with no motorized access, tortoise 
populations in fully protected areas have seen declines in 
excess of 80 percent due to predation and disease. And with 
full knowledge of causes of mortality, and with much better 
science today, along with the statutory mandate for monitoring, 
and a promise to review the plan within 3 to 5 years, the U.S. 
Fish and Wildlife Agency's position is that it needs 2 or 3 
years to study the need for a recovery plan.
    Now, armed with this same knowledge and awareness of these 
shortcomings, and that the tortoise recovery plan is advisory 
in its discretionary decisionmaking process, the Bureau of Land 
Management, in consultation with the U.S. Fish and Wildlife, 
nevertheless continues to use the recovery plan as the 
principal foundation of new management plans within the 
conservation area.
    And by relying on the outdated plan, we are still not 
implementing the measures that are most needed for the survival 
and recovery of the Mojave Tortoise population. Instead, we are 
focusing on removing access and eliminating multiple uses, all 
in the name of species recovery.
    My second issue focuses on motorized access. To manage the 
motorized access process is a term called route designation, 
which is a euphemism for road closure, for in practice the 
route designation process does not create new routes, or open 
previously closed routes. It is used to close or restrict 
existing routes.
    Multiple use, such as grazing, mining, the interests that 
you noted today, are critical to counties' economies and 
important to people who live there. The loss of motorized 
access is the loss of multiple use.
    The loss of motorized access is also a loss of sustained 
yield to both renewable and non-renewable resources necessary 
to sustain the product needs of a growing population from 
everything that we wear, to shoes, to cars, everything, and we 
either grow it, mine it, or extract it.
    And for all practical purposes these losses are 
irrevocable. I could walk you through another paragraph. I see 
the amber light, and I want to stay on time. We have spent 
countless hundreds of hours working on management plans. Our 
staff, we have traveled to Washington, D.C., and we have 
assisted user groups, and we have been members of steering 
committees, public workshops.
     Yet at the end of the day, our comments and concerns about 
route designation has not made a difference. Management, by 
closure, based on flawed science and antidotal evidence, is the 
outcome of these long complicated processes.
    Mr. Chairman, no parent likes to admit that they have ugly 
children, but the route designation process is broken. Flawed 
processes and flawed recovery plans drive flawed management 
plans. Each plan and each office develops its own criteria and 
processes for route evaluation.
    Mapping is often not verified. In one region, five criteria 
are used to determine route closure and only 30 percent has 
been evaluated. In another region, there is 23 criteria. I see 
my red light, and so I am going to conclude my comments by just 
saying that route designation needs to have better processes.
    The things that we would ask that this Committee consider. 
The U.S. Fish and Wildlife should proceed with all deliberate 
speed to commence and review for the tortoise recovery plan. 
The Endangered Species Act specifically requires monitoring to 
determine the efficiency and recovery measures, monitoring 
should be completed.
    And last, the BLM should develop with full public input a 
consist process and standard for route designation, including a 
requirement that the loss of a resource in recreational 
opportunities would be balanced and mitigated by the inclusion 
of opportunities in other areas. Thank you.
    [The prepared statement of Mr. McQuiston follows:]

        Statement of Jon McQuiston, First District Supervisor, 
                    Kern County Board of Supervisors

    Mr. Chairman, thank you for the opportunity to appear before your 
Committee today. I am speaking today as Kern County First District 
Supervisor. My district includes a portion of the California Desert 
Conservation Area (CDCA). I am a current member of the Bureau of Land 
Management Desert District Advisory Council representing local 
government.
    With me today speaking on the local government panel are Wally 
Leimgruber, Imperial County Supervisor; Michael Dorame, Inyo County 
Supervisor, and Bill Postmus, San Bernardino County Supervisor. In 
preparation for any questions Committee members may have, I also have 
behind me:
    <bullet> Dr. William Jefferds, Major General (Ret.-U.S. Army), 
Senior Military Advisor to the Governor of the State of California, and 
the Director, Office of Military Support (OMS). Dr. Jefferd's state 
role is advocate for operational readiness and sustainability of bases 
and ranges in the CDCA which comprise 2.3 million acres of military 
land. These bases and ranges include China Lake Naval Air Weapons 
Stations, Edwards Air Force Base, Fort Irwin, Marine Corps Air Ground 
Combat Center at Twenty-nine Palms, Marine Corps Logistics Base, 
Chocolate Mountains Aerial Gunnery Range, and the Naval Air Facility at 
El Centro.
    <bullet> Gerald Hillier, Executive Director of the QuadState 
County Government Coalition of which Kern, Imperial, and San Bernardino 
counties are members. QuadState County Government Coalition is a 
California Joint Exercise of Powers Act agency whose members include 
six counties within four states in the Mojave Desert region (Mojave 
County, Arizona; Imperial, Kern and San Bernardino counties, 
California; Lincoln County, Nevada; and Washington County, Utah).
    <bullet> Lorelei Oviatt A.I.C.P., Supervising Planner with the 
Kern County Planning Department is responsible for the Kern County Home 
Rule program and has represented Kern County on BLM regional planning 
issues during the last eight years.
    I appreciate the opportunity you have provided today to hear the 
concerns of local elected officials and users of the public lands in 
the California Desert Conservation Area District (CDCA).
    No substantive discussion of management plans or practices within 
the California Desert Conservation Area can occur without an 
understanding and acknowledgment of the role of the Desert Tortoise in 
the formulation of those plans and practices. The Desert Tortoise is 
the ``keystone'' species upon which the major regional plans are based. 
The Tortoise Recovery Plan defines six Environmental Significant Units 
(ESU's), which serve as the basis for the fourteen proposed Desert 
Wildlife Management Areas (DWMAs), and has been used as a basis for 
Areas of Critical Environmental Concern (ACECs) comprising millions of 
acres within the CDCA. In the Tortoise Recover Plan the six ESU's are 
renamed as the following recovery units: Northern Colorado Recovery 
Unit, Eastern Colorado Recovery Unit, Upper Virgin River Recovery Unit, 
Eastern Mojave Recovery Unit, Northeastern Mojave Recovery Unit, and 
the Western Mojave Recovery Unit. With that as background, I will 
proceed to my main points.
    BLM Regional planning processes during the last eight years has 
resulted in a significant reduction and loss of access to public lands. 
The millions of acres comprising the California Desert Conservation 
Area are divided into subregions, each with its separate management 
plans. The list is long. The plans I will be speaking about today are 
the West Mojave Plan, Northern and Eastern Mojave Desert Management 
Plan, and the Northern and Eastern Colorado Desert Coordinated 
Management Plan. These management plans all have as a key component 
critical habitat for the Desert Tortoise and reliance on the Desert 
Tortoise Recovery Plan. Under the Endangered Species Act, a recovery 
plan requires monitoring, yet no monitoring has been done. 
Additionally, the Desert Tortoise Recovery Plan by its own direction 
includes a requirement for a three or five year review and inclusion of 
new science; yet, no review has occurred despite repeated appeals by 
local government, the Quad State Coalition, and most recently a request 
by the Desert District Advisory Council. Further, the General 
Accounting Office (GAO) concluded in its Dec 2002 report on the Mojave 
Desert Tortoise that the review needed to be completed.
    The Tortoise Recovery Plan fails to address appropriate measures to 
deal with predation and disease which has caused tortoise populations 
to crash in locations through the desert. Even in areas with no 
motorized access, tortoise populations in fully protected areas have 
seen population declines in excess of 80 percent due to predation and 
disease. With full knowledge of the main causes of mortality, much 
better science, a statutory mandate for monitoring, and a promise to 
review the plan within three or five years, the U.S. Fish and Wildlife 
Agency's position is it needs two or three years to study the need for 
a Recovery Plan update.
    With knowledge and awareness of these shortcomings and that the 
Tortoise Recovery Plan is advisory in its discretionary decision-making 
process, the Bureau of Land Management, in consultation with U.S. Fish 
and Wildlife, nevertheless continues to use the Tortoise Recovery Plan 
as the principle foundation of these new management plans within the 
CDCA. By relying on the outdated Tortoise Recovery Plan in developing 
these land use management plans, BLM and USFW are still not 
implementing the measures most needed for the survival and recovery of 
the Mojave tortoise population. Instead they are removing access and 
eliminating multiple uses in the CDCA all in the name of species 
recovery.
    My second issue focuses on motorized access. To manage motorized 
access is the process called ``Route Designation''. Route designation 
is a euphemism for ``road closure'', for in practice the route 
designation process does not create new routes or open previously 
closed routes, it is used to close and restrict existing routes. 
Multiple use such as grazing, mining, filming, recreational vehicle 
use, and hunting on the public lands is critical to the county economy 
and important to the people who live there. Loss of motorized access is 
loss of multiple use. Loss of motorized access is also loss of the 
sustained yield of renewable and non-renewable resources necessary to 
sustain the product needs of a growing population, ranging from the 
shoes we wear to the products in our reading glasses and even to 
electric or hybrid vehicles, bicycles or the paint to mark pedestrian 
walkways. For all practical purposes, these losses are irrevocable.
    I would like to provide you with a view into the world of route 
designation planning in the Desert District Conservation Area. Kern 
County's Planning Department's commitment to develop and review these 
plans has taken literally thousands of hours of staff time. Staff has 
attended hundreds of meetings and reviewed encyclopedia size documents. 
The Desert District Advisory Council has spent numerous meetings on the 
subject, listening to citizens, reviewing documents, and developing 
recommendations and specific requests to the Desert District Manager. 
We have traveled to Washington D.C. and Sacramento to meet with 
Department of Interior leadership to present our thoughts and ideas on 
improving the process. We have assisted user groups and citizens in 
understanding the process and in providing comments on the plans. We 
have been members of steering committees, workgroups, public meetings 
and technical review teams.
    Yet, at the end of the day, our comments and concerns regarding 
route designation and management of multiple use have not made a 
difference. Management by closure, based on flawed science and 
anecdotal evidence is the result of these long, complicated, often 
tedious planning programs. We have had some small successes involving 
collaborative processes on smaller areas such as the El Paso region 
south of Ridgecrest, California, along with involvement of special 
groups and advisory committees to manage areas such as Jawbone Canyon. 
The City of Ridgecrest has also been involved in these efforts and I am 
submitting supplemental information that expresses the city's point of 
view. In the end, these small successes are the exception not the rule 
and mostly the result of local government intervention to the state or 
federal level.
    Mr. Chairman, no parent likes to admit they have ugly children, but 
the route designation process is broken. Flawed process and flawed 
recovery plans drive flawed management plans. Each plan and each BLM 
field office develops its own criteria and process for conducting route 
designation and route evaluation. Mapping is often based on older maps 
that are not field verified. In the Northern and Eastern Colorado 
Desert Coordinated Management plan, there were five criteria and only 
30 percent of the roads were evaluated. In the West Mojave Plan there 
were originally 23 criteria and then a decision tree was developed. 
Field verification was started, but never completed. Existing use is 
brushed aside and questionable claims of impacts to a biological 
resource are sufficient to close a route. Citizens fight to prove the 
route should stay open, while the mere anecdotal sighting of a 
migratory bird is in fact enough to have the agency close it.
    It is no longer the Congressional mandate of multiple use and 
sustained yield that guides the route designation process. It is, for 
the most part, the staff biologists. With no consistent scientific 
methodology and clear criteria throughout the resource areas, route 
designation becomes a function of individual management discretion. The 
CDCA is one ecological region. We continue to ask the question: 
Shouldn't the multiple use and sustained yield goals of the CDCA Plan 
enacted by Congress, and not the management style and philosophy of 
each field office be the determinate factor in forming public policy 
decisions and actions?
    Flawed process and flawed recovery plans combined with settlement 
agreements have created a CDCA area that barely meets the definition of 
multiple use. Our neighbor, San Bernardino County, one of the richest 
mineral areas in the United States, no longer has any viable potential 
for mining on public lands. Cattle and sheep grazing, once a vital, 
profitable industry, merely survives on the acreage left. We mitigate 
for the loss of other resources, but not for the loss of vital 
resources that fuel the economies of our desert communities.
    Mr. Chairman to conclude, route designation must be based on good 
science and sound public policy. I am not opposed to route closures, 
only to a process that has no consistent criteria or standards. The 
public should be able to understand the decision-making process and how 
conclusions are reached. It should be clear, consistent, fair, and 
promote multiple use on public lands while conserving important 
cultural and biological resources for the future generations. It should 
be what Congress enacted.
    In summary, I would suggest the following actions for the Committee 
to consider.
    1. U.S. Fish and Wildlife should proceed, with all deliberate 
speed, to commence the review of the Desert Tortoise Recovery Plan.
    2. The Endangered Species Act requires monitoring to determine the 
effectiveness of the recovery measures. Monitoring should be completed.
    3. The Bureau of Land Management should develop, with full public 
input, a consistent process and standard for the route designation 
including a requirement that the loss of resource and recreational 
opportunities would be balanced and mitigated by the inclusion of 
opportunities in other areas.
    I would be pleased to answer any questions you or the other members 
of the Subcommittee may have.
    NOTE: Additional information included with Mr. McQuiston's 
statement has been retained in the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. McQuiston. Are those your 
notes beside you?
    Mr. McQuiston. The comment that I didn't have time to make, 
but thank you, this is the California Desert Conservation Area 
Plan in 1980. This is not all-inclusive. These are the plan 
amendments that it takes to implement this particular 1980 
plan. It is still growing and it still is not right.
    Mr. Radanovich. Thank you, Mr. McQuiston. Mr. Leimgruber, 
welcome to the Committee. If you want to begin your testimony, 
please.

STATEMENT OF THE HON. WALLY LEIMGRUBER, SUPERVISOR, DISTRICT 5, 
             IMPERIAL COUNTY, EL CENTRO, CALIFORNIA

    Mr. Leimgruber. Thank you, Chairman, and Members of the 
Committee, for inviting me to provide testimony at this 
hearing. I am speaking today as the Imperial County Supervisor. 
My district, the Fifth District, includes the entire east side 
of Imperial County, and includes the entire 160,000 acres of 
the BLM Imperial Sand Dunes recreational area.
    I am a current member of the Bureau of Land Management 
Desert District Advisory Council representing local government. 
I also serve as Chairman of the Quad State County Government 
Coalition.
    I would like to speak today about the Imperial Sand Dunes 
and the work of the Desert District Advisory Council. The Sand 
Dunes are very special to Imperial County. The Imperial Sand 
Dunes Recreational Area provides over $44 million per year 
benefit to our county, a county with limited economic 
opportunity.
    This is an area where we want to have families come and 
enjoy. We want these families to come back out to Imperial 
County and feel safe. This county time and time again, with 
over 750,000 visitors a year that we receive at the Dunes, are 
a guest, and we want them to be able to pursue activities that 
make the Dunes world-famous safely in a family environment.
     We work closely with the local BLM El Centro office on law 
enforcement issues to ensure that that atmosphere exists. Sine 
2001 the Imperial County Board of Supervisors, the Imperial 
County Sheriff, the BLM, and the California Highway Patrol have 
worked together to increase law enforcement presence and 
enforcement in the Dunes, and it has been highly successful.
    We are involved in the process of developing the plan for 
the management of the Dunes, and want to see the area reopened 
based on new information and science now available. Protection 
of the resource of the Dunes, and the recreational opportunity 
in the Dunes are important to Imperial County.
    I am currently a member of the Bureau of Land Management 
District Desert Advisory Committee representing local 
government. As you know the Committee was established by 
Congress through the Federal Land Policy and Government Act as 
a citizens advisory group to BLM.
    But more specifically the Desert District Advisory Council 
is to provide counsel and advice to the California Desert 
Conservation Area District Manager regarding management of the 
public land resource implementation and resolution of land use 
conflicts, and assurance of public input in land use and 
management decisions.
    My experience on the District Desert Advisory Council has 
come at a time when land use conflicts are always on the 
agenda. We have discussed the regional plans, including 
Imperial Sand Dunes, at more than one meeting.
    At a meeting in Barstow, we had over 200 people attending 
to testify on the Dunes as a world-class family recreational 
area. This kind of participation and forum, combined with the 
quality of the DAC members, makes this truly an assert to the 
public land management process.
    Yet, it is my experience that the recommendations of the 
Committee are not given real consideration. At our December 
8th, 2001 District Advisory Council meeting, after listening to 
all of the public input and decision, eight specific 
resolutions were passed for consideration by BLM.
    One of the resolutions recommended that the use within the 
Imperial Sand Dunes planning area are affected by decisions in 
the final recreational area management plan be mitigated. We 
mitigate for the loss of other resources, but not for the loss 
of recreational opportunities, and my question is why not.
    None of our recommendations were accepted and the response 
letter that we received in May of 2002 was to discouraging, and 
I have attached a copy of the BLM response in my written 
statement for your review.
    The District Advisory Council commits time and resources to 
review issues and conduct meetings. The public takes time to 
come and provide comment. The BLM spends time and money, and 
staff resources, to conduct the meeting. There should be some 
administrative review of the DAC recommendations at a higher 
level than a district manager.
    Mr. Chairman, to conclude, the Imperial Sand Dune 
Recreational Area is unique as both a natural resource and 
recreational opportunity. We need to formulate the best plan 
that will expand the opportunities and ensure the economic 
benefits to the community of Imperial County. I would be 
pleased to answer any questions that yourself or other members 
of the Subcommittee may have.
    [The prepared statement of Mr. Leimgruber follows:]

       Statement of Wally Leimgruber, Fifth District Supervisor, 
                  Imperial County Board of Supervisors

    Thank you, Chairman and members of the Committee for inviting me to 
provide testimony at this hearing. I am speaking today as the Imperial 
County Supervisor. My district, the Fifth District includes the entire 
east side of Imperial County and includes the entire 160,000 acres of 
the BLM Imperial Sand Dunes Recreation area. I am a current member of 
the Bureau of Land Management Desert District Advisory Council 
representing local government. I also serve as Chairman of the Quad 
State County Government Coalition.
    I would like to speak today about the Imperial Sand Dunes and the 
work of the Desert District Advisory Council. The sand dunes are very 
special to this county. The Imperial Sand Dunes recreation area 
provides over $44 million benefit to our county, a county with limited 
economic opportunism. This is an area that we want to have families 
come and enjoy. We want you to come out here and feel safe. We want you 
to come back to the county time and time and time again. The over 
750,000 visitors a year we receive at the dunes are our guests; we want 
them to be able to pursue the activities that make the dunes world 
famous, safely, in a family environment. We work closely with the local 
BLM El Centro Office on law enforcement issues to ensure that 
atmosphere. Since 2001, the Imperial County Board of Supervisors, the 
Imperial County Sheriff, the BLM, and the California Highway Patrol 
have worked together to increase law enforcement presence and 
enforcement in the dunes, and it has been highly successful.
    We are involved in the process of developing the plan for the 
management of the dunes and want to see areas reopened based on the new 
information and science now available. Protection of the resources of 
the dunes and the recreational opportunities in the dunes are important 
in Imperial County.
    I am currently a member of the Bureau of Land Management, Desert 
District Advisory Committee representing local government. As you know, 
this Committee was established by Congress, through the Federal Land 
Policy and Government Act, as a citizens' advisory group to the BLM. 
But, more specifically, the DDAC is to provide counsel and advice to 
the CDCA District Manager regarding management of the public land 
resources, implementation, resolution of land use conflicts and 
assurance of public input in land use and management decisions.
    My experience on the Desert District Advisory Council has come at a 
time when land use conflicts are always on the agenda. We have 
discussed the regional plans, including the Imperial Sand Dunes, at 
more then one meeting. A meeting in Barstow had over 200 people 
attending to testify on the dunes as a world-class family recreation 
area. This kind of participation and forum, combined with the quality 
of the DAC members, makes this truly an asset to the public land 
management process.
    Yet, it is my experience that the recommendations of the Committee 
are not given real consideration. At the December 8, 2001, DAC meeting, 
after listening to all the public input and decision, eight specific 
resolutions were passed for consideration by BLM. One of the 
resolutions recommended that all uses within the Imperial Dunes 
planning area affected by decisions in the Final Recreation Area 
Management Plan be mitigated. We mitigate for the loss of other 
resources, but not for the loss of recreational opportunities. Why not? 
None of our recommendations were accepted and the response letter we 
received in May 2002 was discouraging.
    The DAC commits time and resources to review issues and conduct 
meetings. The public takes time to come and provide comments. The BLM 
spends money and staff resources to conduct the meetings. There should 
be some administrative review of the DAC recommendations at a higher 
level then the District Manager.
    Mr. Chairman to conclude, the Imperial Sand Dunes Recreation Area 
is unique as both a natural resource and a recreational opportunity. We 
need to formulate the best plan that will expand the opportunities and 
ensure the economic benefits to the communities of Imperial County. I 
would be pleased to answer any questions you or the other members of 
the Subcommittee may have.
    Attachments to Mr. Leimgruber's statement have been retained in the 
Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Leimgruber. I 
appreciate your testimony. Mr. Michael Dorame, welcome to the 
Subcommittee. If you want to begin your testimony that would be 
much appreciated.

 STATEMENT OF THE HON. MICHAEL DORAME, SUPERVISOR, DISTRICT 5, 
               INYO COUNTY, LONE PINE, CALIFORNIA

    Mr. Dorame. Thank you, Mr. Chairman, and Committee members, 
I thank you for providing the opportunity to address this body 
regarding specific impacts to Imperial County government, its 
residents and other public land users, and recreationalists, 
brought on by actions taken by Federal land management 
agencies.
    It has been my experience as a county supervisor the past 
6-1/2 years to witness how much public land management 
practices are driven by reaction to lawsuits brought on by 
environment extremists and other interest groups, without 
regard for consequences suffered by people in general.
    As a result of the California Desert Protection Act, some 
roads were closed denying access to public lands in my 
supervisorial district. Some of those roads had historic access 
to mines, grazing, hunting locations, back country camping, and 
other recreational activities.
    Interestingly, most of the roads designated for closure led 
to natural springs. Also, many closures resulted by 
administrative fiat. The additional land management 
responsibilities came without additional human resource 
funding. So internally the park rangers decided what they could 
and could not effectively patrol. No money, no manpower, no 
access.
    One very important county maintained road is Saline Valley 
Road, originally designated as the westerly boundary of the 
expanded parklands and agreed to as such by opposing interest 
groups. After reaching agreement over this issue the boundary 
maps were submitted to Congress, but had been altered, and did 
not reflect what was agreed to.
    Indeed, the westerly boundary had been moved west of Saline 
Valley Road to the Inyo Mountains, insidiously performed 
without public input. I asked a member of the Sierra Club 
Congressional Boundary Committee if they would consider 
changing the boundary back to Saline Valley Road, and the 
response was that was a congressionally designated boundary, 
and it will take an Act of Congress to change it.
     As I address you today, Inyo County finds itself in a 
precarious financial dilemma. Very recently, we have 
experienced tremendous monsoonal downpours that have washed out 
many of our county-maintained roads in the desert, to the 
extent that we have declared a local emergency, and have 
applied for emergency funding from the State to enable us to 
expedite repairs that will cost in excess of a million dollars.
    Saline Valley Road is one of those damaged, and here is the 
hook. Historically the Inyo County Road Department has used 
materials from borrow pits located west of Saline Valley Road 
for repair and reconstruction.
    With the movement of the westerly boundary to the Inyo 
Mountains, those material borrow pits are now in designated 
wilderness, thus driving up the cost of road repairs, because 
without Park Service cooperation and permission, we have to 
haul material over 50 miles in some cases, depending on where 
the road damage has occurred.
    Today, I am asking for your help. Please consider taking 
action that will eventually result in the redesignation of 
Saline Valley Road as the westerly boundary of Death Valley 
National Park. The result will be mutually beneficial to Inyo 
County, the Park Service, and the public in general; a county 
road that is more cost-effectively maintained and a safe, more 
enjoyable, visitor experience, and less land responsibility for 
the park rangers.
    Additionally, under the same Act, I have constituents who 
reside in Homewood Canyon, whose historical water rights are in 
potential jeopardy because their springs were either carelessly 
or carefully drawn into the BLM wilderness boundary.
    Some of those folks have resided in the canyon since before 
the BLM was established, and possess certified, valid existing 
State water rights. Please make them whole by taking action to 
cherry stem their spring water source out of the BLM 
wilderness.
    Another example of infringement on private property rights 
is the BLM closure of Surprise Canyon Road. It is a 
congressionally designated cherry-stemmed road through BLM and 
Park Service wilderness, terminating at Panamint City. Private 
owned property.
    In designating the Surprise Canyon cherry-stemmed 
boundaries, Congress clearly recognized and by its action 
acknowledged that private property owners had a right to 
ingress and egress to their private end holdings.
    In closing off access to Surprise Canyon Road, BLM's action 
is inconsistent and administratively at odds with the 
Congressional order which established the boundaries that 
identified Surprise Canyon Road, P71, as a cherry-stemmed 
access to Panamint City under the California Desert Protection 
Act.
    BLM's action is a de facto change of a Congressionally 
established boundary without the required and necessary action 
by Congress to change a wilderness boundary. If it takes an Act 
of Congress to change a Congressionally designated boundary, 
then that is just what it takes.
    And I say to my friends at the Sierra Club that you can't 
have it both ways. These private property owners have valid and 
existing RS2477 access rights that are being violated. I ask 
you to take action as a Congressional body that sends a clear 
message to the people of the United States that their Congress 
is in charge and will not allow further violations of the 
people's private property rights. Thank you for listening to a 
fellow representative of the people, and I will answer any 
questions that you may have.
    [The prepared statement of Mr. Dorame follows:]

     Statement of Michael A. Dorame, Fifth District Supervisor and 
       Chairperson, Board of Supervisors, Inyo County, California

    Mr. Chairman and Committee Members, thank you for giving me the 
opportunity to address this body regarding access to the California 
Desert Conservation District. I am proud to represent Inyo County, 
which is located on the eastern side of the Sierra Nevada Mountains, 
consisting of 10,140 square miles with a population of approximately 
18,000. We are a year-round vacation destination point with vast scenic 
and recreational areas offering a wide variety of outdoor recreational 
activities including fishing, camping, off roading, water skiing, 
picnicking, sightseeing, photography, hiking, hunting and winter 
sports. We are noted for having the lowest and highest land elevations 
in the continental United States and we are home to the Death Valley 
National Park. Our primary source of revenue is recreational tourism. 
Less than 2% of the land is privately owned. With over 98% of our land 
being owned by the City of Los Angeles, the Federal Government and 
other governmental agencies, protecting personal property and access 
rights is vital to the health and well being of our County.
    For the past several years we have been inundated with changes to 
the governmental rules, regulations, guidelines and management plans 
for our public lands. We have seen a historic ``packing'' industry 
reduced to virtually nothing due to new restrictions in the Inyo 
National Forest Plan, which restricts access and party numbers. We have 
had subjective closures of roads, which were addressed by our Board in 
Inyo County Resolution No. 2002-36, which reaffirmed and established 
standards for the recognition of rights-of-way in accordance with 
United States Revised Statute 2477. We added a ``Resource Management'' 
Coordinator to our staff just to keep abreast of the voluminous numbers 
of requests for comment on proposed changes affecting public lands in 
our County. We are in the process of yet another attempt by Senator 
Boxer to claim more of our public lands for wilderness designation and 
what will most probably result in further access restrictions. We 
continue to vehemently argue for local control and consideration when 
efforts are instigated to change designations, close roads and/or deny 
access to those lands located in Inyo County. We lost a hard fought 
battle to gain local input on the boundary designations for the Death 
Valley National Park when it was established, which ultimately resulted 
in access being denied to a multitude of personal and mining 
properties.
    On May 7, 2002, the Inyo County Board of Supervisors adopted 
Resolution No. 2002-34 addressing our concerns with a proposed 
legislative action to expand the wilderness designation for a large 
part of the Inyo National Forest. In that Resolution we acknowledged 
that our citizenry has identified the protection of recreational and 
agricultural lands and access to public lands as priorities; we 
acknowledged our 2001 Inyo County General Plan Update Goals and 
Policies Report, which identifies policies to preserve and protect: (a) 
a variety of recreational opportunities; (b) appropriate access to 
resource managed lands; (c) current and future extraction of mineral 
resources; and (d) use of public lands for agricultural operations; as 
well as goals to provide for a balanced approach of resource protection 
and recreation and resource use of lands. (See Attachment A.)
    In Resolution No. 2002-34, the County of Inyo also identified that 
the following be considered when expanding the Wilderness Systems in 
the County of Inyo:
    <bullet> Provide opportunities to obtain local consensus and 
support for any changes to public land designations in Inyo County and 
address the concerns of residents and public land users;
    <bullet> Ensure, through prior economic analysis, that Inyo 
County's communities and businesses will not be adversely impacted by 
changes to public land designations;
    <bullet> Protect existing recreation, grazing, packing, mining, 
research, archeological and cultural uses on federal lands, including 
access;
    <bullet> Protect private property rights, including vested water 
rights, and access to private land inholdings and other lands that may 
be affected by adjoining federal land acquisitions;
    <bullet> Ensure there are no net loss of privately owned property 
in Inyo County as a result of expanded Wilderness designations; and, 
finally
    <bullet> Ensure there is no net loss in revenues to local 
governments necessary to provide and maintain essential public 
facilities and services.
    The Inyo County Board of Supervisors remains committed to 
continuing to protect our inherent rights whenever and wherever our 
lands and our access to these lands are jeopardized. More specifically, 
the California Desert Conservation District is located in the southern 
portion of Inyo County. Just a few examples of how denied access 
impacts our County follow.
    Some road closures and the denial of access to public lands 
resulted from the California Desert Protection Act which is encompassed 
by the District. These roads, which were closed, had historic access 
and were R.S. 2477 right-of-way roads. When the Park boundaries were 
drawn the following roads were eliminated and are no longer reflected 
on the Park maps. It should be noted here that no local input was taken 
prior to the elimination of these roads. Some of the roads closed or 
eliminated are: Waucoba Wash and Waucoba Mine Road, Lower Saline Road, 
Rainbow Canyon Road, Jackass Flats, 4 Spurs off the main road. (A more 
detailed list of the roads can be found on Attachment B.)
    Private property rights are severely infringed upon when wilderness 
boundaries are established without regard to local input relative to 
private inholdings, such as the case with the residents of Inyo County 
who live in Homewood Canyon. The water source for some of the residents 
in Homewood Canyon are natural springs and when the boundaries for the 
California Desert Protection Act were drawn these springs were absorbed 
into the BLM wilderness boundaries. As a result the water source for a 
domestic water supply for certain individuals was put in jeopardy. 
Those water conveyances must be ``cherry stemmed'' and the boundaries 
redrawn so that ingress and egress to the springs is removed from the 
BLM jurisdiction in order to protect a fragile domestic water source 
and the property rights for those effected residents.
    Another example of infringement on private property rights is the 
BLM closure of Surprise Canyon Road. Surprise Canyon road was a 
Congressionally drawn ``cherry stem'' boundary of the California Desert 
Protection Act. Panamint City is at the end of Surprise Canyon Road and 
part of the ``cherry stem'' designation. There are approximately 28 
private property owners who are currently denied access to their 
property in Panamint City because of the BLM action to gate the road.
    Originally when the boundaries for the California Desert Protection 
Act were drawn Surprise Canyon Road, was designated as Route P71. This 
is the road to Panamint City, and it was clearly ``cherry stemmed'' to 
allow access to the private property. In 2000 the Center for Biological 
Diversity (CBD) filed a lawsuit against the BLM. In May 2001, BLM, as a 
settlement to the lawsuit, agreed to perform an emergency closure of 
Surprise Canyon Road up to Panamint City and to perform an 
Environmental Impact Statement (EIS). This closure was the result of an 
agreement between the BLM and CBD, and did not involve any local or 
public input. The EIS is to include a decision regarding human access 
into the Surprise Canyon as well as a determination about the 
suitability of designating Surprise Canyon Creek as an addition to the 
system of Wild and Scenic Rivers of the United States under the 
provision of the Wild and Scenic Rivers Act. BLM in reaching a 
settlement with the Center, agreed to mechanically close Surprise 
Canyon Road, in direct opposition to the California Desert Protection 
Act boundaries, and thus deny access to those individuals who have 
private property in Panamint City, even though in the lawsuit the Court 
ordered that the private property owners in Panamint City were not to 
be denied access to their property. BLM's action is inconsistent with 
the Congressional Order, which established the boundaries and 
identified Surprise Canyon Road, Route P71, as a ``cherry stemmed'' 
access to Panamint City in the California Desert Protection Act.
    Here is another example of the effects of indiscriminate boundary 
designation. When discussions began regarding the western boundary for 
the Death Valley National Park, various environmental and special 
interest groups became involved in the negotiations for the boundary 
line. After years of negotiations and deliberations, the group agreed 
that the western boundary for the Park would parallel the eastern side 
of Saline Valley Road. This was done because Saline Valley Road could 
be easily defined as a boundary line because there was a County Road 
already being maintained. What transpired next, was that one party left 
the table believing that an agreement had been reached on the western 
boundary, which identified the eastern side of Saline Valley Road as a 
boundary line. The group remaining at the table then changed the 
boundary line and extended it beyond Saline Valley Road west to the 
Inyo Mountains thereby encompassing Inyo County's Saline Valley Road 
into the National Park.
    While the County continued to have responsibility for Saline Valley 
Road because it was listed on the County's Maintained Mileage System as 
well as it being an R.S. 2477 right-of-way, with the change in 
boundary, the County lost access to its ``road materials'' borrow pit 
and in order to maintain Saline Valley Road now must transport road 
materials over 50 miles increasing the cost to the County of 
maintaining the road. Had local concerns been heard by those 
responsible for the indiscriminate changing of the western boundary 
line and acted accordingly, this unfortunate situation would not exist.
    As a real-time example of what I am referring to, from July 29, 
2003, through August 2, 2003, torrential rainfall in Inyo County 
resulted in massive and dangerous mud and rock slides to the roads in 
the southern portion of the County. On August 8, 2003, our Director of 
Emergency Services declared a Local Emergency because the damage to our 
roads resulted in over $1,060,000 and, in a small county like Inyo, 
this unexpected cost will virtually wipe out our road reserves. One of 
the roads affected by these slides was Saline Valley Road.
    In order for the County to expeditiously and cost effectively 
complete the emergency repair of that road, we need access to the 
closest road materials pit, our Waucoba Borrow Pit, which is closed to 
us because of the Death Valley National Park boundary. We have just 
received authorization from the National Park Service to allow us to 
use the borrow pit temporarily for our repairs to the Saline Valley 
Road. In the Park Service's authorization to utilize the borrow pit, 
they have restricted our use in such a manner as we will probably not 
be able to sufficiently repair the road without supplemental materials 
being transported. While we are grateful that access in this instance 
was given, the fact remains that any on-going or future repairs will 
still be costly to the County because we have been denied continued 
access to our original borrow pits.
    Additionally, what is most frustrating about this situation is that 
it would be mutually beneficial to both the County and the Park Service 
if the original boundary line of Saline Valley Road had been left as 
originally agreed upon or was to be restored. The Park would have 
enhanced visitation because of access via a well-maintained County road 
and the County would regain access to their materials borrow pit to 
promote the cost effective on-going repair and maintenance of the road.
    In closing, I would like to encourage this Committee to take the 
message back to their peers in Congress that when Congressional action 
is taken on wilderness designations and boundaries, that those Agencies 
tasked with the responsibility to regulate and enforce these actions be 
provided with sufficient resources and an understanding of the Act to 
ensure that the enforcement is consistent with the intention of the 
Act. It is also vital that there is a clear and concise understanding 
that enforcement must encompass local input to ensure the protection of 
local priorities, i.e., economy, environment, personal property rights, 
access, etc. Additionally, I would like to request that boundary 
adjustments be made to rectify the denial of access to private property 
in Inyo County, and to bring the western Boundary of the Death Valley 
National Park back to the originally agreed upon designation of being 
parallel to the east side of Saline Valley Road.
    Attachments to Mr. Dorame's statement have been retained in the 
Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Dorame. I 
appreciate your testimony. Mr. Postmus, welcome to the 
Committee. If you want to begin your testimony, that would be 
terrific.

STATEMENT OF THE HON. BILL POSTMUS, SUPERVISOR, DISTRICT 1, SAN 
         BERNARDINO COUNTY, SAN BERNARDINO, CALIFORNIA

    Mr. Postmus. Thank you very much, Mr. Chairman, and welcome 
to the both of you, and thanks for coming down to San Diego. We 
are glad to be here today because of the weather, and the fact 
that it is 75 degrees out today. My name is Bill Postmus--
    Mr. Radanovich. You would agree that this is a better 
choice than Death Valley would you not?
    Mr. Postmus. Much. Absolutely. My name is Bill Postmus, and 
I am the county supervisor for the First District of San 
Bernardino County, California. San Bernardino County is the 
largest local governmental jurisdiction in the lower 48 States, 
and contains over 8 million acres of public lands under a 
variety of Federal jurisdiction.
    San Bernardino County has experienced significant impacts 
from the desert management and so-called protection over the 
past 27 years, and my word to the Committee is simple; enough 
is enough.
    My request to this Committee, to Congress, and to the 
Department of Interior, is four-fold. Number 1, we did a 
moratorium on implementation of land use planning until the 
monitoring of recommendations of the General Accounting Office 
audit are implemented on reserves, parks, and wilderness.
    The imposition of further planning decisions and 
elimination of land uses is definitely inappropriate. Neither 
the Bureau of Land Management, the Park Service, nor the Fish 
and Wildlife Service have taken positive actions to deal with 
the main causes of the tortoise decline. Instead, they continue 
with land closures.
    Number 2, we request a thorough review of the National Park 
Service's units and programs. They have eliminated most 
historic land uses within their jurisdictions, and we are not 
aware of any monitoring to determine the effect on resources or 
economics in our area.
     Number 3, the Congress should cease all private land 
acquisitions by the Federal Land Management Agencies within the 
California Desert Conservation Area. San Bernardino County now 
has lost over 600,000 acres in the last 4 years. That is 
600,000 acres. Plus, many ranches and mines.
    And currently there is the passage of H.R. 380, which 
contains a retroactive provision, such that at least the 
county's tax base losses would be made up by a interest-bearing 
endowment, and before we recommend amendments to the California 
Desert Protection Act to remove sunset provisions of Park 
Service advisory commissions, provide for the inclusion of 
access for wildlife habitat management, including maintenance 
of water facilities within the Park Service wilderness units, 
and the review of wilderness boundaries, and review current 
actions of the National Park Service regarding limitations on 
hunting under the guise of the Endangered Species Act.
    The California Desert Conservation Area was created in a 
special section of the Federal Land Policy and Management Act 
of 1976, emphasizing a multiple use management of public lands. 
This particular concept had become lost in subsequent 
legislation and regulatory implementation.
    The California Desert Plan was completed in 1980, and 
approved by the U.S. Secretary of the Interior. It affirmed a 
balance multiple use management of public lands, together with 
wilderness preservation for special interest areas. That plan 
was recommended favorably by a unanimous vote of the Desert 
Advisory Council.
    After adoption of the plan, it was challenged by the off-
road vehicle interests and one local government in a now-
forgotten lawsuit. Ultimately decided in the Ninth Circuit 
Court of Appeals, it was found that while the plan made 
everybody a little unhappy, it had completely followed its 
congressional mandate to balance land use, and provide for new 
uses, and protect wilderness values.
    Unsatisfied with the outcome of this particular litigation, 
environmental groups immediately launched a plan to impose 
their vision, and I specify their vision, of desert management. 
Using Congress rather than the courts, their efforts resulted 
in the passage of the California Desert Protection Act in 
October 1994, designating almost 9 million acres of wilderness 
on the Bureau of Land Management and Park Service administered 
lands. It eliminated by a designation of thousands of miles of 
existing access road. Concurrent with the passage of the Desert 
Protection Act, actions took place relative to implementation 
of the Endangered Species Act within this region.
    Specifically, land management protection proposals 
regarding the Desert Tortoise, and in 1994 Critical Habitat was 
designated a recovery plan which was adopted. The Protection 
and Land Management goals of the Desert Tortoise Recovery Plan, 
and the California Desert Protection Act, have never been 
actually integrated. They moved forward on parallel tracks.
    This caused extended land use restrictions, non-
consideration of resources management options, and a doubling 
up of closures without consideration of the effects of one 
another against the other.
    The Desert Protection Act has already closed and subjected 
to wilderness management millions, and I mean millions of acres 
of public land. The recovery plan drives further closures, and 
the removal of multiple-use from remaining public lands within 
the desert and San Bernardino County.
    Over the last decade, livestock grazing has largely 
disappeared. Mining has been very much restricted, and no new 
mining in the foreseeable future. Recreational uses for 
hunting, rock hunting, and further enjoyment has been 
completely diminished.
    In December of 2002 the General Accounting Office found 
that for all the actions implemented either from the wilderness 
parks or from the desert tortoise recovery plan, neither the 
Fish and Wildlife Service, nor the Bureau of Land Management, 
were evaluating the effectiveness of their actions.
    Yet, they continue to issue and implement plans that 
propose the establishment of even more reserves. The total cost 
to date exceed over $100 million, and there is some estimates 
that are even higher than that, with little to show for that 
particular dollar amount.
    We do not oppose conservation and property management of 
the public lands and their many resources. We do believe, 
however, that the remaining BLM administered public lands must 
remain open for multi-use land management in which the public 
is afforded an opportunity for access.
    In closing, I would just again like to thank the Committee, 
the Subcommittee, for the meeting down here in San Diego today, 
and I would be happy to answer any questions. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Postmus follows:]

         Statement of Bill Postmus, First District Supervisor, 
               San Bernardino County Board of Supervisors

    I am Bill Postmus, Supervisor, First District of San Bernardino 
County, California. As such I represent perhaps one of the largest 
geographic areas of public lands in the United States. San Bernardino 
County is the largest local government jurisdiction in the lower 48 and 
contains over 8 million acres of public lands under a variety of 
Federal administration including Bureau of Land Management (BLM), 
National Park Service (NPS) and U.S. Forest Service (USFS). The subject 
of my testimony today is directed to those areas under BLM and Park 
Service administration.
    I feel well qualified to make this statement since San Bernardino 
County, besides having a huge area of public land within its boundary, 
has also experienced the greatest impacts from desert management and, 
so called protection, over the past 27 years. My word to the Committee 
is simply ``enough is enough!'' I and the members of my panel, during 
our testimony, will present specifics as to why we feel that way and 
will present recommendations to you and to the Congress for future 
action. We also will touch on matters as related to why task measures 
have failed to meet the overall public interest, particularly the loss 
of public access to public lands and the loss f the concept and 
principles of multiple use management.
    My request to this Committee and to the Congress is four-fold:

    1. First, we would like to have the Department of the Interior 
(DOI) impose a moratorium of the implementation of further land use 
planning within San Bernardino County. We have the Northern and Eastern 
Mojave (NEMO), Northern and Eastern Colorado (NECO), and the draft of a 
Western Mojave Plan currently before us. We feel strongly there must be 
a halt until the elements of the General Accounting Office (GAO) audit 
completed last December that reported on issues associated with 
management of the desert tortoise are implemented. Specifically until 
there is efficacy monitoring, the imposition of further planning 
decisions such as land acquisitions and elimination of land uses is 
absolutely inappropriate. Neither BLM nor FWS has taken any positive 
actions to deal with the main causes of tortoise decline--disease and 
predation. Instead they continue to promote further land closure.

    2. We request a thorough review of National Park Service Programs 
and whether they accomplished the goals that they were set out to 
accomplish. They have eliminated most historic land uses within the 
region, and we are not aware of any monitoring that has taken place to 
determine the effect on resources. We also feel strongly that the Park 
Service has inadequately portrayed the heritage aspects of those 
programs and has not provided any evaluation of any economic losses, 
including to county revenues.

    3. The Congress should cease all land acquisitions by the land 
management agencies within the California Desert Conservation Area. San 
Bernardino County has lost over 600,000 acres in the last five years, 
plus ranches and mines. This has had a significant impact on our tax 
base. We urge the passage of H.R. 380, which contains retroactive 
provision such that at least the counties loss of tax base would be 
made up by interest bearing endowment.

    4. We recommend amendment of the California Desert Protection Act 
specifically to provide for removal of sunset clauses associated with 
the advisory commissions that were established to recommend on Park 
Service plans. In removing the sunset clauses, we further recommend 
that the charters be expanded to include oversight on all planning and 
actions taking place within the boundaries of the three national park 
units within the county. We also believe that the California Protection 
Act should be amended to include access for wildlife habitat management 
including maintenance of water facilities within Park Service 
wilderness areas. Through oversight, either accidental or otherwise, 
the access provisions contained in Title I of the Act providing for 
such access within BLM wilderness was not extended to the Park Service 
wilderness established in Titles III, IV, and V of the Act. We also 
understand that NPS is attempting to limit the hunting protections 
contained in the CDPA. In so doing they are seeking regulatory 
direction from the State of California. Congress must direct The 
Department of the Interior to cease this action. The regulatory 
direction being sought ties the need to The Endangered Species Act and 
the desert tortoise recovery plan. This is ludicrous given the lack of 
any definitive foundation in studies or research for a causation of 
tortoise decline in the Eastern Mojave from legal hunting activity.
    I want to review for the Committee and for the record a brief 
history of the California Desert Conservation Area. The California 
Desert Conservation Area (CDCA) was created in 1976 as a special 
section of the Federal Land Policy and Management Act (FLPMA) of 1976, 
emphasizing multiple-use management of public lands. The discussion of 
desert management had been a continuous subject of conversation among 
resource managers, the public and Congress in the early 1970s, and the 
creation of Conservation Area was folded into the passage of FLPMA in 
1976 sponsored by Congresswoman Shirley Pettis who then represented the 
area prior to Congressman Jerry Lewis.
    The California Desert Plan was directed to be completed by 1980 
under the provisions that created the Desert Conservation Area, and 
during that four-year time frame, that task was accomplished. The Plan 
was approved by Secretary of the Interior, Cecil Andrus, during the 
last days of the Carter administration. It reflected a balancing that 
affirmed multiple use management of public lands together with 
wilderness preservation for special areas. The plan was recommended 
favorably by a unanimous vote of the Desert Advisory Council at a 
meeting convened in the center of the Desert Conservation Area at 
Zyzzx, California.
    Interestingly enough after adoption of the plan, it was challenged 
by a group of off-road vehicle organizations and one local government 
within the Desert Conservation Area in a now-forgotten lawsuit. It was 
argued in District Court and the 9th Circuit Court of Appeals. The 
courts found that the whole plan made everybody a little unhappy, but 
that it had completely followed its mandate to balance land use, new 
uses and protection including wilderness management, and the courts 
affirmed that BLM could proceed further with implementation.
    Unsatisfied with the outcome of that litigation the environmental 
groups immediately launched a plan to impose their vision of desert 
management on the public. They used Congress rather than the Courts. 
This included overriding BLM's recommendations for some two million 
acres of wilderness by their proposal of creating six million acres of 
wilderness in the area, establishing a new national park and expanding 
both Death Valley and Joshua Tree National Parks.
    The environmental organizations gained their with the assistance of 
the two Democratic senators from California which were elected in 1992, 
with passage of the California Desert Protection Act (CDPA) in October 
1994, which essentially carried out their agenda. It established close 
to 9-million acres of wilderness designation both on BLM and National 
Park Service administered lands and eliminated, by these designations, 
thousands of miles of existing access roads.
    It is important to note that the efforts of the environment 
organizations and the senators to impose the California Desert 
Protection Act on the citizens of San Bernardino County and the rest of 
the Desert was opposed by the House delegation in place at the time, 
most of whose members are still present in the House: Congressmen 
Lewis, Hunter, and Thomas, who took specific actions for amendments, 
few of which were passed by the, then Democratic controlled, Congress. 
I also point out that the Chairman here today, Richard Pombo, was also 
a participant and carried amendments relative to access right up until 
the passage in the House, though those efforts, sad to say, were 
rebuffed at the time.
    Concurrent with the passage of the protection act, actions were 
also taking place relative to implementation of the Endangered Species 
Act within the region and specifically land management protection 
proposals regarding desert tortoise. The Desert Tortoise (Gopherus 
agassizii), is a species native to the Mojave Desert and whose range 
extends from the Mojave-Ridgecrest area, east to St. George, Utah. 
Critical habitat was designated in 1994 and the Recovery Plan for the 
species was also adopted the same year.
    What has never happened and the question that I believe is 
appropriate for inquiry is that the protection and land management 
goals of the Desert Tortoise Recovery Plan and the California Desert 
Protection Act have never been integrated. They move forward on 
parallel tracks. The Desert Protection Act has already closed and 
subjected to wilderness management millions of acres of public lands, 
the Recovery Plan is moving forward in its land use plans to provide 
further closures and remove from multiple use remaining public lands 
within the Desert.
    What have been the effects of the legislative and regulatory 
actions by the Federal government over the last decade?
    First, livestock grazing within the region has been severely 
impacted. For all practical purposes sheep grazing in the West ended 
after Fish and Wildlife Service issued a jeopardy opinion in 1990. 
While sheep have continued to come in small numbers, in the big picture 
they no longer provide any economic usage in public lands.
    WEMO, if adopted, will permanently close these allotments. 
Likewise, cattle grazing has also all but disappeared from the desert 
with the exception of two or three allotments. The National Park 
Service acquired most of the higher elevation grazing with the 
establishment of the Mojave National Preserve. While grazing was 
protected by legislation, the Service aggressively sought funding to 
buy out as many ranches as possible, and with the exception of the 
Blair operation, have succeeded in eliminating all of the livestock 
operations in that region. And now, even after hunting protection was 
guaranteed in the CDPA, the NPS management is seeking further 
restriction. Meanwhile, outside of National Park Service areas 
remaining grazing has been impacted by tortoise biological opinions, 
and litigation by environmental groups such that much of the spring use 
traditionally has taken place has been severely restricted. This 
despite showing over 100 years of co-existence, and some of the best 
remaining tortoise populations are within the grazing allotments.
    Perhaps the greatest impact on the desert from an economic 
standpoint has been the effect of the California Desert Protection Act 
on mining. The California Desert Conservation Area, and specifically 
San Bernardino County, has been touted for the last century as a 
``world class minerals area.'' BLM had a conference in the late 1980s 
in which a variety of scientific papers on known mineral values and 
current technology documented and confirmed these values. Those values 
were basically locked up because of the Desert Protection Act since 
most of the highly mineralized areas were withdrawn by designated 
Wilderness Areas and the National Park Service units. Though the 
legislation did protect valid existing rights, those are very difficult 
to exercise within areas of wilderness and the National Park Service.
    A case study in point is the Rainbow Talc Mine in the southeast 
corner of Death Valley National Park.
    The mine had been located in the during the 1980s by two mining 
explorers and they discovered and filed claims upon what was considered 
some of the most highly valuable talc certainly in the United States. 
They had international interest in development. The area had been 
surveyed for wilderness characteristics by BLM in the 1970s when they 
did the wilderness inventory and was specifically recommended excluded 
in the 1980 California Desert Plan for inclusion in the wilderness 
preservation system. Past mining activity had closed down at the Ibex 
area adjacent when it was incorporated into Death Valley National park 
at an earlier stage. Though this is clear evidence of mineral values in 
the area. Instead of accepting BLM recommendation, in 1994 the 
California Desert Protection Act expanded Death Valley to incorporate 
the area of the Park ignoring the agency recommendation, and 
additionally placing it in the National Wilderness Preservation System. 
The access road from Highway 127 was in such a condition that a normal 
touring car could pass over much of its distance. This was totally 
ignored in the CDPA and while it originally served as a boundary 
between two wilderness study areas, it ceased to exist. The outcome of 
several years of negotiations in which no mining plan could ever be 
approved on NPS staff, the owners of the claims sold the property to 
the National Park Service. Sadly, it was a mine that could have 
generated income, property taxes and employment. Instead, the agency 
spent public money to prevent its development. Located some 4.5 miles 
from a paved road, it is now far removed from even public view and few 
will ever see the frame that the original owners build over the mine 
even though it is a lovely historic structure.
    From the information that we have been able to glean from the 
mining industry in general, all mine exploration in the CDPA has 
ceased. Few anticipate that if economic deposits are located that the 
regulatory framework is such that development could be accomplished. 
San Bernardino County has historically had major mines open and close 
in the desert, and while some have cried ``boom and bust,'' the fact of 
the matter is that there has been a rather even flow in recent decades 
of mineral development. As one mine begins to slow it has always seemed 
that another mine came into play. The most recent example is the 
Coliseum Mine that was actively worked prior to the passage of the 
CDPA. It has now been closed. Viceroy Mine along the Nevada line 
reached its peak production about concurrently with the passage of the 
CDPA and was so active that in fact the boundaries of the Mojave 
Preserve were shrunk to accommodate it. It is now undergoing closure. 
There are no new mines to replace these economic properties or to 
replace lost tax revenues.
    Molycorp in the past has produced rare earths for a number of years 
but has run into regulatory issues associated with National Park 
Service. They are still milling but have not returned to production.
    The sad fact is that as Coliseum and Viceroy close, and Molycorp 
continues to struggle to come back, there is no new mine in the wings 
in the County to replace the tax revenue that has been lost by the 
closures of these properties. The mineral values, particularly with 
Molycorp are significant for revenue as well as strategic ore and 
technology applications. The only ongoing example is, of course, the 
mine in Imperial County in Indian Pass that Supervisor Leimgruber can 
speak to in far more detail. While a valuable property, that too 
illustrates the difficulty in getting any mining property permitted.
    Fundamentally, with no access mining and other economic use simply 
cannot exist.
    Concurrent with the closure of public access within the desert 
associated with national park and wilderness designation we have been 
faced with the new round of land use planning undertaken by BLM in the 
region. These were the NECO, NEMO and West Mojave planning efforts that 
have affected San Bernardino County. NECO and NEMO are completed. One 
aspect of the Recovery Plan is the designation of Desert Wildlife 
Management Areas (DWMAs) covering a recommended 1,000 square miles 
(640,000 acres). In NECO, Chemeheuvi Valley is a designated DWMA with 
over 800,000 acres. NEMO has also been completed and designated smaller 
DWMAs adjacent to the area of the Mojave National Preserve (MNP) in 
Ivanpah Valley and Shadow Valley. The MNP was advocated to add to 
tortoise protection, however, its presence is not now counted toward 
DWMAs and protection is expected to come from BLM multiple-use lands.
    In review of the Desert Tortoise Recovery Plan, in December 2002, 
the General Accounting Office (GAO) issued a report that showed that of 
all the actions either from wilderness or from the Desert Tortoise 
Recovery Plan that neither Fish and Wildlife Service or BLM were doing 
anything to evaluate the effectiveness of their actions, yet they 
continue to issue draft plans such as the recently published Western 
Mojave Habitat Conservation Plan which proposes the establishment of up 
to four additional DWMAs in the western part of the desert, embracing 
not only San Bernardino County but parts of Inyo and Kern Counties. To 
date the GAO estimated $100,000,000 of Federal funds had been expended 
with little to show for it.
    Our opinion and recommendations do not oppose conservation and 
proper management of the public lands and their many resources. We do 
believe, however, that the BLM administered public lands need to be 
left open for professional multiple-use land management in which the 
public is afforded an opportunity for access to perform economic 
activities such as mining and grazing and a variety of recreational 
pursuits such as hunting and rock hounding. What we see instead is a 
concerted effort in the 1990s and continuing by the land management 
agencies to further limit access and to further limit economic uses of 
these public lands and we see the loss of additional millions of acres 
and miles of access after the closure of almost 10% of California by 
the CDPA in 1994.
    As I stated at the outset, we propose five items:

    1. We believe that the agencies, with Congressional support, 
declare a moratorium on implementing further land use plans. We believe 
the findings of the GAO audit must cause efforts to be focused upon 
monitoring the effectiveness of action already taken including broad 
areas of national park and wilderness within the county within the 
California Desert Conservation area. Equally essential is refocusing 
agency efforts on disease and predation in tortoise populations.

    2. We believe that there should be a complete review of National 
Park Service programs. Has ranching removal resulted in any positive 
change? What values have been lost, including tax revenue and income? 
Is NPS assuming interpretation of the ranching and mining heritage or 
obliterating it? While I touched on the conservation aspects and the 
purchase of ranches, there has also been a removal of the livestock 
watering facilities, which we believe has had a profound impact on the 
area, particularly in relation to bighorn sheep populations. The Mojave 
National Preserve was established as a Preserve and not a Park, in 
which hunting, grazing and a variety of uses would continue under the 
Park Service Administration rather than BLM. The Park Service 
Administration has done everything in its power to make this a ``park'' 
and not a ``preserve.'' Their move to get State Fish and Game 
restrictions on hunting exemplifies this. As such, we question both its 
management programs as well as the effectiveness of them. County 
comments in the General Management Plan were essentially rejected. For 
example, have tortoise populations increased in the habitat areas since 
the Park Service has purchased the ranches and removed the livestock? 
Until this is known should the agencies be purchasing and retiring 
further grazing privileges outside areas that traditionally were left 
to multiple-use. In essence, the programs of the agencies seem to be 
turning the entire desert into a park-like management and not making 
any clear distinction between Park Service and BLM areas. Recently, as 
NPS began to dismantle the ranches, it has also begun removing the 
water developments. This impact must be addressed. Further, under the 
guise of the Endangered Species Act, it is seeking to impose new 
restrictions on hunting. What we are funding is that even when Congress 
writes in protections for uses and access, the agencies seek to 
overturn them when the use-oriented focus does not fit what they see as 
their ``mission.''

    3. The agencies need to stop further land acquisition until there 
has been efficacy monitoring.

    4. We believe Congress should move quickly to enact H.R. 380. H.R. 
380 has been authored by Congressman Radanovich working closely with 
this County's public lands consultant. It contains a retroactive 
provision. Data shows that in the last four years no county has 
suffered Federal land acquisitions to the extent of San Bernardino 
County, though many counties throughout the West have been losers. The 
proposal in H.R. 380 also would provide for payment in lieu of taxes 
for the capital assets involved in ranches and mining operations that 
may also be purchased. Current formulas under the Payment in Lieu of 
Taxes (PILT) programs do not do this. We urge speedy hearings on H.R. 
380 and hope that it can pass the House during the current 108th 
Congress.

    5. Last, we do recommend oversight of the California Desert 
Protection Act. With the exception of a couple of access issues, it has 
not been visited by the Congress since 1994. This hearing is a step in 
the proper direction. Clearly we would like to work with the Congress 
in adjusting several of the boundaries. There are probably several 
areas in which we might agree that wilderness designation should be 
dropped or shrunk. We are still concerned relative to much of the 
access issues contained in amendments that you, Congressman Pombo, 
carried in 1994 are still needed. We felt that the recent BLM 
regulatory decisions relative to recordable disclaimers will provide an 
avenue of approach in dealing with these on a land title basis. We were 
disturbed that the House recently restricted these and hope that the 
restriction is only for a period of FY 2004 appropriations. We urge 
instead that Congress wholeheartedly support the BLM program to provide 
legal access and also that the Congress either revisit the area of many 
of these cherrystems in the wilderness or urge that the agencies deal 
with the access issues as they exist on the ground. Remember that the 
recordable disclaimer provision does require that a road exist. It does 
not provide for new access. It does not provide for improvement of the 
access. It simply provides for passage of title for the access. Our 
concern rests upon the fact that we never had a chance to prove up on 
these access routes before the California Desert Protection Act and its 
wilderness designations, and now DWMAs, slammed the door shut and 
before BLM had a procedure. The public has been frozen out of the new 
National Park Service units except on the main roads. There is not even 
access to maintain valid existing rights that are supposedly protected 
under the CDPA. We urge that the Congress endorse BLM's procedure and 
allow it to apply to all public lands. Congress must assure that 
``valid existing rights,'' whether they be mines or access roads, 
really has meaning in practice.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Postmus. I 
appreciate your testimony. Now is the time for the members up 
here to be able to ask questions of each of the folks that 
testified.
    I want to begin a little bit with Supervisor Dorame. Your 
testimony is very good, but the Saline Valley Road and the 
circumstances by which it was included in the plan, can you go 
into that a little bit more? And you also noticed something 
about the Surprise Canyon Road.
    And just for my benefit and maybe somebody else's, too, 
could you give me an idea of how it was--
    Mr. Dorame. If I can beg your assistance here. I worked 
with one of my able-bodied constituents for 8 weeks after the 
California Desert Protection Act was implemented, and basically 
what we have right here is we have a 75 mile long road that 
comes down to here.
    This is the Saline Valley Road here. It is 75 miles long, 
and it is a very, very cross-country type road.
    Mr. Radanovich. A county road.
    Mr. Dorame. Yes, a dirt road, and it is a county road. It 
was agreed that this was going to be the westerly boundary of 
the new park lands coming down to here, and then down to 
Highway 190 down here.
    But we have a borrow pit here on the southern end of the 
road, and we have a borrow pit here that was west of the road 
going toward the Inyo Mountains. What has occurred here was 
that this was drawn in after one group left the table, and then 
this was arbitrarily drawn in west of the road to the Inyo 
Mountains, and so we find ourselves in a predicament with 
having to gain permission and cooperation to be able to 
maintain the road.
    The former park superintendent, I had a discussion with him 
on this, and I said if we are unable to continue maintaining 
the road, what happens if we relinquish it to the park. And he 
said I am going to be brutally honest with you. It is not what 
you want to hear.
    That road, we don't have the money to maintain it. So he 
said they would probably end up closing off access. So if this 
gives you an indication, Mr. Chairman, this is what we were 
talking about.
    And there is mining, and there are canyons, and there is 
grazing that used to take place going up in here, and people 
right now don't have access to those mine sites. And all that 
deer hunting up there.
    And while I have this map, what we did was we got the new 
park boundary here, and that is 54 percent of Inyo County is 
the new park land that is going in here. And these green lines 
are the open roads, and the red is all the routes that were all 
closed off, and that constitutes approximately 204 miles of 
roads that were closed off in the California desert in the 
national park.
    The black bold line here is all the new park boundary going 
into San Bernardino County, but most of it is in my district. I 
have a district that encompasses 6,500 square miles, and that 
is what we are asking for, is for some relief there.
    Mr. Radanovich. Thank you, Mr. Dorame.
    Mr. Dorame. Thank you, sir.
    Mr. Radanovich. Mr. Leimgruber, I would like to have--you 
mentioned in your testimony that as a member of the DAC that 
sometimes your recommendations may not go ignored, but don't 
bear any fruit and don't go anywhere.
    What is it that--I see in my notes here that it usually 
ends up in a 10-to-2 vote. Is that the problem with the DAC, is 
that it is usually--is it lopsided and not balanced, or what is 
your--
    Mr. Leimgruber. When we have our District Advisory Council 
meetings, and we begin to discuss some of the impacts that are 
imposed in our county, again, if we use recreational area, 
usually we have the opportunity to mitigate that.
    We have brought recommendations back, and we have said that 
some of these closures that are forced upon our area, we would 
like to have those areas mitigated. I do have a map of Imperial 
County that shows all of our closed desert area, and the result 
of that is that there is only smaller and smaller areas that 
are open now for public access.
    And we have multiple use in our county, and we would like 
to have these areas actually reopened. We have aggregate 
sources there that are available for our road construction, our 
off highway vehicle use, and actually we would like to see that 
a reopened area.
    We have areas of camping that have been closed, and we 
would like to see those areas opened. But the impacts are more 
and more closures, and we don't have the opportunity to 
mitigate those impacts.
    Mr. Radanovich. Thank you very much, Mr. Leimgruber. I 
recognize the Chairman, Mr. Pombo, for any questions.
    Mr. Pombo. Well, thank you. I guess the one question that I 
have got is that when we went through he California Desert 
Protection Act, and when that bill was moving its way through 
Congress, one of the big issues of debate at the time was that 
it was recognized that parts of the desert were going to be 
shut off, and that some mines that they were not going to have 
access to, and there were some areas they were not going to 
have access to.
    And the argument was made at the time that the loss in 
economic activity for the counties would be made up by 
recreation, and that more people coming into the area would 
make up the economic loss that all of you have talked about. 
Has that happened?
    I mean, have you seen a huge increase in recreation, and 
has the management of the desert changed in a way that has made 
it more attractive and more friendly for families and for 
people to come down and spend time in the desert? Let me start 
with you, Mr. Leimgruber.
    Mr. Leimgruber. Again, I would like to address that 
question. Obviously the recreational opportunities in Southern 
California, we could actually include form Las Vegas, from 
Phoenix, and on a major holiday weekend, and we have six of 
those a year, we have visitors from the State of Washington 
drive all the way down.
    The impacts on our area because of closures actually force 
the visitors to ride in a smaller area, and with the population 
and the smaller area, that's why the sheriff of Imperial County 
is here today listening to the testimony, because he is tasked 
with the enforcement of the laws that we are going to provide a 
safe family environment to our guests.
    And this past year of 2002, on Thanksgiving, was the first 
year that we have not have had a fatality. And I want to 
express my appreciation again to the law enforcement agencies 
that as we enjoyed the Thanksgiving holiday with our family, 
this law enforcement agency was out in the desert enforcing the 
laws.
    We have been able to control an element that was actually--
and I look at a lot of the areas that they have had an 
opportunity to go to in the past that is opened and closed, but 
we have had an element come to our county that should have been 
dealt with at the onset.
    You get a football game, a stadium event, and you have a 
multitude of law enforcement agencies there, they are going to 
deal with that element, and they are going to be locked up and 
taken out of there.
    And the question, the same question, arises here that we 
want these families to feel safe. This past year, we have had a 
decline in visitors. Now, the economy and so forth, I am not 
going to address all the intricacies of those issues, but I 
want to stress the importance of a long enforcement presence 
there in the dunes to make sure that the families that go there 
for recreation are safe.
    Mr. Pombo. Would any of the other members like to comment 
on that?
    Mr. Dorame. Thank you, Mr. Chairman. We realize 
approximately 1-1/2 million visitors to Death Valley National 
Park. We have a transition and use tax that applies to 
visitation and residents alike of Inyo County.
    We have not really realized much in terms of increased 
revenue. Economic stimulus is always there because of the 
creative thinking of our chambers of commerce and other 
business people, volunteers.
    But as far as recreation in those lands that have been 
closed off, I get more complaints than I do thank you, and I 
want to tell you that most of those are because of activities 
that folks are unable to participate in as I had stated 
earlier; back country camping in the Inyos and White Mountains, 
and four-wheeling.
    That used to be my big thing, going up in the solitude of 
the mountains, and that was my recreation, and spending the 
night looking at the stars at an 11,000 foot elevation. I used 
to do a lot of that. You can't do it anymore. It is closed off.
    And a lot of folks--my son is a hunter, and has been 
hunting for 8 years now in his adult life, and he can't--he is 
about ready to give it up because everybody is compressed into 
a small area now, whereas you used to be able to really use 
those mountains and flush out some game.
    It is not there anymore. The game is probably still there, 
but you can't go into some of these. One of the biggest 
complaints we have is that we have different--and we understand 
this. We have different management charges by our Federal 
agencies.
    The Park Service, to their credit, they have to manage 
their wilderness, and in a conservation management type style. 
BLM is multiple use, but the problem is that the people don't 
know when they are in BLM, or when they are in the Park 
Service. So there have been citations issued and things such as 
that for practices that could not be permitted within the Park 
Service boundary.
    My suggestion to the Park Service and working with them 
over these years was to increase a level of confidence in the 
users and have them come up, and let's try to find, and give 
them direction where your park land boundary is, and even they 
did not know.
    So it is a process that we are working through, but folks 
just don't know when they are in the park, unless they are 
really in the park, or when they are in BLM. It is an issue 
that we will try and work our way through, and hopefully when 
we do, people will be more receptive of this, and it will 
increase some more usage, but it has not. It has been 
detrimental. Thank you, sir.
    Mr. Radanovich. Mr. Postmus, did you have--
    Mr. Postmus. Yes, Mr. Chairman. San Bernardino County has 
definitely been hit hard by the Desert Protection Act. In the 
2003 fiscal year budget, the County of San Bernardino received 
about $1.69 million in actual payment from the Federal 
Government in terms of help.
    That is about 20.6 cents an acre, and when the national 
average is something around 35 cents an acre. There is too few 
visitors coming into the national Mojave preserve right now. We 
are not seeing any real impacts in terms of dollars coming into 
the local economy.
    And due to the fact that we have had now more and more of 
our ranches being closed, that has been a major hit to our 
local economy, and the fact that we are not going to be seeing 
any new mines in the near future. This is definitely another 
hit to our county.
    In fact, if you look at the largest tax producers in San 
Bernardino County, believe it or not, even though the county is 
heavily weighted in the southern part, and we have a population 
of 1.9 million people in the county, our three largest single 
tax producers are in my district, and they are mining 
operations.
    But due to the fact that we are not seeing any new mining 
coming into the area, it is going to eventually have a major 
economic impact to the district and to the county.
    Mr. Pombo. Mr. McQuiston.
    Mr. McQuiston. Just one statement, Congressman Pombo. I 
think the core of your question went to that there was 
discussion that with the California Desert Protection Act, and 
the loss of these huge amounts of land and some of the mining 
and multiple use, there would be an offset by increased 
recreation.
    We certainly have nothing that would indicate that that 
assumption proved true, and I would say that in the last few 
years with the management plans and practices, and more and 
more constraints on these activities, that we have not realized 
anything.
    And in having been on the peripheral of that in another 
life, I would just say that we heard some of those same 
discussions, too, and oppose them for public policy reasons, 
because even if there were an offset, it is a bad offset for 
public policy, because you are having an economy of 
recreational use to offset the economy of other uses of the 
desert, which is contrary to multiple use and sustained yield. 
So even if it were true, as a matter of public policy it would 
be a bad public policy.
    Mr. Pombo. Well, thank you, and thank you as a panel.
    Mr. Radanovich. Gentlemen, thank you very much for your 
testimony. That concludes the testimony of this panel, and we 
will go ahead and move on to our second one. Again, thank you.
    The second panel consists of the following: Mr. Roy Denner, 
who is President and CEO of the Off-Road Business Association, 
from Santee, California; Mr. Jim Bramham, a Board Member of the 
American Sand Association, in Sacramento, California; Mr. David 
Hubbard, Counsel of the Off-Highway Recreation Community, from 
Escondido, California; Mr. Ron Kemper, a Grazing Leaseholder in 
the California Desert Conservation Area, East Highlands, 
California; Mr. Howard Brown, a Mining Geologist, from OMYA 
California, Incorporated, Lucerne Valley, California; Ms. Sheri 
Davis, Director, Inland Empire Film Commission, from Riverside, 
California; and Mr. Mike Hardiman, who is an Inholder within 
the CDCA, Imperial County, California.
    Ladies and Gentlemen, welcome to the Committee. And again 
now that you are all comfortably seated, I would ask you to 
stand up, because as is the custom, we would like to have our 
witnesses sworn in.
    [The witnesses were sworn.]
    Mr. Radanovich. Thank you. You may sit down. Again, we are 
going to adhere to the 5 minute rule. I am going to make an 
exception with Mr. Denner, because I understand that you 
represent quite a few off-road vehicle groups, and you do have 
a powerpoint presentation. So I will let you go over that a 
little bit, Mr. Denner.
    If you would like to begin, and again we will go through 
the panel, everybody speaking for 5 minutes, and then we will 
open up the panel for questions by Richard and I. Mr. Denner, 
welcome.

 STATEMENT OF ROY DENNER, PRESIDENT AND CEO, OFF-ROAD BUSINESS 
                ASSOCIATION, SANTEE, CALIFORNIA

    Mr. Denner. Congressman Radanovich and Congressman Pombo, I 
certainly thank you for having this hearing. It is long overdue 
and sorely needed. I have projected up on the wall a slide that 
shows the boundaries of the California desert district.
    It is something over 10 million acres, and runs all the way 
from the Mexican border, up to Bishop, and then runs past 
Edwards Air Force Base. In 1980, a plan was developed to manage 
this area, and it looks like this, and Supervisor McQuiston 
already mentioned it.
    And for 20 years this is what we have been using as a 
management document. The next slide I am going to throw up here 
real quickly shows that the same territory overlaid by national 
parks, and national preserves, military reservations, and 
wilderness areas.
    All of these, of course, can be subtracted from public 
lands available for public use and vehicle access. And then we 
take the next one, an overlay. The desert tortoise in DWMAs, 
desert wildlife managements, what you see left there in the tan 
color is what is left in the California desert district for 
vehicle access and off-road recreation, and significantly 
reduced from what we had not too many years ago.
    On March 16, 2000, the BLM was sued by the Center for 
Biological Diversity, the Sierra Club, and the Public Employees 
for Environmental Responsibility, for its failure to implement 
this plan.
    The problem was that they said that the BLM did not consult 
with Fish and Wildlife regarding endangered species, two 
primary species, one the Desert Tortoise across the entire 
CDCA; and the other is the Peirson's Milk Vetch Plant within 
the Imperial Sand Dunes Recreation Area.
    Emergency closures resulted from a settlement agreement 
between the BLM and the CBD, adding over 800,000 acres to the 
public land unavailable for OHV recreation. These closures were 
identified as interim emergency closures necessary until BLM 
could complete its consultation with Fish and Wildlife.
    On August 7, 2000 several pro-access groups were accepted 
as intervenors on behalf of the BLM for the CBD lawsuit. On 
March 20, 2001, a settlement agreement with a multitude of 
stipulations was signed by the BLM CDCA at that time, and also 
the intervenors and the plaintiffs.
    Very little effort, on the part of the BLM, was exerted to 
negotiate the extensive demands of the plaintiffs. The primary 
focus on the part of the intervenors was the Imperial Sand 
Dunes Recreation Area, very likely the most popular OHV 
recreation area in the universe.
    And since the settlement the plaintiffs have been actively 
spreading the word to the OHV community through the 
intervenors, approved of the settlement, and this is a true 
statement. What they don't describe is the fact that the BLM 
CDCA manager at the time made it clear that if the intervenors 
did not sign the agreement that he would be forced to close the 
entire ISDRA until consultation with Fish and Wildlife was 
completed.
    And the intervenors concluded that half-a-loaf, of course, 
is better than none, and so they signed the agreement. Some 
might call this good negotiating on the part of the plaintiffs. 
I call it blackmail.
    As a result of Park and Preserve areas, military 
reservations, wilderness designations, restrictions within 
Desert Tortoise habitat, and the emergency closures resulting 
from the lawsuit, millions of acres of BLM lands within the 
CDCA that were once to OHV enthusiasts are now closed to this 
form of recreation.
    A document published by the California State Parks in 2002, 
titled, ``Taking the High Road,'' points out that while the 
number of vehicles licensed in California for off-highway use 
increased by 108 percent in the last 20 years, the number of 
acres available for OHV recreation in California decreased by 
48 percent.
    This same report refers to an economic impact study that 
was completed in 1993 that showed that the annual economic 
impact of OHV recreation in the State of California was over $3 
billion and that is with a B, at that time.
    Since then the level of activity and the price of equipment 
have escalated the point where current estimates of the 
economic impact are between $8 and $9 billion. Access concerns 
and economic impacts in my opinion are directly related.
    BLM's solution for meeting the requirements imposed by the 
settlement agreement, its far-reaching stipulations, and the 
agreed to implementation schedule, was to divide the CDCA into 
five separate major planning areas, and develop a separate new 
plan for each planning area.
    Planning efforts were hastily initiated in order to meet 
the compressed time schedule. The new planning areas are shown 
on the map on the wall. The species that are threatened under 
the ESA, that is the driving factor behind the new management 
plan for the Imperial Sand Dunes Recreation Area is the 
Peirson's Milk-Vetch Plant.
    Since the ISDRA is considered to be one of the most popular 
recreation areas in the world, since the closures there have 
attracted attention nationwide, the hearing Committee will be 
receiving separate testimony on this planning area. So the 
balance of my testimony will focus on the remaining CDCA 
planning areas.
    Four major new planning areas within the CDCA focus on the 
need to protect the Mojave Desert Tortoise, listed as 
threatened under the ESA. These plants, which are really--these 
are real environmental impact statements. They are not 
management plans supported by EISs.
    They are known as the NECO, Northern and Eastern Colorado 
planning area; NEMO, Norther and Eastern Mojave planning area; 
the Coachella Valley planning area; the WEMO, the Western 
Mojave planning area. The costs that went into preparing these 
plans probably could have cured cancer.
    Approximately a decade ago, a team of biologists developed 
the Mojave Desert Tortoise Recovery Plan. Supervisor McQuiston 
went into this plan and the problems with it at great length, 
and I would ditto everything that he said about the problems 
with the Desert Tortoise Recovery Plan, and so I won't repeat 
my testimony relative to the Desert Tortoise Recovery Plan.
    But the bottom line of it though is that when you take the 
fact that these plans are being driven by the CDCA lawsuits, 
and not by good scientific efforts to provide science on the 
Desert Tortoise Recovery, it is clear that the plans are driven 
by litigation and not by good planning science.
    Otherwise, the planning effort would have been delayed 
until good science on the Desert Tortoise is available to 
support the planning decisions. Members of the Desert Advisory 
Council, Supervisor Wally Leimgruber discussed that, and I 
won't go into detail about the advisory council and its 
charter.
    However, I do want to point out that someone asked about--I 
think it was Congressman Pombo asked about these 10-to-2 votes. 
I would like to go into a little more detail on that. At the 
meeting that Supervisor Leimgruber talked bout in El Centro, we 
had three votes of a 10-to-2 ratio, and the 10-to-2--I guess it 
was Congressman Radanovich who asked about that.
    The 10-to-2 ratio supported three motions that were made, 
three specific motions. One was the mitigation concept that 
Supervisor Leimgruber talked about, and if there is an impact 
to desert users as a result of implementing the ESA, that that 
impact should be mitigated, just like we mitigate impacts on 
species.
    In other words, if an area has to be closed because of good 
proven science, that the use of the public access to that area 
is endangering a truly listed endangered species, and we would 
be the first to agree that that areas needs to be closed to 
that vehicle access.
    However, another area should be expanded or a new area 
should be opened so that there is no net loss of mitigation, 
and perhaps we should even consider expanded factors of 3-to-1, 
or 5-to-1, like we do in mitigation for endangered species.
    Two other significant votes of that 10-to-2 were made. One 
was--let me catch up here. The second vote was that the BLM not 
close off OHV recreation areas that are included in the NECO 
plan; Ford Dry Lake and Rice Valley Dunes. These are OHV areas 
that are within the NECO planning area.
    The planner for NECO openly admitted at a DAC meeting that 
the only reason that these areas are being closed was due to, 
quote, under-utilization. DAC members suggested that possibly 
some time in the future that these areas might see more 
utilization as a result of all of the other closures throughout 
the California Desert District.
    The final NECO plan, for which a record of decision has 
been issued, is in the process of being implemented and it 
closes both of these OHV recreation areas. And the third 10-to-
2 vote was that these plans be held up until the Desert 
Tortoise recovery plan could be revisited, and someone has 
already addressed the fact that that has not been done, and 
moved ahead with finalizing the plans, and even going to the 
point of getting records of decision.
    At this point in time, records of decision have been issued 
for the NECO, the NEMO, and the Coachella Valley Plans. In 
spite of concern from several DAC members and the public, the 
1.2 million acre Coachella Valley plan, which runs from the 
Palm Springs area to the Salton Sea, does not today include a 
single open OHV recreation area.
    One can only wonder what the kids who live in that area who 
once rod their dirt bikes after school, are doing after school 
today to burn on their excess energies. The NEMO plan sets the 
stage for eliminating forever the point-to-point competitive 
events.
    A world-class desert motorcycle race that was held in the 
Mojave Desert for many years was the Barstow to Vegas Hare and 
Hound Race. The Desert Vipers Motorcycle Club, which I am 
representing, has submitted applications for permits for the 
last 8 years and have been denied every year.
    The denials are in spite of the fact that the club as met 
with desert managers and laid out a course that has no impact 
on tortoise habitat. Most of it is on dirt roads. This action 
is in direct conflict with the original California Desert 
Conservation Plan that allowed competitive events.
    A particularly good example of how the CDCA BLM management 
discriminates the OHV community is evident in a recent news 
release that describes a contest for inventors of robotic 
devices.
    The Department of Defense is conducting a grand challenge, 
which is scheduled for March 13, 2004. They are working with 
BLM managers to lay out three different race courses--you 
guessed it, from Barstow to Las Vegas.
    The actual race route will not be announced until 2 hours 
prior to the start of the race, and not one, but three courses. 
Contestants from across the globe will race their robotic 
vehicles over one of these courses for a grand prize of $1 
million.
    These vehicles are large enough to transport, quote, to 
transport supplies and ammunition to troops in the field. It 
seems appropriate to assume that the DoD considered 
environmental impacts when choosing this race route, and picked 
a route where impacts would be minimal or non-existent.
    Why then are desert motorcycle racing enthusiasts shut out 
year-after-year? Are government agencies that hold race events 
that much more important than motorcycle racing enthusiasts? A 
copy of the DoD announcement about this race event is included 
with my testimony.
    The WEMO plan, the largest and the last of the CDCA plans, 
is currently in development. Somebody talked about the route 
designation effort and so I will not go into that. It has been 
pulled out as an EA, which presumes no significant impact, even 
though thousands of miles of trails are being closed.
    And the other area of the WEMO plan that I wanted to point 
out was the Surprise Canyon situation, and which someone has 
already pointed out. It is cherry-stemmed out of a wilderness 
area.
    And in addition to the WEMO area point-to-point events, 
specifically the Barstow-to-Vegas motorcycle race, has been 
eliminated from the WEMO plan to be compatible with its 
elimination of the same race in the NEMO plan.
    If this Committee is not yet convinced that there is 
trouble ahead for the BLM and its management of the CDCA in the 
future, consider this. No funds are available in the BLM's 
budget to implement the new CDCA plans.
    In my recent trip to Washington, D.C., our group was told 
that this year's Federal budget does not appropriate any money 
for implementing these plans. No private enterprise would even 
consider developing extensive long-range business plans without 
ever considering where the money to implement the plans will 
come from, or how much is allotted in the budget.
    Since this country was founded, travelers have always 
recognized that roads, trails, and paths were available for 
passage unless they were posed closed. The BLM, CDCA-wide is 
implementing a closed unless posted open policy.
    They are attempting to identify acceptable routes to travel 
within each planning area. In order to do this, they must first 
identify all the routes and trails within the total 10 million 
acre CDCA, an impossible task even if they had sufficient 
staff. Once a manageable number of routes have been identified 
as approved routes of travel, any trails that were not included 
in the BLM's inventory will be gone forever, even if they were 
once utilized as popular routes of travel.
    Signing these approved routes of travel is another problem. 
This will be an extensive, time consuming, expensive process. 
With no budget for implementing the CDCA management plans, 
where will the funding come from?
    Once records of decision have been issued approving the 
management plans, the ``closed, unless posted open'' policy 
immediately goes into effect. So, for all practical purposes, 
all desert routes will be closed until the BLM acquires 
resources to implement the signing program.
    The average trail or route user cannot be expected to 
obtain maps from the BLM and learn how to identify approved 
routes of travel on those maps before they recreate on public 
lands. Furthermore, route signs can disappear for many reasons. 
How will the trail user know if that trail has been closed?
    Summary. First of all, management by closure. Attached to 
my testimony is a letter, dated June 20, 2002, to the BLM 
manager for the CDCA. This letter addressed some of the 
concerns that I have listed in my testimony, as well as other 
examples of the BLM's, quote, management by closure policy 
within the CDCA.
    This policy has had a tremendous negative impact on public 
access to public lands within the California Desert District. 
An example is in the Rands Mountain area, OHV enthusiasts--and 
someone talked about being a 4-wheel drive enthusiast.
    There used to be over a thousand miles of 4-wheel drive 
trails in the Rands Mountain area. Those trails have been 
systematically closed by the BLM until only 129 miles were left 
about 2 years ago.
    Unfortunately, this and many other closures in the areas 
have led to an increase in illegal OHV use in closed areas. The 
BLM's solution to the law enforcement problem that resulted 
from illegal riding was to close 29 more miles of trails. 
Extending this concept, the BLM must believe that if all OHV 
areas are closed, the illegal riding problem will go away.
    In the area of dwindling access, I am not going to 
reiterate this. It has to do with the mitigation concept, and 
if there is no policy for protecting or mitigating impacts on 
OHV recreation, the ultimate event is going to be foreclosure.
    The funding problem I have identified. The end result as a 
I see it is here is what is going to take place. The EIS 
management plans will never be implemented without funds and 
resources.
    The anti-access organizations will file a plethora of new 
lawsuits against the BLM for not implementing the new plans; 
and the only action the BLM will be able to take without 
sufficient standing or sufficient funding will be emergency 
closures. I predict that the lack of access to public lands in 
the CDCA coming with these attempts to implement these plans 
will escalate to a level never thought possible.
    Thank you for allowing me to present my position on public 
access, and thank you for giving me a few more minutes. As you 
can see, there are many issues across the CDCA.
    [The prepared statement of Mr. Denner follows:]

Statement of Roy Denner, Off-Highway Vehicle Recreation Representative, 
                         San Diego, California

I. THE 10 MILLION ACRE CDCA MANAGED BY THE BUREAU OF LAND MANAGEMENT 
        (BLM)
    The map displayed depicts the area known as the California Desert 
Conservation Area (CDCA). It is approximately 10 million acres in size 
and runs from the Mexican border north almost to Bishop and is bounded 
on the east by the Colorado River. The western boundary extends beyond 
Edwards Air Force Base. This area has been managed by the BLM under a 
management plan originally developed in 1980 (The CDCA Management 
Plan).
    National Parks, National Preserves, Military Reservations, and 
Wilderness Areas can all be subtracted from public lands within the 
CDCA when considering lands available for Off-Highway Vehicle (OHV) 
recreation. When Desert Tortoise Habitat or Desert Wildlife Management 
Areas are added to the restricted areas, it is obvious that the 
opportunities for OHV recreation in the California Desert on BLM 
managed lands have diminished significantly.
    On March 16, 2000, the BLM was sued by the Center for Biological 
Diversity (CBD), the Sierra Club, and the Public Employees for 
Environmental Responsibility (PEER) for its failure to implement the 
CDCA Plan. The BLM was accused of not consulting with U.S. Fish & 
Wildlife (USF&W) regarding Endangered Species primarily the Desert 
Tortoise, across the entire CDCA; and the Peirson's Milk Vetch Plant, 
within the Imperial Sand Dunes Recreation Area (ISDRA). Emergency 
closures resulting from a settlement agreement between the BLM and the 
CBD, et al., added over 800,000 acres to the public land unavailable 
for OHV recreation. These closures were identified as ``Interim 
Emergency Closures'' necessary until the BLM could complete its 
consultation process with USF&W.
    On August 7, 2000, several pro-access groups were accepted as 
interveners on behalf of the BLM for the CBD lawsuit. On March 20, 
2001, a settlement agreement with a multitude of stipulations was 
signed by the BLM CDCA Manager (at the time), the Interveners, and the 
plaintiffs. Very little effort, on the part of the BLM, was exerted to 
negotiate the extensive demands of the plaintiffs. The primary focus, 
on the part of the interveners, was the Imperial Sand Dunes Recreation 
Area (ISDRA)--very likely the most popular OHV recreation area in the 
universe! Since the settlement, the plaintiffs have been actively 
spreading the word that the OHV community through the interveners 
approved of the settlement which is a true statement! What they don't 
describe is the fact that the BLM CDCA Manager made it clear that if 
the interveners didn't sign the agreement he would be forced to close 
the entire ISDRA until consultation with Fish & Wildlife was completed. 
The interveners concluded that a half a loaf is better than none so 
they signed the agreement. Some might call this good negotiating on the 
part of the plaintiffs. I call it ``blackmail''!
    As a result of Park and Preserve areas, Military Reservations, 
Wilderness designations, restrictions within Desert Tortoise habitat, 
and the Emergency Closures resulting from the lawsuit, millions of 
acres of BLM lands within the CDCA that were once open to OHV 
enthusiasts are now closed to this form of recreation. A document 
published by California State Parks in 2002 titled ``Taking The High 
Road'' points out that while the number of vehicles licensed in 
California for off-highway use increased by 108% in the last 20 years, 
the number of acres available for OHV recreation in California 
decreased by 48%.
    The same report refers to an economic impact study that was 
completed in 1993 that showed the ``Annual Economic Impact of OHV 
Recreation in California'' to be over $3 billion at that time. Since 
then, the level of activity and the price of equipment have escalated 
to the point where current estimates of $8 to $9 billion are being 
targeted. Access concerns and economic impact are directly related.

II. REVISIONS TO THE CDCA NEW MANAGEMENT PLANS (Actually EIS's)
    BLM's solution for meeting the requirements imposed by the 
settlement agreement, its far-reaching stipulations, and the agreed-to 
implementation schedule, was to divide the CDCA into five separate 
major planning areas and develop a separate new plan (EIS) for each 
planning area. Planning efforts were hastily initiated in order to meet 
the compressed time schedule.
    The five new planning areas are shown on the map. The species 
listed as ``threatened'' under the ESA (Endangered Species Act) that is 
the driving factor behind the new Management Plan for the Imperial Sand 
Dunes Recreation Area is the Peirson's milk-vetch Plant. Since the 
ISDRA is considered to be one of the most popular OHV recreation areas 
in the world, and, since the closures there have attracted attention 
nationwide, the Hearing Committee will be receiving separate testimony 
on this planning area. The balance of my testimony will focus on the 
remaining CDCA Planning areas.
    Four major new planning areas within the CDCA focus on the need to 
protect the Mojave Desert Tortoise listed as ``Threatened'' under the 
ESA. These plans, which are actually Environmental Impact Statements, 
not land management plans supported by EIS's are known as:
    <bullet> NECO Northern and Eastern Colorado planning area.
    <bullet> NEMO Northern and Eastern Mojave planning area.
    <bullet> The Coachella Valley planning area.
    <bullet> WEMO The Western Mojave planning area.
    I am holding up copies of the EIS's for these planning areas to 
give the Hearing Committee a feel for the magnitude of these planning 
efforts.

III. THE MOJAVE DESERT TORTOISE RECOVERY PLAN (DTRP)
    Approximately a decade ago, a team of biologists developed the 
``Mojave Desert Tortoise Recovery Plan''. The purpose of this plan was 
to provide for protection and recovery of the Mojave Desert Tortoise 
(MDT), listed as ``Threatened'' under the ESA. The biologists who 
developed the plan recognized that information on the MDT was sketchy 
and anecdotal. Scientific support for biological theories was not 
available at the time the DTRP was developed. The drafters of the Plan 
included a provision in the DTRP to review the Plan in three to five 
years so that any science developed in the interim could be included at 
that time. As of this Hearing, the DTRP has never been revisited. 
Without regard for the lack of good science to support the DTRP, the 
BLM has proceeded with the completion of major new land plans within 
the CDCA acknowledging that the driving forces behind these plans are 
the DTRP and the stipulations agreed to in the settlement agreement 
resulting from the lawsuit filed by CBD, et al. It is clear which of 
these factors is most important to the BLM. The BLM planning efforts in 
the CDCA are being driven by litigation not good planning science. 
Otherwise, the planning effort would be delayed until good science on 
the desert tortoise was available to support the planning decisions!

IV. CDCA ADVISORY COUNCIL AND THE BLM
    Members of the California Desert District Advisory Council (DAC) 
are appointed by the United States Secretary of the Interior. The DAC 
is composed of representatives from various stakeholder interest groups 
within the CDCA. The DAC's charter is to advise the BLM's CDCA manager 
regarding management of that area. At a meeting in El Centro during 
December 2001, members of the DAC voted 10 to 2 to recommend that the 
BLM hold up the new CDCA Management Plans (EIS's) until the DTRP could 
be re-assessed. Most members agreed that it was not responsible 
planning to develop major new plans based on a recognized unsupported 
DTRP. The BLM CDCA Manager indicated that the implementation schedule 
committed to in the CBD, et al. settlement and stipulations did not 
allow time for review of the DTRP prior to finalizing and implementing 
the new plans (EIS's). If, and when, the re-assessment of the DTRP 
shows that the original Recovery Plan is significantly in error, all of 
the BLM Management Plans that are based on the DTRP will need to be 
redone! What a drastic waste of taxpayers' money!
    The Desert Advisory Council made two other significant 
recommendations on a vote of 10 to 2 at the December 2001 meeting. The 
first recommendation was that the new Desert Management Plans whenever 
they would be completed include a provision for mitigating impacts to 
recreation and other desert interests, just as impacts to threatened or 
endangered species are mitigated. For example, if an area needs to be 
closed to human use due to a scientifically proven impact on a species, 
another area should be opened or expanded to mitigate the impact on 
desert access providing a ``no-net-loss'' situation. This concept was 
not implemented in any of the new plans.
    The second recommendation made with a 10 to 2 vote was that the BLM 
not close two Off-Highway Vehicle Recreation Areas Ford Dry Lake and 
Rice Valley Dunes. These OHV areas are within the NECO planning area. 
The planner for NECO openly admitted at a DAC meeting that the only 
reason that these areas are being closed is due to 
``underutilization''! DAC members suggested that, at some time in the 
future, these areas might see more utilization as a result of all of 
the other closures throughout the CDCA. The final NECO Plan, for which 
a Record of Decision has been issued, closes both of these areas!

V. STATUS OF CDCA PLANS
    At this point in time, Records of Decision have been issued for the 
NECO, NEMO and the Coachella Valley Plans. In spite of concern from 
several DAC members and the public, the 1.2 million acre Coachella 
Valley Plan, which runs from the Palm Springs area to the Salton Sea, 
does not include a single legal open OHV recreation area. One can only 
wonder what the kids who live in that area, who once rode their dirt 
bikes after school, are doing after school today to burn off their 
excess energy!
    The NEMO Plan sets the stage for eliminating point-to-point 
competitive events forever! A world classic desert motorcycle race that 
was held in the Mojave Desert for many years was the Barstow to Vegas 
Hare & Hound Race. The Desert Vipers Motorcycle Club has submitted 
applications for permits for the last 8 years and have been denied each 
year. The denials are in spite of the fact that the club has met with 
desert managers and laid out a course that has no impact on tortoise 
habitat most of it is on dirt roads. This action is in direct conflict 
with the original California Desert Conservation Plan that allowed 
``competitive events''.
    A particularly good example of how the CDCA BLM management 
discriminates against the OHV community is evident in a recent news 
release that describes a contest for inventors of robotic devices. The 
Department of Defense is conducting this ``Grand Challenge'' which is 
scheduled for March 13, 2004. They are working with the BLM managers to 
lay out three different racecourses from Barstow to Las Vegas. The 
actual race route will not be announced until two hours prior to the 
race start. Not one, but three! Contestants from ``across the globe'' 
will race their robotic vehicles over one of these courses for a grand 
prize of $1 million. These vehicles are large enough to ``transport 
supplies and ammunition to troops in the field''. It seems appropriate 
to assume that the DOD considered environmental impacts when choosing 
this race route and picked a route where impacts would be minimal or 
non-existent. Why, then, are desert motorcycle racing enthusiasts shut 
out year-after-year? Are government agencies that hold race events that 
much more important than motorcycle racing enthusiasts? A copy of the 
DOD announcement is included with this testimony.
    The WEMO Plan, the last and largest of the CDCA Plans is currently 
in development. The Route Designation effort has been pulled out of the 
planning process and has been released under an EA (Environmental 
Assessment) rather than being part of the EIS planning process. An EA 
presupposes ``no significant impact'' will result from the action. 
Thousands of miles of back roads and trails will be closed under this 
EA to, allegedly, protect the Desert Tortoise. It is difficult to 
understand how this can be considered ``no significant impact''!
    Also part of the WEMO area, is a popular place known as Surprise 
Canyon. Surprise Canyon is located in the Panamint Mountains near 
Ridgecrest and runs right through the middle of a large Wilderness 
Area. It was ``cherry-stemmed'' out of the Wilderness Area by Congress 
when the Wilderness Area was created. Surprise Canyon has historically 
provided the only access to the mining town of Panamint high in the 
mountains. It has also been long-recognized as a popular extreme four-
wheel drive recreation trail. It was closed to vehicle access, as an 
``emergency closure'', to satisfy one of the stipulations in the CBD, 
et al. lawsuit. The Canyon has a seasonal stream running through it. As 
part of the WEMO planning effort, the BLM is proposing that Surprise 
Canyon be made a ``Wild and Scenic Waterway''! No consideration is 
being given concerning why the U.S. Congress cherry-stemmed the passage 
out of the Wilderness when the Wilderness area was created!
    Of course, point-to-point competitive events specifically the 
Barstow to Vegas motorcycle race has been eliminated from the WEMO Plan 
to be compatible with its elimination in the NEMO Plan.
    If this Committee is not yet convinced that there is trouble ahead 
for the BLM and its management of the CDCA in the future, consider 
this: No funds are available in the BLM's budget to implement the new 
CDCA plans! During a recent trip to Washington, D.C., our group was 
told that this year's federal budget does not appropriate any money for 
implementing these plans. No private enterprise would even consider 
developing extensive long-range business plans without ever considering 
where the money to implement the plans will come from or how much is 
allotted in the budget!

VI. CLOSED UNLESS POSTED OPEN POLICY
    Since this country was founded, travelers have always recognized 
that roads, trails, and paths were available for passage unless they 
were posted ``closed.'' The BLM, CDCA-wide, is implementing a ``Closed 
Unless Posted Open'' policy. They are attempting to identify acceptable 
routes of travel within each planning area. In order to do this, they 
must first identify all routes and trails within the total 10 million 
acre CDCA an impossible task, even with sufficient staff. Once a 
manageable number of routes have been identified as approved routes of 
travel, any trails that were not included in the BLM's inventory will 
be gone forever even if they were once utilized as popular routes of 
travel.
    Signing the approved routes of travel is another problem. This will 
be an extensive, time consuming, expensive process. With no budget for 
implementing the CDCA Management Plans, where will the funding come 
from? Once Records of Decision have been issued approving the 
Management Plans, the ``closed, unless posted open'', policy 
immediately goes into effect. So, for all practical purposes, all 
desert routes will be closed until the BLM acquires resources to 
implement the signing program. Individual trail and route users cannot 
be expected to obtain maps from the BLM and learn how to identify 
approved routes of travel on those maps before they travel on public 
lands within the CDCA! Furthermore, route signs can disappear for many 
reasons. How will the trail user know if that trail has been closed?

VII. SUMMARY
A. Management by Closure
    Attached is my letter dated June 20, 2002, to the BLM Manager for 
the CDCA. This letter addresses some of the concerns listed above as 
well as other examples of the BLM's ``Management by Closure'' policy 
within the CDCA. This policy has had a tremendous negative impact on 
public access to public lands within the California Desert District.
    Another example of Management by Closure: In the Rands Mountain 
area, OHV enthusiasts have always had over 1,000 miles of trails to 
explore. Those trails have been systematically closed by the BLM until 
only 129 miles were left about two years ago. Unfortunately, this and 
many other closures in the area have led to an increase in illegal OHV 
use in closed areas. The BLM's solution to the law enforcement problem 
that resulted from illegal riding was to close 29 more miles of trails. 
Extending this concept, the BLM must believe that if all OHV areas are 
closed, the illegal riding problem will obviously go away.

B. Dwindling Access
    No protection or mitigation for impacts to public access to public 
lands within the CDCA is considered in any of the new plans. If plans 
continue to provide for reduction in access to public lands and never 
provide for protecting public access eventually, all public access to 
public lands will be gone!

C. Funding Problem
    The new CDCA Management Plans (EIS's) have been developed without 
any concern for the cost to implement them. Planners have been given 
the go-ahead to develop plans that address every environmental concern 
no matter what resources are necessary for implementation. Unlike 
rational business management plans, no compromises have been considered 
to make sure that the plan can be implemented within the budget that 
has been allocated. All of this is taking place during a time when the 
Federal Government is cutting back on funds allocated to agencies like 
the BLM. It doesn't take a CPA to figure out that this ain't gonna 
work!

VIII. End Result:
    <bullet> The Plans (EIS's) will never be implemented! (No funds! 
Serious staffing shortage!)
    <bullet> The anti-access organizations will file a plethora of new 
lawsuits against the BLM for not implementing the new plans.
    <bullet> The only action the BLM can take without sufficient 
staffing or sufficient funding will be ``Emergency Closures''.
    <bullet> Lack of access to public lands in the CDCA will escalate 
to a level never thought possible.
    Thank you for allowing me to present my position on public access 
to public lands within the California Desert Conservation Area.
                                 ______
                                 

    [Attachments to Mr. Denner's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T8929.007
    
    [GRAPHIC] [TIFF OMITTED] T8929.008
    
    [GRAPHIC] [TIFF OMITTED] T8929.009
    
    [GRAPHIC] [TIFF OMITTED] T8929.010
    
    [GRAPHIC] [TIFF OMITTED] T8929.011
    
    [GRAPHIC] [TIFF OMITTED] T8929.012
    
    [GRAPHIC] [TIFF OMITTED] T8929.013
    

    Mr. Radanovich. Thanks, Mr. Denner, and again we want to 
make sure that all viewpoints are represented here, and time 
allowed to be able to do that. Mr. Jim Bramham, who is with the 
American Sand Association from Sacramento. Welcome to the 
Subcommittee, and please begin your testimony.

     STATEMENT OF JIM BRAMHAM, BOARD MEMBER, AMERICAN SAND 
              ASSOCIATION, SACRAMENTO, CALIFORNIA

    Mr. Bramham. Thank you very much, and thank you for 
allowing me to speak today on behalf of the 14,000 sand sport 
enthusiasts who are members of the American Sand Association, 
and the millions of Americans who recreate in sand dune areas 
throughout the United States.
    In the spirit of the west, and in pursuit of relaxation, 
exploration, rejuvenation, education, and family unification, 
more than 1.4 million Americans visit the ISDRA each year, 
making it among the most visited places on public lands, and it 
is a vital outlet to the pressures of urban living.
    For us, the closing of the west started with the 1980 
desert plan. This plan broke the desert up into several use 
categories. It closed the very large Eureka and Kelso dune 
complexes, and a portion of the Imperial Dunes, leaving less 
than one half of the traditional sand recreation areas open.
    With the entire California desert on the planning table, 
the discussion scale at that time was 1-to-10, with middle 
ground being five. With the adoption of this plan, Americans 
lost more than one-half of their 130 years of opportunities.
    The 1994 California Desert Protection Act granted 
wilderness protection to more than twice the acreage found 
suitable by the Carter administration. At plus or minus 7.5 
million, or any other estimate that you would use, the 
designation incorporated many areas that have extensive road 
networks, mineral and recreation values.
    During this period of discussion, it is no longer 1-to-10, 
but 1-to-5, and middle ground is 2.5. With the passage of this 
act, Americans lost significantly more historic access. Their 
desire for access was not diminished, just their preferred 
designations.
    The anti-access advocates, bent on recreational genocide, 
continue to use every avenue available to them to further their 
agenda to close the west. Their weapon of choice the last 
several years of the ISDRA has been the Endangered Species Act. 
Using incomplete and poorly designed studies, they bludgeoned 
the U.S. Fish and Wildlife Service into granting threatened 
status to the Peirson's Milk Vetch, even though their own staff 
questioned the scientific validity of the available data.
    In March of 2002, armed with this designation, several 
anti-access groups sued the bureau, demanding that nearly half 
of the remaining acreage be closed until a new plan could be 
completed. The BLM accepted these restrictions to public access 
without a fight.
    Dr. Art Phillips, a highly regarded plant biologist, has 
now done an in-depth analysis of the Peirson's Milk Vetch. 
These studies of both living germinating plants and the 
sustaining seed bank have proven that the plant is thriving 
throughout its range.
    It is prolific in its seed production, and clearly does not 
fit the description of a threatened species. Dr. Phillip's work 
is both peer reviewed, repeatable, and verifiable. The BLM has 
just completed a recreation area management plan for this area. 
The plan seeks to protect species which clearly do not need the 
level of protection afforded under the ESA. To achieve this 
goal the plan severely restricts access to a significant 
portion of the dunes.
    This, coupled with a 4-year revisit clause, stops long term 
business decisions that would spur economic growth and bring 
jobs to the area. Now compounding the issue, the BLM is moving 
forward with a business management plan to implement this ramp, 
and the U.S. Fish and Wildlife Service continues down the 
unwarranted path toward critical habitat designation.
    The whole planning process has its foundation in the 
unstable sands of poor science and friendly litigation. These 
access or anti-access groups sued for a process, and what has 
been produced is a NEPA document with full public participation 
that they now disagree with.
    So they have returned to court litigating over the result. 
It is said that this process has wasted so many taxpayer 
dollars that could have been better used to truly protect the 
resource and provide enhanced recreation experiences.
    This type of use of well-intentioned public policy is 
rampant, put on display for all to clearly see at the ISDRA. 
One to ten? No, 1 to 2.5 or less. Middle ground? Why? Is 75 
percent not enough protection?
    Please do not let the anti-access advocates continue to 
close the west to our family and our future generations. Thank 
you.
    [The prepared statement of Mr. Bramham follows:]

  Statement of Jim Bramham, Board Member, American Sand Association, 
                         Sacramento, California

A Foundation of Unstable Sand
    I am here today representing the more than 12,000 sand sports 
enthusiasts who are members of the American Sand Association (ASA) and 
the millions of Americans who recreate in sand dune areas throughout 
the United States. I am currently on ASA's Board of Directors, member 
Technical Review Team (TRT) for the ISDRA, past President of the 
California Association of 4-Wheel Drive Clubs (CA4WDC), and a former 
Vice Chair of the California Off Highway Motorized Vehicle Recreation 
(OHMVR) Commission. Thank you again for an opportunity to be part of 
this important hearing.
    For nearly 200 years, Americans had the right to travel where and 
by what conveyance they deemed appropriate throughout nearly all of 
America. The West was opened by imaginative pioneers using ever more 
sophisticated forms of transportation and recreation. As the West was 
settled, routes of travel were established and as leisure time 
increased adventures like a Sunday drive became increasingly popular. 
The pursuit of relaxation, exploration, rejuvenation, education, and 
family unification continue each and every weekend as thousands of sand 
sport recreationists travel to the various areas available for this 
activity. From October through Easter, the Imperial Sand Dune 
Recreation Area is among the most visited piece of public lands in the 
United States with weekend visitorships exceeding 100,000. It is a 
vital outlet from the pressures of urban living.
    The closing of the West started with the passage of Federal Land 
Policy and Management Act (FLPMA) in 1976. Previous to the passage of 
FLPMA Americans were allowed to travel the California desert restricted 
only by a few military installations and private property. To the 
access community, this is 100%. The outgrowth of FLPMA was the 1980 
California Desert Plan. This Plan broke the desert up into several user 
categories, severely limiting access to many popular areas. The 
California desert contains several dune systems, the most prominent 
being Eureka, Kelso, Dumont, Rice and Imperial also known as the 
Algodones Dunes. The Desert Plan placed the very large Eureka and Kelso 
Dune complexes and a portion of the Imperial Dunes off limits to 
motorized recreation leaving less than half of the available sand dune 
recreation areas available. At this point the discussion scale is 1 to 
10 with middle ground being 5, with the adoption of the plan the access 
community loses more than half its opportunities.
    Under the Carter Administration, a Wilderness suitability inventory 
was conducted. It determined that slightly less than 3 million acres of 
the desert is suitable for Wilderness designation. Senator Cranston and 
later Senator Dianne Feinstein crafted the California Desert Protection 
Act that granted Wilderness protection to more than twice the suitable 
acreage. At +/- 7.5 million acres this designation incorporated many 
areas that have extensive road networks and mineral and recreation 
values. This Act designated the Eureka, Kelso and North Algodones Dunes 
as Wilderness. During this period the discussion is no longer one to 
ten but one to five and middle ground is 2.5. With the passage of the 
Act the access community dropped below 25% of historic access.
    According to the Desert Plan and Desert Protection Act the areas in 
the Imperial Sand Dunes outside of Wilderness are to be managed as 
intensive use areas with a portion to also be managed for motorized 
access with less development. This was codified in the first Dunes 
Management Plan and later in the 1987 Recreation Area Management Plan.
    Recent California surveys have shown that more than 14% of 
California households engage in Off Highway Vehicle (OHV) activities 
and nationally, less than 2% of Americans use the Wilderness system. 
The anti-access advocates either emboldened by their desert land heist 
for just 2% of the population or just bent on recreational genocide 
continue to use every avenue available to them to further their agenda 
to close the West. Their weapon of choice in the last several years at 
the ISDRA has been the Endangered Species Act (ESA).
    Using incomplete and poorly designed studies, they bludgeoned the 
U.S. Fish and Wildlife Service into granting threatened status to the 
Peirson's Milk Vetch even though the USFWS staff questioned the 
completeness, accuracy and scientific protocol of the data presented to 
justify this action. In March of 2000 armed with this designation, the 
Center for Biological Diversity and other anti-access groups sued the 
Bureau of Land Management (BLM) demanding that nearly half the 
remaining acreage be closed until a new plan could be completed. In the 
waning years of the previous Administration, the sue and surrender or 
friendly lawsuit was in vogue and without a fight the BLM accepted 
these restrictions to public access.
    Several studies commissioned by concerned citizens brought Dr. Art 
Phillips, a highly regarded plant biologist, to do in-depth analysis of 
the Peirson's Milk Vetch. These studies of both living germinating 
plants and the sustaining seed bank have proven that this plant is 
thriving throughout its range, is prolific in its seed production, and 
clearly does not fit the description of a threatened species. Dr. 
Phillips' work has been peer reviewed and is repeatable and verifiable.
    The BLM was required by this same litigation to complete a 
Recreation Area Management Plan (RAMP) for this area. The plan, as 
written, seeks to protect a plant which clearly does not need the level 
of protection afforded under the Endangered Species Act (ESA). Although 
the RAMP calls for a return to the original Desert Plan land use 
designations it severely restricts access to a significant portion of 
the dunes. This coupled with a 4-year revisit clause that precludes the 
local economy and recreationists from making long-term business 
decisions. Eliminating these draconian provisions would increase 
confidence in the plan, spur economic growth and bring jobs to the 
area's economy. Now a business plan to implement this RAMP is being 
finalized by the BLM.
    Although the USFWS is currently evaluating a petition to de-list 
the Peirson's Milk Vetch, which is based on sound science, the whole 
planning process has its foundation in the unstable sands of poor 
science and friendly litigation. These anti-access groups sued for a 
process. What has been produced is a NEPA document with full public 
participation that they disagree with. Now they have returned to court 
litigating over the result. It is sad that this process has wasted so 
many taxpayer dollars and placed work demands on several federal 
agencies that could have been better used to truly protect the resource 
and provide enhanced recreation experiences. This type of abuse of 
well-intentioned public policy is rampant, put on display for all to 
clearly see at the ISDRA.
    One to ten? No, 1 to 2.5 or less. Middle ground? Why? Is 75% not 
enough protection?
    The ESA must be reformed. If it remains public policy, it must be 
used to grant protection only to truly needy candidates. It must 
include peer review requirements, test plot analysis, recovery plan 
analysis, thresholds of recovery, and cost benefit analysis.
    Please do not let the anti-access advocates continue to close the 
west to my family and our future generations. Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Bramham. I 
appreciate your testimony. Mr. David Hubbard, who is with the 
Off-Highway Recreation Community, Escondido. Welcome to the 
Subcommittee, and you may begin your testimony.

  STATEMENT OF DAVID HUBBARD, COUNSEL, OFF-HIGHWAY RECREATION 
                COMMUNITY, ESCONDIDO, CALIFORNIA

    Mr. Hubbard. Thank you. My role this afternoon is to 
describe the kind of litigation-driven land planning that now 
controls the CDCA and the Imperial Sand Dunes. The CDCA, as I 
described in my written materials, is ground zero for 
litigation between the pro-access and anti-access camps.
    Currently, there are 10 lawsuits pending before Federal 
Courts that relate to the CDCA and there are three in the cube, 
and by in the cube, I mean that they are simply waiting for 
their 60 day time period to lapse so that they can file a 
complaint in Federal Court.
    In addition, my other role is to give you some examples to 
demonstrate why litigation in land planning is ineffective and 
counterproductive from both a public access perspective, and 
ironically from a natural resource perspective.
    The two examples that I would like to discuss are the 
Desert Tortoise and the Peirson's Milk Vetch. Just as important 
my other role here is to ask for the help of Congress in 
changing the situation. As has been discussed the Endangered 
Species Act is used as a weapon to restrict public access to 
public land.
    As one gets into the science and the motivations of those 
who produce it and interpret it, what you learn is that this 
litigation is not about protecting plants and animals. It is 
about people. Specifically, it is about one group of people 
imposing its will on the activities of another group of people.
    That needs to stop, and the only way it will stop is if 
Congress regains control of this situation through legislation, 
and amend the Endangered Species Act, and also provide in terms 
of additional legislation protective status to public 
recreation.
    It needs to move up on the priority list of activities that 
are protected under Federal statutes. Only in this way will 
there be a balance struck between natural resource protection 
and public access to public lands. In March of 2000, as you 
have heard, the Center for Biological Diversity filed a lawsuit 
in Federal Court, the result of which was the massive closure 
of more than 1 million acres of public lands in the California 
desert.
    The stipulations that created this closure were not the 
product of a public process. The closures were subjected to 
environmental review. They were not subjected to an economic 
analysis. They simply were entered into by the defendant, BLM 
management, and the plaintiff group.
    Other groups attempted to get into the lawsuit, and a gun 
was put to their head, and they signed on the dotted line, but 
the effect in essence was a back door deal that ended up 
closing a million acres in the California desert.
    Not surprisingly, the pro-access group, the folks that I 
represent, the folks that are behind me wearing the orange 
shirts, have started to fight back. But unfortunately we are 
having to fight back by filing yet more lawsuits.
    What this means is that the courts, and not Congress, and 
not the administrative agencies who are charged with keeping 
the public lands open to the public, and making sure that the 
laws are followed. It is the courts that are really planning 
and directing the management of these lands.
    This is not the way it is supposed to go, and it is not the 
best way of managing this large expansive territory. Part of 
the reason that it is a lousy way of doing it is that the 
courts only adjudicates the issues that are presented to it by 
those parties who are before it, which means that a lot of 
stakeholders, a lot of the people who are going to be affected, 
aren't even before the court, and their interests are never 
considered.
    And just to give you some idea, right now as I indicated, 
there are 10 lawsuits currently pending in Federal Court, and 
there are 3 others that will likely be filed in the next few 
weeks. And as a result of these things, a lot of money is 
spent, and a lot of money is wasted, and there is very little 
benefit to the actual species under consideration.
    Perhaps the best example is the desert tortoise, where more 
than a hundred-million dollars has been spent, most of it to 
remove people from the desert. As a result of that effort, 
there are more desert tortoises dying now than there were 
before.
    There has been no advance in tortoise recovery, and the 
primary reason for that is that the entire recovery effort has 
been focused on removing people from the desert and not on the 
true cause of the Desert Tortoise mortality, which frankly are 
things that are not related to human activity, such as off-road 
use or camping, but are related to disease, upper respiratory 
tract disease, which is sort of the tortoise version of SARS.
    Unfortunately, neither the BLM nor the Fish and Wildlife 
Service, or any other group, has done what most people would 
think would be required when you have that kind of epidemic, 
which is to quarantine and control.
    I see that my time is up, and I would be very happy to 
answer any questions that you might have with respect to the 
litigation that now really controls land management in the 
CDCA.
    [The prepared statement of Mr. Hubbard follows:]

Statement of David P. Hubbard, Esq., Lounsbery, Ferguson, Altona & Peak 
     LLP, Escondido, California, Counsel for the Off-Road Business 
      Association; American Sand Association; American Motorcycle 
Association, District 37; San Diego Off-Road Coalition; and California 
                      Off-Road Vehicle Association

  Federal Court Litigation Over Public Lands In the California Desert
I. The Center for Biological Diversity Lawsuit
    In March of 2000, the Center for Biological Diversity and two other 
plaintiff groups (collectively, ``CBD'') filed suit against the Bureau 
of Land Management (``BLM'') for its alleged failure to comply with the 
federal Endangered Species Act (``ESA'') as it applies to the 
California Desert Conservation Area (the ``CDCA''), an immense expanse 
of public lands located in the desert region of southern California. 
Specifically, CBD alleged that BLM had violated Section 7 of the ESA by 
failing to consult with the United States Fish & Wildlife Service 
(``USFWS'') regarding the impacts of permitted activities within the 
CDCA on various threatened and endangered species. With virtually no 
input from the affected public, BLM entered into a series of settlement 
stipulations with CBD which shut down more than 1 million acres of 
formerly-open public recreation areas in the desert. These closures 
were to remain in effect until the Section 7 consultation process could 
be completed. However, in most cases the ``interim'' closures have been 
incorporated into permanent management plans, resulting in a huge loss 
of public recreational space and opportunity.

II. Legal Actions Filed by Public Access Groups In Response to CBD 
        Settlement
    Not surprisingly, the recreational community has started to fight 
back, initiating its own litigation campaign to reopen the recently-
closed areas of the CDCA. These suits have challenged the new 
management plans (and their closure strategies) on grounds they violate 
the Federal Lands Policy and Management Act (``FLPMA'') and the 
National Environmental Policy Act (``NEPA''). In addition, certain 
recreation groups have filed actions against BLM and USFWS under the 
ESA itself. For example, in October 2001, the American Sand Association 
(``ASA''), the Off-Road Business Association (``ORBA''), and the San 
Diego Off-Road Coalition (``SDORC'') filed a petition with USFWS to 
remove the Peirson's Milkvetch (``PMV'') from the federal list of 
threatened and endangered species, as permitted under Section 4 of the 
ESA. The PMV is a plant species endemic to the Imperial Sand Dunes 
Recreation Area (``ISDRA''). As a ``threatened'' species, it drives 
most of the regulatory activity in that region. When USFWS failed to 
respond timely to the delisting petition, ASA and its co-parties filed 
suit in federal court. This case was settled in August 2003, with USFWS 
paying the plaintiffs' attorneys fees.
    In another action, the American Motorcycle Association District 
37--along with ORBA, CORVA, SDORC, and the Utah All-Access Alliance--
filed suit against BLM and USFWS for their gross mismanagement of the 
Desert Tortoise Recovery Plan. The complaint demonstrates that the 
Desert Tortoise recovery effort has cost taxpayers more than $100 
million but has been a complete failure. Tortoise populations continue 
to decline rapidly, primarily due to Upper Respiratory Tract Disease 
(``URTD''). However, instead of aggressively tackling the disease, BLM 
and USFWS have continued in their misguided policy of attempting 
recovery by removing people from the desert. So while the public loses 
access to these public lands, tortoise populations continue to be 
ravaged by URTD and nothing is being done about it. The lawsuit seeks 
to reverse this situation.

III. The Costs and Pitfalls of Litigating Over the CDCA
    The number of legal proceedings relating to the CDCA is staggering. 
And for both plaintiffs and defendants, this constant string of 
litigation consumes tremendous amounts of financial resources. A 
partial list of the various lawsuits and administrative challenges 
includes the following:
    <bullet> American Motorcycle Association, et al. v. Department of 
Interior, et al., U.S.D.C. Southern Dist. Calif., Case No. 02 CV 1998B 
(NEPA and FLPMA suit challenging interim closures throughout CDCA on 
grounds that closure decisions were made without public input and 
without environmental review)
    <bullet> Off-Road Business Association, et al. v. Department of 
Interior, et al., U.S.D.C. Southern Dist. Calif., Case No. 03 CV 1079 
JM (NEPA suit challenging recently-adopted management plan for the 
Western Colorado Desert region of the CDCA on grounds that 
Environmental Assessment for the plan does not adequately disclose, 
analyze, or mitigate the plan's impacts on recreation)
    <bullet> San Diego Off-Road Coalition, et al. v. Department of 
Interior, et al., U.S.D.C. Southern Dist. Calif., Case No. 03 CV 1199 
BTM (NEPA suit challenging recently-adopted management plans for (1) 
the Northern and Eastern Colorado region of the CDCA and (2) the 
Northern and Eastern Mojave Desert region of the CDCA on grounds that 
the Environmental Impact Statements for the plans do not adequately 
disclose, analyze, or mitigate the plans' impacts on recreation and on 
the spread of URTD among desert tortoise populations)
    <bullet> California Off-Road Vehicle Association, et al. v. 
Department of Interior, et al., U.S.D.C. Southern Dist. Calif., Case 
No. 03 CV 1444 BTM (NEPA suit challenging recently-adopted off-highway 
vehicle route designation plan for the Western Mojave Desert region of 
the CDCA on grounds that the Environmental Assessment for the plan does 
not adequately disclose, analyze, or mitigate the plan's impacts on 
recreation and on the spread of URTD among desert tortoise populations)
    <bullet> American Sand Association, et al. v. USFWS, et al. 
U.S.D.C. Southern Dist. Calif., Case No. 03-315L-LAB, (ESA suit 
demanding that USFWS respond to petition to delist the Peirson's 
Milkvetch (see above))
    <bullet> American Motorcycle Association, et al. v. USFWS, et al., 
U.S.D.C. Northern Dist. Calif., Case No.--------(ESA suit over failed 
Desert Tortoise Recovery Plan (see above))
    <bullet> Center for Biological Diversity, et al. v. USFWS, et al., 
U.S.D.C. Northern Dist. Calif., Case No. C 03 2509 SI (ESA suit 
challenging the Biological Opinions for the Desert Tortoise and 
Peirson's Milkvetch)
    <bullet> Center for Biological Diversity, et al. v. Department of 
Interior, et al., U.S.D.C. Southern Dist. Calif., Case No. 01 CV 2101 
(ESA suit demanding that DOI designate critical habitat for various 
threatened and endangered plant species in the CDCA, including the 
Peirson's milkvetch)
    <bullet> Center for Biological Diversity 60-Day Notice of Intent 
to Sue over USFWS's decision not to place the Flat-tailed horned lizard 
(FTHL) on the list of threatened species. (The FTHL resides in various 
regions of the CDCA.)
    <bullet> Center for Biological Diversity 60-Day Notice of Intent 
to Sue over BLM's Approval of the Recreation Area Management Plan 
(RAMP) for the Imperial Sand Dunes Recreation Area, on grounds it fails 
to provide adequate protection for the Peirson's Milkvetch.
    <bullet> Center for Biological Diversity's Petition to List the 
Andrews Dune Scarab Beetle as a Threatened Species. (The Andrews dune 
scarab beetle is endemic to the Imperial Sand Dunes.)
    What this partial list demonstrates is that the CDCA is ``ground-
zero'' for public access and environmental litigation. No place in the 
nation fosters so many lawsuits between public user groups and the 
anti-access wing of the environmental movement.
    The results of this phenomenon have been disastrous. In the shadow 
of litigation, very little proactive land management planning actually 
takes place, as BLM and USFWS must instead spend most of their 
resources responding to court orders. Worse, the legal decisions issued 
by the courts tend to be made in a vacuum and address only those 
interests advanced by the litigating parties. The needs and desires of 
other stakeholders are not taken into account, since they are not 
before the court. In this way, special interest groups have been able 
to use the judicial system to impose their will on the land. The 
traditional policy-making bodies--Congress, BLM, USFWS--have largely 
lost control of the process and now merely respond to directives issued 
by the courts.
    Ultimately, the public users of public lands pay the price for 
this--usually in the form of lost access. Simply put, the federal 
government is not doing enough to protect public use of the land. 
Rather than face a highly organized, well-trained, and well-funded 
anti-access group in court--or worse, risk a contempt charge by failing 
to comply with a court order--the federal agencies choose to capitulate 
and close trails and camping areas throughout the CDCA. Experience has 
shown that the federal agencies would rather deal with vocal but 
unorganized desert visitors than fight the likes of CBD and the Sierra 
Club. This has got to change; and only Congress can change it.

IV. Using the Endangered Species Act to Frustrate Public Access
    A quick review of the lawsuits described above will reveal the 
source of the problem. Anti-access groups have learned that the best 
way to remove people from the CDCA is to claim that their presence in 
the desert jeopardizes the viability of threatened or endangered 
species. They know that the ESA places species protection above all 
human-centered considerations. When push comes to shove, the people are 
shoved out. Furthermore, the anti-access groups know they need not 
present much in the way of solid scientific evidence to establish that 
the alleged ``jeopardy'' exists. Even weak evidence of a human-related 
threat to a protected species is often sufficient to support an 
injunction closing down huge areas of public land.
    Ironically, the plants and animals that are used as ``standard 
bearers'' for this kind of litigation rarely benefit from all of the 
legal maneuvering. So much emphasis is placed on removing people, that 
little energy is left to really address the true needs of the species. 
Three examples of this phenomenon are the Desert Tortoise, the 
Peirson's Milkvetch, and the Andrews Dune Scarab Beetle.

A. The Desert Tortoise
    The Desert Tortoise was ``emergency'' listed in 1989 due to an 
extreme outbreak of URTD in the Western Mojave Desert. In some regions, 
more than 80% of adult, reproductive tortoises succumbed to the 
disease. However, USFWS and BLM did not institute immediate measures to 
control and stop URTD from spreading. With the aid of the anti-access 
lobby, they instead implemented land management policies that removed 
human activities from large swaths of tortoise habitat, believing this 
would somehow improve tortoise survival. It did not.
    Throughout the 1990s, URTD spread to tortoise populations 
throughout the entire range of the species. Tortoises with the disease 
were detected in the Mojave and Colorado deserts of California, as well 
as in the deserts of Arizona, Nevada, and Utah. Not surprisingly, the 
overall reproductive rate of tortoises began to decline. Still, nothing 
was done to combat the disease or stop the epidemic from spreading. 
Instead, USFWS and BLM imposed more controls on human use of desert 
tortoise habitat.
    As of 2003, the disease is still rampant and killing tortoises at 
rates far higher than that assumed in the 1994 Desert Tortoise Recovery 
Plan. Indeed, recovery will be impossible if URTD is not brought under 
control However, no plan for stopping URTD in the field has been 
devised. There is no concerted effort to identify sick tortoises and 
quarantine (or euthanize) them. On the contrary, BLM has continued to 
placate the anti-access lobby by closing down more vehicle trails and 
recreation areas as a means to ``recover'' the tortoise. Not only has 
this failed, it actually serves to increase disease transmission, as 
trails often form a barrier between sick and healthy tortoise 
populations.
    Then, to add insult to injury, this whole backward process is 
blessed by the federal court and deemed necessary for compliance with 
the ESA. This is tragic and stupid. And if it continues, the CDCA will 
be closed to most forms of public recreation, and the tortoise will be 
extinct.

B. The Peirson's Milkvetch
    In the Imperial Sand Dunes, a slightly different but equally 
troubling process is taking place. Under pressure from the anti-access 
lobby, USFWS began in 1996 to consider the Peirson's milkvetch 
(``PMV'') for potential listing as a threatened species. The plant is 
endemic to the Imperial Sand Dunes and has a limited range, so the 
agency felt it was a suitable candidate for protection. However, 
neither USFWS nor any other agency knew how many plants actually lived 
in the dunes. They also had no idea as to the size and health of the 
PMV's seed bank, which is a key factor in determining the reproductive 
viability of a plant species.
    While deliberating on the listing question, USFWS sent a memorandum 
to BLM asking for abundance data on the PMV. The memo indicated that 
without such data no listing decision could be made. BLM never provided 
the information requested, primarily because no one had ever performed 
a plant census for the PMV or a seed bank study. Nevertheless, the 
plant was listed as ``threatened'' in October 1998, with off-highway 
vehicle (OHV) recreation identified as the biggest threat.
    Since that time, the need to ``protect'' the PMV has driven land 
management decisions in the Imperial Sand Dunes Recreation Area. In 
fact, approximately 50,000 acres of the ISDRA were recently closed to 
vehicle use for the express purpose of safeguarding the PMV.
    Ironically, however, BLM monitoring data from 1998, 1999, and 2000 
establish that PMV abundance in the open riding areas has ``increased 
substantially'' since 1977, when BLM commissioned the last programmatic 
survey of the plant. The monitoring reports also determined that OHVs 
rarely come in contact with PMV colonies, which largely explains why 
the plant continues to thrive in the open areas.
    The public access community looked upon these monitoring data with 
great hope. The numbers confirmed what dune riders and campers had 
suspected along--namely that the plant is abundant and not threatened 
by recreational activities, including OHV use. Still, BLM would not 
rescind the closures. Instead, BLM left them in place, claiming that a 
court order from the original CBD lawsuit prevented it from reopening 
these 50,000 acres to recreation.
    In response, the American Sand Association retained a highly 
qualified biologist, Arthur Phillips, III, Ph.D., to conduct a plant-
by-plant count of the PMV in the ISDRA. The purpose of this effort was 
to prove to BLM and USFWS that the PMV was abundant enough to be 
removed from the list of threatened species, thereby eliminating the 
need for the dune closures. Dr. Phillips performed his plant census in 
the Spring of 2001 and what he found was startling. In the ``open'' 
areas alone, he and his staff counted approximately 72,000 plants, most 
of which had already flowered and set seed. Helicopter overflights of 
the ``closed'' areas revealed PMV colonies of similar size and number. 
Dr. Phillips also determined that less than 1% of the PMV plants showed 
evidence of contact with vehicles, and most of these suffered only 
minor damage.
    In July 2001, Dr. Phillips presented his data to BLM in written 
form. These data, along with that developed by BLM during its 1998-2000 
monitoring surveys, provided the technical basis for the delisting 
petition ASA and others filed with the Department of Interior on 
October 24, 2001. Later, Dr. Phillips augmented his plant census 
information with a seed bank study for the PMV. Through this work, Dr. 
Phillips determined that the PMV seed bank contains between 3.5 million 
and 5.6 million seeds. These lie dormant just under the surface of the 
sand and will bloom when climate conditions (i.e., heavy rainfall) 
become ideal. According to Dr. Phillips, the size of the seed bank and 
the long-term resilience of the seeds themselves indicate that the PMV 
is well-poised for continued reproductive success. These data also have 
been presented to USFWS and BLM.
    In 2003, BLM issued a Recreation Area Management Plan (RAMP) for 
the ISDRA. Users of the dunes had hoped the RAMP would be built around 
the technical data that had been developed by, or presented to, BLM 
over the past four years. That is, they hoped the RAMP would recognize 
that OHV users and PMV plants peacefully coexist in the Imperial Sand 
Dunes, and that there is no reason for continued or expanded closures. 
Unfortunately, the RAMP was designed with different interests in mind. 
Instead of fully reopening the 50,000 acres that had been closed in the 
aftermath of the CBD lawsuit, the RAMP imposes a tight cap on the 
number of vehicles that may travel into these areas, which means that 
very few people will be permitted to enjoy this region of the dunes.
    One would think the anti-access groups would be content with this 
result; but they are not. They have already filed suit challenging the 
Biological Opinion (``BO'') on which the RAMP is based, claiming the BO 
wrongfully determined that the RAMP would not ``jeopardize'' the PMV. 
Of course, they have no data to support this assertion. The anti-access 
groups have also filed a 60-day Notice of Intent to Sue on the RAMP 
itself, positioning themselves to bring yet another lawsuit to keep 
those 50,000 acres completely free of campers and OHV riders.

C. The Andrews Dune Scarab Beetle
    Currently, the biggest threat to the anti-access agenda in the 
Imperial Sand Dunes is the petition to delist the PMV, which is still 
pending before USFWS. If USFWS finds that delisting is warranted, many 
of the most draconian restrictions on public access in the dunes will 
have no legal or biological justification. The closures, at least in 
part, will have to come down. To ward against this possibility, CBD has 
now filed with USFWS a petition to list the Andrews Dune Scarab Beetle 
as a threatened or endangered species. The beetle, if listed, would 
then function as a surrogate ``shield'' species in the ISDRA should the 
PMV be delisted.
    However, the Scarab Beetle listing petition is little more than a 
shrill attack on OHV users and has little to do with the actual 
population dynamics of the species in question. Not only does the 
petition fail to include basic information regarding the number of 
beetles residing in the dunes, it does not discuss population trends at 
all. In short, the petition does not indicate how many beetles exist or 
whether their numbers are growing or declining. Further, the petition 
provides no evidence that OHV's affect population trends one way or the 
other. Most of the technical evidence cited in the petition is old, 
much of it generated in the late 1970s by a biologist (Andrews) whose 
work has been sharply criticized by BLM and USFWS.
    The public access community has responded by issuing comments 
identifying defects in the Scarab Beetle listing petition; but there is 
great concern that the beetle will be listed even in the absence of 
credible data warranting such protection. One way or the other, it is 
clear that this controversy--as with all others involving the ISDRA--
will end up being litigated in federal court. And once again, the 
government and the public it is supposed to serve may find its hands 
tied by a judicial order that is inconsistent with the long-term 
planning needs of the ISDRA.

V. The Need for Legislative Reform: Protecting Public Access to Public 
        Lands
    Ultimately, the trend towards court-based land management in the 
CDCA will continue unless Congress changes the laws that judges are 
required to interpret and enforce. Public access to key recreational 
venues must become a legislative priority. Public access must be given 
protective status so that a proper balance is struck between resource 
conservation and public use. This likely will require amendments to the 
Endangered Species Act. But more important, it will require that 
Congress pass new legislation explicitly protecting public recreational 
access. Only in this way will the public's ability to access and enjoy 
the land be preserved. Put simply, it is time for Congress to take 
control of this situation and craft a better statutory scheme for land 
management in the California Desert.
    Thank you for allowing me to present my position on public access 
to public lands within the CDCA.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Hubbard, for your testimony, 
and we will be able to ask questions when you get done. The 
Committee is pleased to be joined by Congressman Bob Filner 
from this neck of the woods, and I am sure that part of his 
district is in this habitat area. Mr. Filner, welcome.
    And we will move on then to Mr. Ron Kemper, who is a 
Grazing Leaseholder in the California Desert Conservation Area 
from East Highlands, California. And I do ask for unanimous 
consent to allow Mr. Filner to sit on the panel. There being no 
objection, so ordered. Mr. Kemper, welcome to the Committee. 
Please begin your testimony.

STATEMENT OF RON KEMPER, GRAZING LEASEHOLDER IN THE CALIFORNIA 
      DESERT CONSERVATION AREA, EAST HIGHLANDS, CALIFORNIA

    Mr. Kemper. Thank you, and thank you for inviting me. As 
you mentioned, I am a rancher, and hold personal property, as 
well as a Federal grazing permit on Federal lands within the 
California Desert Conservation Area.
    I will be addressing my testimony to the subjects of access 
and grazing issues having to do with the 10 million acres 
managed by the Bureau of Land Management, as prescribed by the 
CDCA.
    For some time those of us in the grazing industry have been 
concerned by the revisions to the CDCA known as NEMO, NECO, and 
WEMO, because these revisions are based upon an outdated 
document known, a discretionary document, as the Mojave Desert 
Tortoise Recovery Plan.
    In addition to being a rancher, I also represent grazing 
interests and have been the Chair of the Desert Advisory 
Council for the last 2 years. All of us on the advisory council 
have known that the plan has been outdated for some time and 
have given strong recommendations to the BLM to not implement 
NEMO, NECO or WEMO until such time as the Desert Tortoise 
Recovery Plan can be updated as required by the plan itself.
    When we received copies of the draft documents of NEMO and 
NECO, we were extremely disappointed that the preferred 
alternative would make it very difficult for some of the 
ranchers to stay in business.
    We were further disappointed when we learned that the BLM 
had not relied upon the Five C's process required under the 
Taylor Grazing Act, whereby they must carefully consider, 
consult, coordinate, and cooperate with the holder of a Federal 
grazing permit on Federal lands.
    Their response was that they did not feel that they were 
required to do so and that they were otherwise complying with 
the Mojave Desert Tortoise Recovery Plan. Grazing interests 
informed the BLM's area managers and the district manager that 
they believed that they could come up with an alternative which 
would be based on good science to fully protect the Desert 
Tortoise, while assuring that the rancher would remain 
economically viable.
    The BLM indicated that they would allow the grazing 
interests to formulate this alternative, and that such 
alternative would be included in the plan. Moreover, the BLM 
agreed seriously to consider a grazing interests plan as a 
preferred alternative.
    The grazing interests retained nationally renowned range 
expert Professor Wayne Burkhart. In addition, grazing interests 
participated in the work of a technical review team that spent 
over 1,000 man-hours of study, which led it to formulate a set 
of recommendations.
    That technical review team included the following members 
of the Desert Advisory Council; myself, representing the 
Renewable Resources; Ilene Anderson, also representing 
Renewable Resources and a botanist with the Native Plant 
Society; Bill Bederly, representing the public at large; Bob 
Ellis, representing the Sierra Club and Desert Survivors; Paul 
Smith, representing business interests and tourism.
    The other members of the technical review team were Dr. 
Avery, known tortoise expert from Drexel University. Dr. Avery 
is the only tortoise expert who has ever done a study on the 
competition between cattle and tortoises.
    Ray Bransfield, a wildlife biologist with the U.S. Fish and 
Wildlife out of Ventura; Phil Metica, a wildlife biologist, 
U.S. Fish and Wildlife Service, Las Vegas; Bud Schaefer, the 
NEMO team leader for BLM; Ed LaRue, wildlife biologist and 
participant in the WEMO planning project.
    And Larry Foreman, head biologist for the California Desert 
District and the Bureau of Land Management; Dick Grow, also 
with the Bureau of Land Management and NEMO team leader; Molly 
Brady, Needles Field Officer Manager for the Bureau of Land 
Management; Larry Morgan, lead range land management specialist 
from the Bureau of Land Management.
    And Teresa McBride, BLM range land management specialist; 
Milton Blair, a holder of a Federal grazing permit known as 
Lazey Dazey Allotment; Richard Blancol, a holder of a Federal 
grazing permit for Valley Wells Allotment; Tim Overson, an 
operator for the Valley View Allotment; and John Stone, a 
holder of a forest grazing permit; and John T. Stone, a range 
specialist representing grazing interests. And Dave Thornton 
was also present, who is a current operator at Valley Wells.
    I see that I am about out of time and so I will come to a 
conclusion. Even though over a thousand man-hours were spent, 
and even though the TRT gave recommendations to the district 
manager of the BLM on the planning process, and even though 
there was a vote of 10-to-2 or 11-to-2 on a recommendation to 
move forward with the plan as presented by grazing interests, 
it was not accepted as a preferred alternative.
    What was horribly discouraging to grazing interests was it 
was not even included as an alternative in the document. It was 
as if the work that we had done did not exist. If you have any 
questions, I would be happy to answer them.
    [The prepared statement of Mr. Kemper follows:]

    Statement of Ron Kemper, Renewable Resources Representative and 
                  Chair of the Desert Advisory Council

    The Desert Advisory Council is mandated by Congress and 
representatives are appointed by the Secretary of the Interior for the 
purpose of giving the Bureau of Land Management direction and advice in 
their land use plans.
    I, Ron Kemper, am a rancher and hold personal property as well as a 
federal grazing permit on federal lands within the California Desert 
Conservation Area (CDCA).
    I will be addressing my testimony to the subjects of access and 
grazing issues having to do with the 10 million acres managed by the 
Bureau of Land Management, as prescribed by the CDCA.
    For sometime those of us in the grazing industry have been 
concerned by the revisions to the CDCA known as NEMO, NECO & WEMO, 
because these revisions are based upon an outdated document known as 
the Mojave Desert Tortoise Recovery Plan.
    All of us on the Advisory Council have known that the plan has been 
outdated for some time and have given strong recommendations to the BLM 
not to implement NEMO, NECO or WEMO until such time as the Desert 
Tortoise Recovery Plan can be updated as required by the plan itself.
    In receiving copies of the draft document, NEMO & NECO, we were 
extremely disappointed that the preferred alternative would make it 
very difficult for some of the ranchers to stay in business. We were 
further disappointed when we learned that the BLM had not relied upon 
the Five C's process required under the Taylor Grazing Act, whereby 
they must carefully consider, consult, coordinate and cooperate with 
the holder of a federal grazing permit on federal lands. Their response 
was that they did not feel that they were required to do so and that 
they were otherwise complying with the Mojave Desert Tortoise Recovery 
Plan.
    Grazing interests informed the BLM's Area Managers and the District 
Manager that they believed they could come up with an alternative which 
would be based on good science, would fully protect the desert tortoise 
while assuring that the rancher would remain economically viable. BLM 
indicated it would allow the grazing interests to formulate this 
alternative and that such alternative would be included in the plan. 
Moreover, the BLM agreed seriously to consider our plan as the 
preferred alternative.
    The grazing interests retained nationally renowned range expert 
Professor Wayne Burkhart. In addition, grazing interests participated 
in the work of a technical review team that spent over one thousand 
man-hours of study which led it to formulate a set of recommendations. 
That technical review team included the following members of the Desert 
Advisory Council: myself, representing Renewable Resources; Ilene 
Anderson, also representing Renewable Resources and a Botanist with the 
Native Plant Society; Bill Bedderly, representing the public at large; 
Bob Ellis, representing the Sierra Club and Desert Survivors; and Paul 
Smith, representing business interests and tourism. The other members 
of the Technical Review team were: Dr. Avery, known tortoise expert 
from Drexel University.--Dr. Avery is the only tortoise expert who has 
ever done a study on the competition between cattle and tortoises; Ray 
Bransfield, a Wildlife Biologist with U.S. Fish & Wildlife out of 
Ventura; Phil Metica, Wildlife Biologist, U.S. Fish & Wildlife 
Services, Las Vegas; Bud Seehafer, the NEMO team leader for BLM; Ed 
LaRue, Wildlife Biologist and participant in the WEMO Planning Project; 
Larry Foreman, head Biologist BLM; Dick Crow with BLM and NEMO team 
leader; Molly Brady, Needles Field Office Manager BLM; Larry Morgan, 
lead Range Land Management Specialist BLM; Teresa McBride, BLM Range 
Land Management Specialist; Milton Blair, holder of a Federal Grazing 
Permit known as Lazey Dazey Allotment; Richard Blanco, holder of a 
Federal Grazing Permit for Valley Wells Allotment; Tim Overson, 
operator for the Valley View Allotment; John Stone, the holder of a 
Forest Grazing Permit; John T. Stone, a range specialist representing 
grazing interests; and Dave Thornton, current operator at Valley Wells.
    This diverse technical review team, as noted, spent over one 
thousand man-hours of investigation before coming up with their 
recommendations designed to achieve: (1) desert tortoise recovery; (2) 
public land health; and (3) survival of economically viable ranching. 
(A copy of the TRT minutes and recommendations are attached as Exhibit 
A.) 1 - 8
    On or about December 8, 2001, as Chair of the Technical Review 
Team, I made a report to the Desert Advisory Council as a whole. 
Several of the TRT participants, including Dr. Avery, were present and 
provided clarifying testimony to the DAC. After the assurances by TRT 
participant and Needles Area Manager Molly Brady, that monies would be 
available for funding study projects, DAC's recommendation was for 
remaining allotments to be kept active in their present form and that a 
study be initiated to quantify their relationship between grazing and 
desert tortoise survival for which the BLM would arrange funding. As of 
that time, within DWIMA boundaries it would be required to remove 
cattle when the monitor concluded there was competition between 
tortoises and cattle for feed. This was done in the form of a motion 
and 2nd and was passed by an 11 to 2 vote. (Copy of vote is attached as 
Exhibit B.) 1
    It is disappointing to report, even though in excess of a thousand 
man-hours had been spent and wildlife biologists from BLM, Fish & 
Wildlife and the private sector had agreed that this plan could work, 
the DAC recommendations were not supported as the preferred 
alternative. In fact, in a show of total disrespect and bad faith, 
those recommendations were not even included as an alternative in the 
finished document.
    BLM managers will tell you that they support experimental 
management plans and adaptive management. However, I am not aware of a 
single case in which this has proved to be true. However, I can cite 
many cases in which, in fact, just the opposite was true. The ones, of 
course, with which I am most familiar involve opportunities missed on 
my own allotment.
    First of all, allow me to state that the most recent attempt at 
adaptive management was the result of a negotiated settlement between 
the BLM and the Center for Biodiversity. With all their presumed 
wisdom, these two parties believed that it was more important for all 
the ranchers to share the pain and economic hardship than it was to 
protect the tortoise. My allotment does not have even a single acre of 
desert tortoise critical habitat; however, I was required to exclude 
cattle from approximately 1/3 of my allotment, two times a year, at the 
only time I had trapped waters and the cattle could benefit from those 
waters and the forage created near them.
    In order to mitigate the exclosures noted, the bureau agreed to 
conduct an environmental review and issue a decision for a new pipeline 
in California Valley and to do so in enough time to enable its 
installation prior to November 2002. This would allow use of this 
portion of the ranch at a time when water was not seasonally trapped in 
cofferdams. To date, the BLM still has not completed the environmental 
review. (See attached Exhibit C.)
    I wish to place it on the record that at all times we have complied 
with the decisions and never trespassed cattle. We upheld our end of 
the bargain, costing our family in excess of $35,000 in additional hay. 
Undue delays have caused us to sell almost half of the native cattle. 
We were not allowed to use our forage or water in the excluded areas; 
we voluntarily reduced the number of cattle to preserve range health on 
the balance of the ranch. I have enclosed copies of the written 
communications regarding this project. (See attached Exhibit C.)
    In order to keep from having to sell cattle, I also applied for 
several vacant allotments. To date none of these allotments have been 
given to applicants and I now understand they are being considered for 
retirement from availability for application.
    With regard to access and wilderness please allow me to say that we 
have many miles of fence line, roads, cofferdams, pipelines and water 
tanks within supposed wilderness, wilderness that is supposedly a road 
free area untrammeled by man. This is absolutely ludicrous. This has 
been a cattle ranch for over one hundred years; it is not a wilderness.
    May I answer any questions for the Congressmen?
    NOTE: Attachments to Mr. Kemper's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Kemper. We are now 
joined by Mr. Howard Brown, who is a mining geologist from the 
OMYA California, Incorporated, Lucerne Valley. Mr. Brown, 
welcome to the Subcommittee, and you may begin your testimony.

 STATEMENT OF HOWARD BROWN, MINING GEOLOGIST, OMYA CALIFORNIA, 
                INC., LUCERNE VALLEY, CALIFORNIA

    Mr. Brown. OK. Thank you for the opportunity to speak here. 
I am Howard Brown, a geologist, and I have been working the 
Mojave since the 1970's, and I am also on the Desert Advisory 
Council representing non-renewable resources.
    Mining dates back to the dawn of civilization, and 
civilization cannot exist without the consumer products made 
from minerals, and as has been pointed out by other speakers, 
mining in the California desert is a major industry, which 
produces over $2 billion worth of minerals per year.
    The mining industry in Southern California directly employs 
about 20,000 people and accounts for $35 million in local 
taxes, and $60 million in State taxes per year. Mining is a 
non-renewable resource, and as mineral deposits are depleted, 
new mineral deposits must be found, permitted, and mined, to 
provide raw materials our society demand.
    If you can't grow it, you have to mine it. Mining is more 
than trucks and motors. It is about thousands of consumer 
products made from mined materials. Issues facing industry 
include a regulatory environment which is progressively 
excluding access to public lands to search for new mineral 
deposits in a regulatory environment which makes permitting a 
mine needlessly time consuming, excessively expensive, and at 
best very difficult.
    This is largely due to the Endangered Species Act, which 
has been misused without adequate science in litigation to 
force the creation of inadequate land use plans, land closures, 
mineral withdrawals, and regulatory designations which 
eliminate access to public lands to search for minerals, or 
make permitting a new mine very difficult.
    As an example, the BLM Northeast Colorado River desert 
area, or NECO, contains many areas of known mineral potential. 
However, the Endangered Species Act and the regulatory 
environment will make access for mineral exploration or 
permitting a new mine very difficult.
    Every inch of land in the 5.5 million acre planning area is 
habitat for the endangered tortoise, or an obscure species of 
rats and bats, or lizards, which are managed as endangered or 
de facto endangered even though they are not.
    And I would refer to a series of overlay maps in my written 
testimony which showed a progressive elimination of areas of 
mineral potential as all these different species' habitat is 
overlaid.
    Recent mining industry surveys, which compare California 
and other western States to Canada and the rest of the world, 
demonstrate that although California has good infrastructure 
and is well-endowed with minerals, the existing regulatory 
environment discourages mineral investment.
    Many exploration companies have left the desert for other 
places in which mineral exploration and mining investment are 
more welcomed. And again I would refer in the written testimony 
to figures 6, 14, and 15.
    A resolution of the issues include revisions to the 
Endangered Species Act, a more permissive and streamline 
regulatory permitting environment, and access to public lands 
for mineral exploration. Thanks for the opportunity to state my 
views.
     [The prepared statement of Mr. Brown follows:]

 Statement of Howard Brown, Geologist, OMYA (California) Inc., Lucerne 
Valley, California, Representing the Mining Industry in the California 
                                 Desert

                    MINING IN THE CALIFORNIA DESERT
          economic importance, the regulatory environment and
                       issues facing the industry

           Howard Brown, OMYA California Inc., P.O. Box 825, 
                        Lucerne Valley, CA 92356

SUMMARY
    Mining dates back to the dawn of civilization. Civilization could 
not exist without the thousands of consumer products made from 
minerals. Mining in the California desert is a major industry, and 
produces over $2 billion worth of minerals per year. The mining 
industry in southern California directly employs about 20,000, and 
accounts for $35 million in local taxes and $60 million in state taxes 
per year. Mining is a non renewable resource, and as mineral deposits 
are depleted, new mineral deposits must be found, permitted and mined, 
to provide raw materials our society demands.
    Issues facing the mining industry include a regulatory environment 
which is progressively excluding access to public lands to search for 
new mineral deposits, and a regulatory environment which makes 
permitting a mine needlessly time consuming, excessively expensive, and 
at best very difficult. This is largely due to abuse of the Endangered 
Species Act, which has been misused without adequate science, and 
litigation, to force the creation of inadequate land use plans, land 
closures, mineral withdrawals, and regulatory designations which 
eliminate access to public lands to search for minerals, or make 
permitting a new mine very difficult.
    The BLM Northeast Colorado River Desert Area (NECO), contains many 
areas of known mineral potential, however abuse of the Endangered 
Species Act and the regulatory environment will make access for mineral 
exploration, or permitting a new mine very difficult. Every inch of 
land in the 5.5 million acre planning area is habitat for endangered 
tortoise or obscure species of rats bats or lizards which are managed 
as endangered (de-facto endangered) even though they are not.
    An example from the west Mojave is the Elementis Inc. Hectorite 
Mine near Newberry Springs. Continuously mined for 75 years, the BLM 
has proposed an ACEC (Area of Critical Environmental Concern) over 
active private mining land and mining claims, to protect tortoise and 
lizard habitat. The poorly planned Pisgah Crater ACEC lacks adequate 
scientific data, and will dramatically limit future expansion of the 
mine, despite the fact that other ACEC alternatives are available.
    Recent mining industry surveys which compare California and other 
western states, Canada, and the rest of the world, demonstrate that, 
although California is politically stable, has good infrastructure, and 
is well-endowed with minerals, the existing regulatory environment 
discourages mineral investment. Many exploration companies have left 
the desert area for other places in which mineral exploration and 
mining investment are more welcomed.
    Resolution of the issues include needed revisions to the Endangered 
Species Act, a more permissive and streamlined regulatory environment, 
and access to public lands for mineral exploration.
RESOLUTION OF THE ISSUES WILL INCLUDE:
    1) ACCESS TO PUBLIC LANDS FOR MINERAL EXPLORATION,
    2) STREAMLINED REGULATORY ENVIRONMENT,
    3) PROACTIVE COLLABORATIVE NEGOTIATED DESIGNATION OF CONSERVATION 
AREAS
    4) REVISIONS TO THE ENDANGERED SPECIES ACT,
1) ACCESS TO PUBLIC LANDS FOR MINERAL EXPLORATION
    During the last decade we have seen increased systematic and 
progressive closures of vehicular access to public lands. Since the 
land in the desert area is often remote, and desolate, vehicular access 
may be the only realistic access to areas for mineral exploration. 
Roads which have been in existence for decades have been closed to 
protect species habitat. In some cases roads have been closed that 
provide access to prospects and mining claims, which are known to 
contain valuable mineral deposits, and other areas which are thought to 
have high potential for mineral discoveries.
    The rationale for closing existing roads is that the habitat value 
of endangered and sensitive species is greater than all past, existing, 
and future human needs and values combined. The process of road closure 
is sometimes arbitrary, may be based on lack of user group input, poor 
maps, little ground based surveys, and does not always result in a 
resolution which is beneficial to the species or public lands users.
    We believe the proposed vehicle network plans must be modified, so 
that existing vehicle access to known mineral deposits, occurrences, 
mines and prospects, and areas of significant mineral potential be left 
open, until those mineral deposits can be evaluated, and found to be 
either of present or future economic interest, or determined to be of 
no present or future value, at which time those individual roads may be 
closed. But in no case should existing roads to known mineral deposits 
or areas of potential mineral deposits be closed.
    We are strongly opposed to the proposed road closures within the 
OHV road network plan until known and potential mineral resources can 
be fully and confidently evaluated within the framework of long term 
societal needs for mineral resources. The short sighted approach to 
eliminate access to known and yet to be discovered mineral resources to 
protect obscure biotic species, will ultimately have long-term negative 
impacts to the availability of consumer products upon which we all 
depend.
    We suggest a more proactive collaborative approach in which 
regulatory agencies consult more with user groups to work out 
acceptable resolutions which recognize long-term future growth and 
multiple use human societal needs BEFORE designating road closures.

2) STREAMLINED PERMITTING PROCESS
    In 1999 Congress requested a study by the National Research Council 
(NRC) to assess the regulatory framework for hardrock mining on federal 
lands. Among the NRC report conclusions were that permitting procedures 
for mineral exploration and mining projects commonly take significantly 
longer than is necessary. They commented that the NEPA process should 
not be viewed as an opportunity to slow the process. The NRC report 
recommended that the BLM and the Forest Service should implement a more 
timely permitting process.
    We commend the BLM for its efforts to streamline the process in the 
most recent land use plans such as WEMO, NECO and NEMO, and adoption of 
the proposed ``Las Vegas'' model for dealing with endangered species. 
Basically, a mitigation ratio of acres or $ cost per acre is 
established. The proponent provides the mitigation land in the 
designated ratio, and or pays the established mitigation fee and moves 
thru the process, rather than more and more studies, or endless 
litigation. This pragmatic and practical procedure although not without 
flaws, such as significantly increased mitigation ratios and fees, will 
hopefully streamline the process of dealing with endangered species 
relative to mine permitting.

3) PROACTIVE COLLABORATIVE NEGOTIATED DESIGNATION OF CONSERVATION AREAS
    Various land use categories such as ACEC, Research Natural Areas 
(RNA), habitat connectivity corridors (HCC), biological transition 
areas (BTA), special review areas (SRA) and other such designations are 
created for research and education, to protect endangered, sensitive 
and other non-listed species, but also typical representation of common 
plants, and typical representation of common geologic, soil or water 
features.
    Management policy for many of the ACEC, RNA and other conservation 
designations include exclusion or severe limitations on vehicular 
access, or other disturbances of habitat for non-listed species.
    An example from the west Mojave is the Elementis Inc. Hectorite 
Mine near Newberry Springs. Continuously mined for 75 years, the BLM 
has proposed an ACEC (Area of Critical Environmental Concern) over 
active private mining land and mining claims, to protect low density 
tortoise habitat, non-listed species habitat, and typical 
representation of common geologic features.
    Management measures within the ACEC include prohibition of vehicle 
traffic, and protection of habitat for non-listed species. The poorly 
planned Pisgah Crater ACEC will dramatically limit future expansion of 
the mine, and close existing mine related roads despite the fact that 
other ACEC alternatives are available.
    Greater communication with the mining company before the plan was 
distributed to the public would have allowed a mutually acceptable 
boundary to be drawn which is beneficial to the mining company as well 
as the species.

4) REVISIONS TO THE ENDANGERED SPECIES ACT
    It is commonly believed that the Endangered Species Act needs 
revisions. Several proposed revisions follow:
A) Require peer reviewed science before listing is proposed.
    So many cases of listing packages based on incomplete and or non 
peer reviewed ``science,'' which have later been shown to be inadequate 
or simply incorrect. Example: The carbonate endangered plant species in 
the San Bernardino Mountains, became listed, and only in the 6 years 
after listing was adequate legitimate field work done, and which now 
shows only 5% of the habitat was ever threatened.

B) Unbiased economic analysis to be required as part of the listing 
        package.
    Numerous cases of economic analysis being initiated long after 
listing completed and only when critical habitat is proposed. Example: 
San Bernardino Mountains endangered carbonate endemic plants critical 
habitat economic analysis was only done 6 years after the listing was 
completed, and after critical habitat was formally proposed. Analysis 
presented by mining companies indicated an impact in excess of $10 
billion, whereas the FWS analysis indicated an impact of less than $200 
million. The huge discrepancy alone would suggest additional work is 
necessary, but the mining company analysis was completely dismissed.

C) Distinct populations and subspecies which are not genetically 
        different should not get special protection.
    Example: Several of the ``endemic'' Carbonate species in the San 
Bernardino Mountains, are known to be subspecies of a much wider 
ranging species which extend from Canada to Mexico.

D) Delisting of a species when adequate science shows there is no 
        threat to the survival.
    Some species have been listed based on perceived threats. After 
listing adequate scientific data was established to demonstrate the 
perceived threats were not real or were much less significant than 
originally perceived, and did not threaten the survival of the species.

E) Removal of disincentives to reintroduce endangered species.
    Example: The carbonate endemic subspecies in the San Bernardino 
Mountains. Planting and nursery studies have shown that the plants can 
be successfully reintroduced during reclamation, however, agencies 
refuse to allow credit for their reintroduction in reclamation. However 
the reintroduced plants are given full protection under ESA. Full 
credit must be given for successfully reintroduced plants, and 
disincentives removed.

F) Provisions for non permanent disturbances and benefits to habitat 
        must be allowed.
    Mines are non-permanent disturbances, and reclamation is required. 
Reclamation may result in the creation of new habitat, which will 
benefit or promote reintroduction of the species.
    Example: The San Bernardino Mountains Carbonate endemic plant 
species. Most of the overburden from the carbonate mines is subeconomic 
carbonate rock, which is placed in overburden sites. These overburden 
sites create new habitat for the plant species, where it did not 
previously exist, and thus, create habitat connectivity and promote 
reintroduction of the plants, yet no credit is given for this activity, 
rather it is viewed as a threat to the species. This needs to change 
and beneficial aspects must be recognized.
                                 ______
                                 
             MINING DATES BACK TO THE DAWN OF CIVILIZATION
    <bullet> THE FIRST PEOPLE IN AMERICA WERE AWARE OF MINED MATERIALS 
IN THE FORM OF TOOLS OR MINERALS WHICH PRESERVED OR IMPROVED THE FLAVOR 
OF FOOD
    <bullet> MINING AND UTILIZATION OF RAW MATERIALS IS THE ROOT OF 
CIVILIZATION
    <bullet> CIVILIZATION AS WE KNOW IT COULD NOT EXIST WITHOUT MINING
                               EMPLOYMENT
    <bullet> Desert mining industry directly employs 16,640 in 
Imperial, Inyo, Kern, Riverside, and San Bernardino Counties
    <bullet> Mining employs 19,630 In Southern California
    <bullet> Each $1 million in mineral production directly accounts 
for12.8 jobs in the 5-county desert area, and 15.1 jobs in Southern 
California
                                 TAXES
    <bullet> Within the 5 county desert area, mineral production 
accounts for: $34.3 million in local taxes and $54.4 million in state 
taxes
    <bullet> Southern California mineral production accounts for: 
$37.5 million in local taxes and $61.3 Million in state taxes
                IF YOU CANT GROW IT, YOU HAVE TO MINE IT
    <bullet> MOST PEOPLE DO NOT RECOGNIZE THE IMPORTANCE OF MINING IN 
THEIR LIVES
    <bullet> CIVILIZATION COULD NOT EXIST WITHOUT MINING AND CONSUMER 
PRODUCTS MADE FROM MINERALS
    <bullet> MINING IS NOT JUST TRUCKS AND LOADERS
    <bullet> MINING IS THOUSANDS OF CONSUMER PRODUCTS MADE FROM 
MINERALS

                   THE MINING REGULATORY ENVIRONMENT
    <bullet> SURVEY RANKING FACTORS WHICH INFLUENCE MINERAL INVESTMENT 
ATTRACTIVENESS
    <bullet> COMPARES AREAS IN USA, CANADA, AND THE WORLD
    <bullet> TOP OF CHART IS ATTRACTIVE FOR INVESTMENT BOTTOM OF CHART 
IS DETERRENT
    <bullet> CALIFORNIA RANKS NEAR THE BOTTOM FOR MANY FACTORS
    <bullet> DUE TO ABUSE OF THE ENDANGERED SPECIES ACT AND EXCESSIVE 
ENVIRONMENTAL REGULATIONS

                  NORTHEAST COLORADO RIVER DESERT AREA

                               NECO AREA
    <bullet> MANY AREAS WITH MINERAL POTENTIAL
    <bullet> HOWEVER, ABUSE OF THE ENDANGERED SPECIES ACT AND THE 
REGULATORY ENVIRONMENT WILL MAKE PERMITTING A NEW MINE VERY DIFFICULT
    <bullet> EVERY INCH OF LAND IN THE 5.5 MILLION ACRE NECO AREA IS 
HABITAT FOR ENDANGERED TORTOISE OR OBSCURE SPECIES OF RATS, BATS, OR 
LIZARDS
    <bullet> UNTIL REGULATORY CHANGES OCCUR AND THE ENDANGERED SPECIES 
ACT IS MODIFIED, OTHER PLACES ARE MORE ATTRACTIVE FOR MINERAL 
INVESTMENT
                 RESOLUTION OF THE ISSUES WILL INCLUDE:
    1) LACCESS TO PUBLIC LANDS FOR MINERAL EXPLORATION,
    2) LSTREAMLINED REGULATORY ENVIRONMENT,
    3) LPROACTIVE COLLABORATIVE NEGOTIATED DESIGNATION OF CONSERVATION 
AREAS
    4) LREVISIONS TO THE ENDANGERED SPECIES ACT,
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T8929.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T8929.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T8929.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T8929.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T8929.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T8929.006
                                 

    Mr. Radanovich. Thank you very much, Mr. Brown. I 
appreciate your testimony. We are now joined by Ms. Sheri 
Davis, who is the Director of the Inland Empire Film 
Commission. Ms. Davis, welcome to the Subcommittee, and you may 
begin.

    STATEMENT OF SHERI DAVIS, DIRECTOR, INLAND EMPIRE FILM 
               COMMISSION, RIVERSIDE, CALIFORNIA

    Ms. Davis. Thank you very much for the opportunity to 
present our concerns and perhaps suggestions on commercial uses 
within the California Desert Conservation Area. As you 
mentioned, my name is Sheri Davis, and I am the director of a 
regional film office, the Inland Empire Film Commission, and my 
area covers a large portion of the CDCA.
    Even though the Imperial Sand Dunes are not within my 
region, all issues regarding filming in the desert have a 
common thread. To explain a little bit about what a film 
commission does, our job is location scouting, problem solving, 
the liaison in between agencies and the industry; permitting, 
protection of crew and services development, specifically 
designed to keep production in our jurisdictions.
    To give you an idea of the typical project recently, Disney 
came to me looking for a location to simulate the deserts in 
Morocco. They had just recently returned from Morocco, and were 
about to give up filming in California because they were told 
by other location professionals that it was too difficult to 
accomplish this in the California desert.
    However, working with the regional film offices and the BLM 
film offices, Disney was able to utilize both cut back in the 
Dumont Dunes, and therefore have successful shootings in San 
Bernardino County.
    It is also a pleasure when you work with an industry that 
practices good stewardship of the public land, as well as to be 
monitoring, and voluntarily self-regulated. The film industry 
is one of the 10 top economic industries in California and 
generates almost $30 billion in economic activity Statewide.
    However, according to the U.S. Department of Commerce the 
runaway production is currently costing the American economy 
over $10 billion in economic loss in the year 2001 alone. 
Ironically, the locations most often sought in these countries 
can be found right here in California, and quite often within 
the CDCA area.
    In the CDCA area, a major cause of runaway production is 
due to the limited amount of pre-approved filming locations, 
overly burdensome processes, and time consuming and restricted 
conditions.
    The mission of the BLM that requires compatible, multiple, 
and sustainable use of public land now appears to only allow 
specific management for specific uses without regard to the 
potential compatibility of a mandate for multiple use.
    It is particularly distressing to my industry, as we appear 
to be excluded as one of the specific users. The film industry 
does not need a large tract of land permanently set aside for 
our use. We just need joint compatible use with other public 
land users on an intermittent basis.
    An interesting fact is that even if the land is available 
to public and other commercial use, it is not necessarily open 
for filming. In the County of San Bernardino alone, the Barstow 
field office manages 30 million acres.
    One example that I can give you is the El Mirage OHV area, 
which encompasses 25,858 acres, open to the public, but only 
3,000 of those acres has a problematic environmental assessment 
done to ensure that filming will not have a negative impact in 
this OHV recreation area.
    An example recently occurred in a area designated as a long 
term visitor area, LTVs, and in this area anyone can pay $100 
for a permit to camp for a 6 month period and not be restricted 
to the use of roads or camping areas.
    Unfortunately, when a film crew wanted to use exactly the 
same LTVA for a few days of filming, the story was very 
different. Recently, a Warner Brothers' production was required 
to contract for writing an environmental assessment, a 
biological evaluation, and paid for conducting a Section 7 
consultation, and required to hire a certified desert tortoise 
monitors, with a total permitting cost to the film production 
in the same LTV area of $170,000.
    With these types of restrictions, and seemingly unequal 
treatment of desert users, it is not surprising to find that 
filming of several major features and television have moved to 
Australia and dressed their deserts as our deserts in 
California.
    A major challenge that faces the industry when trying to 
film on public lands is the long processing process. And I 
believe the general consensus of the industry is that the 
Federal agencies are unresponsive.
     However, filming by its very nature is a temporary land 
use, and is generally fully compatible with the mandate of the 
Federal Land Management Policy Act to manage land for multiple 
use and sustained yield.
    Given the concern that the implementation of a new desert 
management plan will have an adverse economic impact on the 
desert communities and user groups, the issues of the film 
industry should certainly receive attention. We can have a 
dramatic impact on communities adjacent and near the Federal 
lands open for filming.
    And just to give you an example. A feature film will spend 
between the $70,000 and $100,000 a day when coming to your 
district to film, and commercials can average $30,000 to 
$50,000 a day; with still photographs coming to about $10,000 a 
day or more.
    With the magnitude of the economic impact in the desert 
areas from filming is considered, it is more than a little 
startling to see either zero socio-economic analysis to no more 
than a few lines dedicated to filming restrictions in each of 
the desert plans.
    A potential solution currently to the issues of filming in 
the CDCA under consideration for proposal to the BLM and other 
DOI agencies by the film industry is the formation of a large-
scale programmatic environmental assessment or EIS for filming 
in various regions.
    A proposal is currently in development will be presented to 
the BLM desert district office and State office within the next 
few months.
    In summation, I would like to say that the film industry is 
committed to good stewardship of the land, conservation, and 
the environment, and will remain dedicated to the protection of 
the endangered species.
    We are not looking for preferred treatment, but just to be 
considered equal as one of the mandated multiple uses of the 
Federal lands. The public lands must remain open for multiple 
use for all land users, and such multiple use should be 
encouraged and supported by the Department of the Interior.
     Thank you for your time in listening to the concerns of 
this film industry, and I will be happy to answer any 
questions. And, Mr. Chairman, I would just say that a wise 
person surrounds themselves with wiser counsel, and so I would 
like to ask that Marshall Wittenberger and Ray Arthur join me 
during the questioning period, as they have been instrumental 
in helping me to develop my testimony and can add significantly 
to responding to your questions. Thank you.
    [The prepared statement of Ms. Davis follows:]

  Statement of Sheri Davis, Director, Inland Empire Film Commission, 
                         Riverside, California

    Thank you Chairman Pombo and Committee members for the opportunity 
to present concerns and suggestions on behalf of numerous movie, 
television, media and film industry professionals regarding commercial 
and non-commercial uses of the 10 million acre California Desert 
Conservation Area (CDCA). As with the panel members who have already 
presented or spoken prior to me regarding issues related to access and 
restrictions in the CDCA in relation to their particular interests, the 
film industry also has certain issues that must be addressed in order 
to ensure access to public lands for filming.
    First, by way of introduction, my name is Sheri Davis and I am the 
Director of the Inland Empire Film Commission. The role of the Inland 
Empire Film Commission and the role of all regional or state film 
commissions are to serve as an ombudsman between the film industry and 
our local, regional or state jurisdictions. The region my office 
represents covers the vast majority of the area covered by the CDCA. 
The Imperial Sand Dunes is not within my region but all issues 
regarding filming in the desert have a common thread. Our services to 
the film and media industry include but are not limited to providing 
location scouting, information gathering, processing and suggestions on 
permitting issues, handling local concerns and citizen and governmental 
groups. To give you an idea of a project I might typically work on, my 
most recent assignment was helping Walt Disney Productions find a 
location to simulate the country of Morocco for a film called 
``Hidalgo.'' Disney was about to give up given the constraints they 
were faced with and after being told it would be too difficult to 
accomplish this in the California desert. I am pleased to report though 
that through hard work and cooperation from the BLM, Disney was able to 
utilize the Dumont Dunes in San Bernardino County as the location. 
Everyone worked together to serve the industry well and kept the 
filming and money generated by the production within the United States 
and in particular within San Bernardino County.
    Other responsibilities of the film commissions include maintaining 
databases of professional crew and services, which is specifically 
designed to keep jobs in our jurisdictions. Marketing includes trade 
shows, industry calls, trouble shooting and becoming the problem solver 
for both the industry and the jurisdiction is just all part of a day's 
work in the life of a film commission. The Inland Empire Film 
Commission interacts daily with the Barstow Field Office of the Bureau 
of Land Management. As a regional film office, we have found them to be 
exemplary with their approach to filming on the public lands that they 
manage. We daily discuss filming permits, which includes discussing the 
necessity of bonds depending on the type of filming activity, special 
effects and any other possible impact to the land. But it is extremely 
helpful to be part of an industry that is concerned about the 
environment and health of the public lands, willing to be monitored, 
and to be voluntarily self-regulated.
    The film industry is certainly one of the most important industries 
in California as well as in the United States It is estimated by 
industry analysts that:
    <bullet> The film industry is within the top 20 economic 
industries in California and generates almost $30 billion a year in 
economic activity statewide;
    <bullet> The Film industry is among top 20 California industries 
as ranked by output (Gross State Product);
    <bullet> The Film Industry is Ranked 5th in employment among 
California export industries, providing more than 270,000 jobs;
    <bullet> With the largest concentration of motion picture 
activity, California accounts for 70% of total revenues and 60% of the 
total employment in the industry nationwide; and
    <bullet> Filming is a Driver industry with linkages to tourism, 
apparel design and manufacturing, furniture and cosmetics generating 
hundreds of millions of dollars in economic activity and keeping 
thousands of workers employed each year. It is a multi-billion dollar 
industry nationwide.
    Even though there have been some marvelous successes, 
unfortunately, due to several of the concerns being expressed here 
today regarding the limitations of access to public lands, the film 
industry, particularly in California, has been experiencing what is 
termed as ``domestic runaways'' or ``runaway productions''. This occurs 
when a film or production company determines that the costs or 
constraints of filming in a United States location are too restrictive 
and seek an alternate location, usually Canada, Australia or Great 
Britain in order to allow filming to occur in an expedient and 
economical manner. Domestic runaways are a very serious problem. The 
United States Department of Commerce estimated that ``domestic 
runaways'' cost the American economy over $10 billion in economic loss 
to foreign countries in the year 2001 alone. Ironically, the locations 
that are most often sought in other countries are usually sought to 
simulate the Mojave or Colorado deserts, the American Southwest, 
Midwest, forest lands, rivers and open ranges--all of which could have 
been provided right here in the United States of America and many 
within the CDCA area.
    In the CDCA, a major cause of domestic runaways is due to the 
limited amount of pre-approved filming locations, overly burdensome 
processes and time consuming and restrictive conditions imposed upon 
the film industry due to public land use plans and policies, perceived 
conflicting uses, endangered or sensitive species concerns and cultural 
resources issues. While the film industry is keenly aware that all of 
these matters are of the utmost importance to preserving the California 
desert for now and for generations to come, we believe that the 
restrictions caused by the multitude of management plans and endangered 
species concerns have caused the mission of the BLM to be altered from 
the Congressionally mandated requirement under the Federal Land 
Management Policy Act (FLPMA) that requires compatible multiple and 
sustainable use of public lands to be a mutated phenomena that allows 
only specific management for specific uses without regard to potential 
compatibility or the mandate for multiple use. This is particularly 
distressing for the film industry as they appear to be summarily 
excluded as one of the specific users, being limited on a regular basis 
to filming on a few thousand acres of land within the millions 
available within the CDCA. The best part though of this situation is 
that the film industry does not need large tracts of land permanently 
set aside for exclusive use, we need only joint compatible use with 
other public land users and uses on an intermittent basis.
    This ``specific use'' phenomenon is apparent in the amount of land 
available on a regular basis for filming activities as compared to the 
quantity available exclusively for grazing activities, recreation and 
mining. A common misunderstanding is the fact that even though land is 
available to the public for use as well as land available for mining, 
grazing and other uses, it is not necessarily open for filming. As an 
example, in the County of San Bernardino, the Barstow Field Office 
manages 3 million acres. This acreage is open to recreation and mining 
unless prohibited. However, most of the land is not currently open for 
filming and special permission including environmental assessments, 
environmental impacts reports and Section 7 consultations often have to 
be performed in order to film in locations that are used on a daily 
basis by the public for everything from casual mining to OHV open-use 
areas.
    As a specific example, the El Mirage OHV area has 25,850 acres open 
to the public but only 3,000 acres have a programmatic Environmental 
Assessment done to ensure that filming will not have a negative impact 
in this OHV recreation area. It is my experience that not only is 
filming a welcome and exciting sight for the public using these areas, 
the public are thrilled to have been there and seen it happen--
conflicts rarely, if ever, occur.
    There have been several instances where film companies and other 
user groups have been required to perform desert tortoise surveys or 
other sensitive species surveys, cultural resources surveys and write 
environmental assessments in areas that the BLM has designated as Long 
Term Visitor Areas (LTV areas) or other like unrestricted public use 
areas as a restriction of filming. In the LTV areas, anyone who pays a 
$100 permit can camp out for a six-month period; they are not 
restricted to roads or camping areas. The LTVAs are basically giant 
(some 10,000+ acres) free-for all public access and camping zones. When 
a film crew comes in though and wants to use exactly the same LTVA for 
a few days of filming the story is very different. In a recently filmed 
Warner Brothers production soon to be released called ``Torque,'' the 
film company was required to contract for writing an environmental 
assessment, a biological evaluation and paid for conducting a Section 7 
consultation and required to hire certified desert tortoise monitors. 
Most of this location was located within a BLM LTVA and other areas 
that had already undergone environmental review for prior projects. The 
total cost to the film production was in excess of $170,000. Had 
exiting NEPA environmental documentation been utilized by way of 
tiering, the cost to the production company and time in processing 
could have been significantly reduced.
    While the need to protect special status species is a given, and 
desert tortoise monitors are required to protect the animals, the 
excessive documentation and permitting requirements imposed upon a 
highly regulated, self-policing and low impact compatible user appears 
to be incredibly burdensome. With these types of restrictions and 
seemingly unequal treatment of desert users, it is not surprising that 
filming for several major features and television productions has moved 
to Australia and dressed the sets to appear to be the California 
desert.
    A major challenge that faces the industry when trying to film on 
Public Lands is the long permit processing time. It is the role of the 
regional and state film offices to educate the BLM Field Offices with 
regard to the exigencies of the production schedule from the original 
contact, to scouting to shooting. Often a commercial production may 
only have a couple of weeks or even days from being selected by an ad 
agency to the last day of filming. To give you an example, Plum 
Productions, a local Los Angeles-based production company was recently 
awarded a contract for filming a commercial for Ford Motor Company. The 
commercial had to be completed in 15 days from the agency awarding the 
contract. There were hundreds of locations to be scouted with 23 
locations being selected, and multiple agencies from which to gain 
permission and permits including the BLM, the U.S. Forest Service, and 
the Los Angeles Department of Water and Power. Then the company had to 
put 2 production crews shooting simultaneously, daily having to move 50 
vintage cars (some not running) and on the 15th day, the production 
company wrapped and went home. They also left the land cleaner, the 
community of Lone Pine, California, an economically depressed area, 
inviting them back and great images to show the world.
    Admittedly, there may be different impacts caused by certain types 
of filming that require an environmental analysis to be performed and 
not all locations would be appropriate for bringing in even a small 
film crew. However, filming by its very nature is a temporary land use 
that is generally fully compatible with the mandate of the Federal Land 
Management Policy Act to manage land for multiple use and sustained 
yield. Filming is and can be compatible with areas approved for 
grazing, off road vehicle activity, mining and recreational use and 
camping. With proper environmental planning and restrictions, any 
filming activity can be fully controlled, monitored and any potential 
damage fully mitigated by pre-planning efforts. Even in the most 
sensitive of environments, adequate and even beneficial controls and 
measures can be implemented to allow the use of the area for filming, 
again keeping the business in the area in which it belongs, the 
California desert.
    There are many examples of the film industry restoring federal 
lands to a better condition than when they arrived. The industry has 
funded numerous federal historical projects as well as financial 
contributions to further protect the federal lands for use by future 
generations to enjoy. The film industry has long been a great partner 
to the federal agencies and the environment. Just one example is the 
Earth Communications Office (ECO). Founded 10 years ago, the ECO uses 
the power of communication to improve the global environment. They 
utilize the skills and talents of members of the entertainment industry 
to create public service campaigns that educate and inspire people 
around the world to take action to protect the planet. Some prominent 
board members include: Pierce Brosnan, Cindy Crawford, Woody Harrelson, 
Producers Ron Howard and Brian Grazer just to mention a few. The ECO 
also consults with and educates studios, ad agencies, postproduction 
houses and other communications-based business on how to operate their 
facilities in a more environmentally friendly manner. Two of their 
successes are the elimination of rain forest wood Lauan in movie and TV 
set construction and helped stop wasteful packaging of the CD longbox 
used by record companies
    Given the concern that the implementation of the new desert 
management plans will have an adverse economic impact on the desert 
communities and user groups, the issues of the film industry should 
certainly receive attention from members of Congress and the Department 
of Interior representatives. The Film Industry can dramatically impact 
the communities adjacent or near the federal lands open for filming. 
For example, a feature film can spend between $70,000 and $100,000 a 
day when filming on location while commercials average $30,000 to 
$50,000 per day, with still photography spending up to $10,000 a day. 
When the magnitude of the economic impact in the desert areas from 
filming is considered, it was more than a little startling to see 
either zero socioeconomic analysis to no more than a few lines 
dedicated to filming restrictions in each of the desert plans, NECO, 
NEMO an WEMO, that could would restrict filming activities even 
further.
    A potential solution currently to the issues of filming in the CDCA 
under consideration for proposal to the BLM and other DOI agencies by 
the film industry is the formation of large-scale programmatic 
environmental assessment or EIS for filming in various regions. This 
programmatic could then be used as a prototype for other public land 
areas such as National Forests and other BLM managed lands. Pre-
identification of filming locations and the co-use of areas currently 
permitted for other activities such as mining, grazing and recreation 
as long as the uses remained compatible would be preferable and allow 
maximum flexibility for scouts to identify locations and obtain permits 
rapidly. Providing maximum choice and rapid permitting will work to 
keep filming in the desert and will keep the economic activity from 
leaving the borders of the State and counties. This effort will require 
multi-jurisdictional involvement and an open mind from our federal 
partners including the United States Fish and Wildlife Service. The 
film industry needs more than just five or six places consisting of a 
few thousands acres in which to film on a regular basis. An inventory 
of public lands where biological and cultural data is available or 
other EIS or EAs have been approved will aide in the identification of 
potential filming sites. We believe that we can work together to 
identify hundreds of sights within the CDCA alone that would be pre-
approved locations and have required mitigation measures in place that 
must be followed in order to use the area.
    Again keeping the business where it belongs, in the CDCA and in the 
counties of southern California. This proposal is currently in 
development and will be presented to the BLM Desert District office and 
State Office within the next few months.
    In summation, I would like to say that the film industry is 
committed to preservation and conservation of the environment and the 
industry will remain dedicated to protection of endangered species. 
However, the public lands must remain open for multiple uses for ALL 
land users and where compatible use can be had--and such multiple uses 
should be encouraged and supported by the Department of the Interior. 
There may need to be some policy and attitude changes that occur in 
order for us all to work together but this is not impossible--after all 
nothing is impossible in the movies!
    Thank you for the time to listen to the concerns of the film 
industry and please forward any questions or comments you may have 
directly to me.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Ms. Davis, I 
appreciate your testimony.
    Next is Mr. Mike Hardiman, who is an Inholder within the 
California Desert Conservation Area from Imperial County. Mr. 
Hardiman, welcome to the Committee.

STATEMENT OF MIKE HARDIMAN, INHOLDER WITH THE CALIFORNIA DESERT 
         CONSERVATION AREA, IMPERIAL COUNTY, CALIFORNIA

    Mr. Hardiman. Thank you, Mr. Chairman. I have three blown-
up photographs that I would like to put on the three easels.
    Mr. Radanovich. Sure. You can have someone help you there.
    Mr. Hardiman. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify at today's hearing. My name is Mike 
Hardiman, and I own a parcel of private property that is 
surrounded by government-owned land, a situation referred to as 
an inholding. Inholdings are common in the western United 
States, although there are inholdings in nearly ever State.
    My property is surrounded by the Bureau of Land Management 
lands in northern Imperial County, just off the Bradshaw Trail. 
This trail is a county-maintained dirt road, which stretches 
from the north shore of the Salton Sea, eastward to the town of 
Palo Verde along the Colorado River.
    I purchased the inholding in 1990 when I was a resident of 
Orange County, and I could get out there once a month or so. 
Now living back east, I am lucky to see it twice a year. During 
the battle over the Desert Protection Act, I watched Senator 
Cranston, Congressman Beilenson, and their allies aim to lock 
up as much public land as they could.
    I decided that if I wanted to keep pitching a tent in the 
desert, I may have to buy own campground and so I did. Mr. 
Chairman, inholders are an important part of the overall mix 
that benefits recreational use in the desert. Here are a few 
examples.
    The current issue of Blue Ribbon Magazine reports that the 
Widowmaker motorcycle hillclimb has returned for the first time 
since 1988. Featured on ABC's Wide World of Sports and located 
on public land for 25 years, it was shut down by politics 15 
years ago.
    The revived Widowmaker was held totally on private property 
this year in Croydon, Utah, providing an excellent recreation 
opportunity for 747 entrants and 15,000 spectators. At the 
northern end of the Imperial Sand Dunes, the Glamis Beach Store 
is located on an inholding.
    It offers a full range of food, supplies, and gasoline, and 
is open year around. Across the road is an ATV repair shop. No 
other retail establishments are available for many miles, and 
so these provide significant convenience for recreationalists.
    At the Ocotillo Wells offroad recreation area, the Blu-In 
Diner has gas, diesel fuel, ice, and friendly advice. The Split 
Mount Store is part of a large inholding with many property 
owners that includes an RV park, diner, an ATV parts and repair 
business, and residences that are generally used as weekend 
homes.
    These inholdings are preferable to the lease arrangements 
found in many national parks, which are much more subject to 
the whims of hostile bureaucracy and extreme environmental 
groups. The inholdings are also generally independently owned 
small businesses, whereas the Feds tend to show favoritism 
toward large corporations in their lease negotiations.
    My inholding is unimproved vacant land. Over the years, I 
have used it for camping, as a base camp for rock climbing, and 
hiking on surrounding public lands, for sightseeing, and to 
educate uninitiated urbanites.
    My nephew earned several Boy Scot Merit Badges in the 
desert, including Astronomy, Backpacking, Climbing, Geology, 
Rifle Shooting, and Wilderness Survival. A group of hunters 
uses the land with my permission on Veteran's Day weekend each 
year to hunt chukar and quail.
    Mr. Chairman, in many ways there is more public access to 
my private property than there is to surrounding public lands. 
This is due to my willingness and that of other inholders to 
voluntarily allow use of our property, combined with increasing 
restrictions on public lands.
    For example, near my land is an ACEC, or area of critical 
environmental concern, and two WSAs, or wilderness study areas. 
These study areas can be studied forever without an agency 
making further land use decisions. There is no deadline. Even 
worse, while it is being studied, it is managed even more 
strictly than wilderness, because a management plan has not 
been completed.
    And, of course, there is the Endangered Species Act, 
looming like the Grim Reaper over both private property rights 
and multiple use of the public lands. This interlocking 
directorate of land use controls is excessive, and new 
proposals should not move forward until the existing ones are 
handled properly.
    Here are a few photos that I took just last week when I was 
out in the desert. The first one is an example of excessive 
restrictions placed on public land use. We hear that you can do 
things in the wilderness and this kind of thing. This is a 
reality and it is right here.
    Thirty feet from a central line and that is it, and in some 
areas it is 100 feet from a central line, and in this case, it 
is only 30 feet from the center line, and you can pull off and 
camp out. And this is along Dupont Road in the Chuckwalla 
Mountains in Riverside County.
    A 30-foot restriction on pulling off the road to go camping 
does not permit enough privacy or cover from dust kicked up by 
other vehicles that may travel through. Next is a dramatic 
example of maintenance and cleanup failures by our public land 
agencies, and in this case, the Department of Defense.
    Over there in the front, that is me surrounded by those 
bombs that are larger than human beings, each larger than an 
adult, and adjacent to the Bradshaw Trail, a county maintained 
two-lane road that Imperial and Riverside Counties maintain.
    Those bombs are adjacent to the Bradshaw Trail as it passes 
by the Chocolate Mountain Navy Bombing Range. And I believe 
they are inert, but I do not know what environmental hazards 
they may hold. And there is the Bradshaw Trail right there 
adjacent to it.
    It seems that the Federal land management agencies place a 
high value of visual landscapes and are anxious to establish 
zoning and viewshed restrictions on adjacent private property. 
Perhaps the Federal agencies, and in this case the Department 
of Defense, should clean up their own act on public lands 
first.
    Finally, here is what could be called the Desert Tortoise 
Berlin Wall right there. This is located north of the Imperial 
Sand Dunes, along the highway, including a barbed wire topping 
the chain link fence. It is over 8 feet tall, and stretched out 
away from the road out of sight over a hill, a menacing 
eyesore.
    Mr. Chairman, just as President Reagan spoke to the Soviet 
Union years ago about bringing down the Berlin Wall, I ask this 
Committee to tear down this wall. Indeed, endangered species 
can be protected alongside recreational access and private 
property rights. The Endangered Species Act needs to be 
reformed to reestablish its basic credibility, for the benefit 
of both species and people.
    I see that my time is up, and I will quickly ask the 
Committee to examine and hopefully act on three bills; H.R. 
1662 by Congressman Walden, which will improve the process of 
evaluating scientific data under the Endangered Species Act.
    And H.R. 1517 by Congress Graves, which will focus on the 
Land and Water Conservation Fund revenues to recreational 
facility maintenance and improvements, and prohibit further 
land acquisition from the fund.
    And finally H.R. 1153 by Congressman Simpson, which would 
place up to a 10 year maximum limit on studying Wilderness 
Study Areas. Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Hardiman follows:]

       Statement of Michael Hardiman, Private Property Inholder, 
                      Imperial County, California

    Good afternoon Mr. Chairman, thank you for the opportunity to 
testify at today's hearing.
    My name is Mike Hardiman. I own a parcel of private property that 
is surrounded by government-owned land, a situation referred to as an 
inholding. Inholdings are common in the western United States, although 
there are inholdings in nearly every state.
    My property is surrounded by Bureau of Land Management lands in 
northern Imperial County, just off the Bradshaw Trail. This trail is a 
maintained dirt road which stretches from the north shore of the Salton 
Sea eastward to the town of Palo Verde along the Colorado River.
    I purchased the inholding in 1990 when I was a resident of Orange 
County, and I could get out there once a month or so. Now living back 
east I am lucky to see it twice a year. During the battle over the 
Desert Protection Act, I watched Senator Cranston, Congressman 
Beilenson and their allies aim to lock up as much public land as they 
could. I decided that if I wanted to keep pitching a tent in the 
desert, I may have to buy my own campground! And so I did.
    Mr. Chairman, inholders are an important part of the overall mix 
that benefits recreational use in the desert. Here are a few examples.
    The current issue of Blue Ribbon magazine reports that the 
``Widowmaker'' motorcycle hillclimb has returned for the first time 
since 1988. Featured on ABC's Wide World of Sports and located on 
public land for twenty-five years, it was shut down by politics fifteen 
years ago. The revived Widowmaker was held--totally on private 
property--this year in Croydon, Utah, providing an excellent recreation 
opportunity for 747 entrants and 15,000 spectators.
    At the northern end of the Imperial Sand Dunes, the Glamis Beach 
Store is located on an inholding. It offers a full range of food, 
supplies and gasoline, and is open year round. Across the road is an 
ATV repair shop. No other retail establishments are available for many 
miles, and so these provide significant convenience for 
recreationalists.
    At the Ocotillo Wells offroad recreation area, the Blu-In Diner has 
gas, diesel fuel, ice and friendly advice. The Split Mountain Store is 
part of a large inholding with many property owners that includes an RV 
park, diner, an ATV parts and repair business, and residences that are 
generally used as weekend homes.
    These inholdings are preferable to the lease arrangements found in 
many national parks, which are much more subject to the whims of 
hostile bureaucracy and extreme environmental groups. The inholdings 
are generally independently owned small businesses, whereas the feds 
tend to show favoritism toward large corporations in their lease 
negotiations.
    My inholding is unimproved vacant land. Over the years I have used 
it for camping, as a base camp for rock climbing and hiking on 
surrounding public lands, for sightseeing and to educate uninitiated 
urbanites. My nephew earned several Boy Scout Merit Badges in the 
desert, including Astronomy, Backpacking, Climbing, Geology, Rifle 
Shooting and Wilderness Survival. A group of hunters uses the land with 
my permission on Veteran's Day weekend each year to hunt chukar and 
quail.
    Mr. Chairman, in many ways there is more public access to my 
private property than there is to surrounding public lands. This is due 
to my willingness and that of other inholders to voluntarily allow use 
of our property, combined with increasing restrictions on public lands.
    For example, near my land is an ACEC, or Area of Critical 
Environmental Concern, and two WSAs, or Wilderness Study Areas. These 
study areas can be studied forever without an agency making further 
land use decisions. There is no deadline. Even worse, while an area is 
being studied, it is managed even more strictly than wilderness, 
because a management plan has not been completed.
    And of course, there is the Endangered Species Act, looming like 
the Grim Reaper over both private property rights and multiple use of 
the public lands. This interlocking directorate of land use controls is 
excessive, and new proposals should not move forward until the existing 
ones are handled properly.
    Here are a few photos I took just last week. This first one is an 
example of the excessive restrictions placed on public land use. It is 
located on Dupont Road, a lightly traveled single track dirt road in 
the Chuckwalla Mountains in Riverside County. A thirty foot restriction 
on pulling off the road to go camping does not permit enough privacy or 
cover from dust kicked up by other vehicles that may travel through. 
Next is a dramatic example of maintenance and cleanup failures by our 
public lands agencies. These bombs, each larger than an adult, are 
adjacent to the Bradshaw Trail as it passes by the Chocolate Mountain 
Navy bombing range. I believe they are inert. I do no know what 
environmental hazards they may hold.
    It seems that the federal land management agencies place a high 
value on visual landscapes and are anxious to establish zoning and 
viewshed restrictions on adjacent private property. Perhaps the feds 
should clean up their own act on public lands first.
    Finally, here is what could be called the Desert Tortoise Berlin 
Wall. This is located north of the Imperial Sand Dunes. Including the 
barbed wire topping the chain link fence, it is over eight feet tall, 
and stretched out away from the road out of sight over a hill, a 
menacing eyesore.
    Mr. Chairman, just as President Reagan spoke to the Soviet Union 
years ago about bringing down the Berlin Wall, I ask this Committee to 
tear down this wall. Endangered species can be protected alongside 
recreational access and private property rights. The Endangered Species 
Act needs to be reformed to reestablish its basic credibility, for the 
benefit of both species and people.
    I ask the Committee to support legislation such as H.R. 1662 
sponsored by Congressman Walden and others to require more thorough, 
qualified and independently reviewed biological evidence of a species 
being in trouble before it can be listed as endangered or threatened.
    Two other legislative recommendations. I suggest the Committee 
consider H.R. 1517 by Congressman Graves. This would dedicate Land and 
Water Conservation Fund revenues to recreational maintenance and 
improvements and prohibit further land acquisition from the fund. H.R. 
1153 by Congressman Simpson would place an expiration of ten years on 
Wilderness Study Area reviews.
    Thank you for your consideration.
                                 ______
                                 
    Mr. Radanovich. Thanks, Mr. Hardiman. I appreciate your 
testimony. We will go to the question and asking portion of 
this hearing. Mr. Denner, give me an idea of what you would 
like to see as a result of this hearing. What might you like to 
see accomplished after this?
    Mr. Denner. I guess I could write a book in answering that 
question, but if I came up with two key things that we have 
addressed here today, the first one is, and which was repeated 
by several people, and that is the concept of mitigation; 
mitigation on the impacts of public uses of land when portions 
of the Endangered Species Act are implemented.
    Mr. Radanovich. No net loss--
    Mr. Denner. No net loss, or perhaps even a positive ratio 
of mitigation for recreation, just like if it is a not very 
serious closure, because there is not really very good science, 
but it looks like it ought to be closed. Well, I would consider 
that as a poor reason for closing an area.
    So maybe the area that we lose should be mitigated on the 
basis of 3 or 5-to-1 like we do when there is a serious 
mitigation for an impact on a species. And I guess the second 
thing, which was repeated over and over again, is that it is 
hard for me to believe that you have a board of stakeholder 
members who are appointed by the United States Secretary of the 
Interior, who have no muscle.
    You know, these people sit in a group to advise the BLM, 
and we have given you repeated examples of how our advice, and 
I have been informed over and over again, is not ignored. They 
take it into account, but they just refuse to act on it.
    And it seems like it is out of proportion for a group of 
people appointed by the U.S. Secretary of the Interior to have 
no strength, and that they can be overridden by a local BLM 
area manager's decision on his or her own part.
    So I would like to see some muscle put into the advisory 
councils that advise the Federal agencies.
    Mr. Radanovich. Thank you very much, Mr. Denner. Can I ask 
the same question of anybody who might want to respond to that 
as well? Mr. Hubbard, did you want to respond to that?
    Mr. Hubbard. I would like to respond to it. I think that 
when you heard more than once is that there needs to be some 
legislative reform with respect to the Endangered Species Act.
    Not the least of which from a lawyer's perspective, one of 
the biggest problems is that once an Endangered Species Act 
lawsuit is filed, almost quick on its heels is a motion for a 
preliminary injunction, which is legalese for the plaintiff 
coming in and asking the court to shut down an area until the 
merits of the case can be adjudicated.
    In most circumstances there is a balancing of hardships to 
determine whether the injunction should be issued, but when the 
Endangered Species Act is invoked the rules change. There is 
not really a balancing of hardships. If the plaintiff can 
demonstrate with a very small amount of evidence, and maybe not 
even very credible evidence, that there is some human-related 
threat, the court will issue the injunction, and it doesn't 
matter how it might affect people.
    That needs to change so that those people who are 
interested in protecting access can at least put those who 
would shut down areas through the paces, and force them to look 
at the data, and force them to present evidence that there 
really is a threat warranting an injunction.
    And that would be one area that I think would greatly 
assist us in establishing some kind of a balance. But I think 
overall the entire Act needs to be reviewed, because not only 
does it not assist in the many businesses and the public who 
wants to access these lands, but the fact is that it is a 
complete failure in its primary responsibility, which is to 
protect species and get them out of endangered status.
    The number of success stories that the Endangered Species 
Act can claim is very, very few, and the entire framework needs 
to be changed. The last thing or the second thing that I think 
needs to come out of this is when you are arguing for public 
access to public lands, and you are coming up against another 
group that is using the Endangered Species Act, you are at an 
immediate disadvantage because your interests by law are not on 
par with the Endangered Species protection, and that needs to 
change as well.
    There needs to be a congressional effort and a legislative 
directive that protects public access, including motorized 
access for recreation. Until that happens, we are going to 
continue to see this erosion of public ability to access the 
desert, and other places throughout the United States.
    Mr. Radanovich. Mr. Hubbard, while I have you, I just want 
to ask one quick question. You had mentioned that CDCA was 
ground zero between access and those who oppose access. Are 
those that are opposing access, is that access of any kind, or 
is it limited to motorized access in your view?
    Mr. Hubbard. It is not limited to motorized access. The 
same groups that have brought these lawsuits, they are trying 
to eliminate mining, eliminate grazing, and they are not real 
thrilled with the equestrian community.
    It is not just motorized access. Motorized access I think 
for them is an easy target, and so they have moved into the 
fore, but it is not just motorized access.
    Mr. Radanovich. OK. Thank you very much. Mr. Chairman.
    Mr. Pool. Thank you. If I can, I would like to start with 
Mr. Kemper, and one of the things that we have heard testimony 
on today was about the loss of grazing land and a number of 
ranches within this whole area. Can you explain a little bit to 
the Committee why that is happening, and what are some of the 
factors that are playing in that have caused a number of 
ranches to fold up in the area?
    Mr. Kemper. Unfortunately, when the ranching community 
applied for intervenor status in the CDCA lawsuit they were not 
granted, and so the ranchers were really without representation 
or a negotiating tool during the settlement agreement.
    The settlement agreement that was entered into between the 
Bureau of Land Management and the Center for Biological 
Diversity required the grazing community to remove cattle for 
spring closure and also a fall closure, which was economically 
devastating.
    You know, we are not talking about something that could be 
managed. There were not fences to hold them off those portions 
of the ranches, and it was simply an impossible task in order 
to comply, and I believe very few ranchers were able to comply 
a hundred percent. I was one of them, but I had to remove 
cattle. From a financial standpoint, it was devastating to our 
family, as well as for the others.
    Mr. Pombo. So what you are saying is that a settlement was 
reached that the grazing community was not a party to? You were 
not in the room negotiating it and the folks that were in the 
room decided that you had to go?
    Mr. Kemper. That is correct.
    Mr. Pombo. And was that based on ESA, on the Endangered 
Species Act?
    Mr. Kemper. It was based on a lawsuit that was filed, 
because BLM had missed a deadline for consultation with Fish 
and Wildlife, and it was not really a specific issue, but for a 
missed deadline in consultation.
    Mr. Pombo. Well, thank you. Mr. Hardiman, you are currently 
an inholder within the area. The access to your property where 
you are, has that changed over the years, or do you still enjoy 
the ability to get to your property?
    Mr. Hardiman. Unfortunately, the property is near the 
Bradshaw Trail, which is about a mile-and-a-half off the trail, 
on a very lightly traveled road. That road is maintained by the 
various inholders that are out there, and it has not been shut 
down or attempts to do that yet.
    But, for example, with the R.S. 2477 regulation, Bradshaw 
Trail certainly qualifies, but I am just off of what used to be 
called the Nyland Road. It used to be that you could go from 
Nyland to Blake, but it was cutoff about 50 years ago when the 
bombing range was established in the Second World War.
    So much of the road has gone into disrepair, but a mile-
and-a-half or 2 miles of it or so are still maintained by 
inholders themselves. I am out there with a shovel literally. 
So it has been OK so far, but I would guess that is because 
maybe it has not been considered to be important enough to 
bother with yet. The key word is yet.
    Mr. Pombo. Are you familiar with any other inholders, and 
what their situation is, in terms of access? Has here been 
access that has been cutoff to private property?
    Mr. Hardiman. Outside of this area there has been something 
with the Forest Service, but I think with the other agency as 
well, and that if you want to get to your property that you 
have to have a permit or an approval of some sort to travel 
over a road.
    One example that I recall in Colorado was a family was 
restricted from using a well-established road during the 
winter. The road was about 12 miles over public land, and 
during the winter, they were no longer allowed to use 
snowmobiles. they had to walk the 12 miles with supplies to get 
in there during the winter.
    And which was a very high elevation, and effectively 
restricted the use of their land to just the summer months. And 
since they lived there year around, that was a very big problem 
for them. So there are problems with restricting access, and 
that is one example that I can think of off the top of my head.
    Mr. Pombo. If I could go back to Mr. Kemper on the whole 
issues of access to private holdings. I understand that you 
also have private holdings within the area?
    Mr. Kemper. Yes.
    Mr. Pombo. And has access to the private lands been a 
problem?
    Mr. Kemper. The private holdings that I have within the 
Federal grazing lease are actually pipelines and fence lines, 
and that sort of thing. But we are somewhat restricted because 
we have five wilderness areas on our grazing lease that cross 
over fenced boundaries, and fenced maintenance roads, pipeline 
roads, cofferdams, well sites, and we are told that we can't 
maintain those in the same fashion that we have in the past in 
order to continue to trap waters, and in order to allow cattle 
to continue to graze.
    Mr. Pombo. Because of the wilderness designation?
    Mr. Kemper. Because of the wilderness designation.
    Mr. Pombo. But if all of those features exist, it would not 
qualify as wilderness.
    Mr. Kemper. I don't believe it is wilderness. My 
understanding of a wilderness is a roadless area that is 
untrampled by man. We have got wells, window sites, 28 miles of 
pipeline, 30 miles of fence, and the maintenance roads for 
those improvements, and lots of those improvements are within 
the wilderness areas.
    Mr. Pombo. Thank you.
    Mr. Radanovich. Thank you, Mr. Chairman. Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman. I do appreciate the 
courtesy of being allowed to sit with you since I am not a 
member of this Committee. I guess I don't appreciate the 
discourtesy of not being informed officially of the hearings 
since we are dealing with issues in my area, in my district, 
and it is usually Congressional protocol to at least notify 
folks who have an interest in that area to invite them.
    An official congressional hearing as I understand it 
generally has members of the minority party staff present, and 
it has minority party members, and it has alternation between 
Democrat and Republican, and also witnesses chosen by the 
minority party.
    I don't see any of that here, which leads me to believe 
that this is not a true congressional hearing. But be that as 
it may, I want to tell you without being hostile, Rich, and 
George, my friends, as you know in the redistricting process, I 
was assigned Imperial County.
    I did not have Imperial County before, and I am an urban 
guy. And I had a lot to learn about my new district, and I set 
out to learn it. I set out to learn about people who are 
farming. I went out to every farmer that I could find, and went 
through the fields with them, and tried to understand the 
processes.
    I went out to the desert with a group from the Desert 
Protective Council. I went off-roading with a group from the 
American Sand Association. I had a lot of fun by the way. That 
is a great sport.
    So I am really trying to learn about the issues, and I 
don't know enough about them, and an oversight congressional 
hearing should be one in which we learn from each other, where 
I could learn about what the off-road community wanted, and 
what the grazing community wanted, what the inholders wanted.
    I even know that expression, and I have learned a lot by 
listening, too, and frankly, Mr. Chairman, I have heard a lot 
of stupid things that are being done that I would like to work 
with you to solve. But when a hearing like this is stacked 
without hearing another side --
    Mr. Pombo. Would the gentleman just yield for a second?
    Mr. Filner. Sure. You don't like the word stacked, I know.
    Mr. Pombo. Well, I don't care. You can use any word that 
you want. But I think that the record deserves to be accurate 
in that respect. Every single member of the Committee was 
invited. The minority chose not to attend, and they chose not 
to invite witnesses.
    Mr.  Radanovich. And the minority chose not to inform you 
that the hearing was going to be held.
    Mr. Filner. Look, George, if I would set up a hearing, I 
could arrange--you might be on legal grounds, but look, I am 
talking about good public policy. We are trying to learn about 
these issues, and you have got to have both sides to learn 
about them frankly.
    You can learn a lot by listening to one side, and I can 
learn a lot listening to the other side. I don't even consider 
myself on one side or the other by the way. I am here to learn 
from both sides, and I only have one, which leads me to believe 
that we are not--when you are not being fair, you force someone 
like me who is trying to learn to another position, because you 
are not allowing a free exchange of position.
    Frankly, I think you would profit by it. If the people who 
want or are trying in your view to prevent access, or the lack 
of an environmentalist, if they appear that way in a public 
hearing, it is obvious to people.
    And therefore everybody learns from each other. I would not 
be afraid of setting up something in which not everybody is on 
the same side. It leads you to believe that you are afraid of a 
debate, and you should not be afraid, and nobody should be 
afraid of that.
    I don't even see--is there an agenda here as is required? I 
don't see a public commentary, which I understand is--does the 
public have this? Nobody in the public seems to have this, and 
is there a public comment period as required by law? I don't 
see it on here.
    Mr. Radanovich. Two weeks after today's date.
    Mr. Filner. No, I mean oral comment. You just have these 13 
people and that is it?
    Mr. Radanovich. That is the standard operating procedure, 
and it is written comment 2 weeks afterwards.
    Mr. Filner. Look, George, I would rather not be on this 
legalistic debate. If you want to come up with good policy you 
have a public debate on it, and that is how you could have 
arranged this if you wanted to, but you chose not to.
    You want to show that these people that you are going to 
defend them back in Washington, and they will think that you 
are going back and fighting for them, when actually they are 
doing you a disservice, I say to the folks in the orange 
shirts, because they come back, and everybody says, oh, they 
had a stacked hearing and I am not going to even bother looking 
at any of the comment, or any other thing.
    I mean, nobody is doing me a big favor when they do this, 
although they are trying to show you that they are. So, you 
know, this is a dog and pony show which has no effect on the 
legislation, and forces people to say or to go this way.
    You guys want intelligent policy, and I want intelligent 
policy. We don't get intelligent policy unless we see there is 
a clash of opinion. I don't even know--I have not made up my 
mind on the BLM plan.
    Mr. Pool will tell you that I have had many discussions 
with him and I have read all the stuff, and I wanted to see 
what both sides would say. I don't get both sides. That leads 
me to think that you are afraid of having that again.
    So if you are going to educate folks who will put good 
public policy back in Washington rather than have people 
polarized on each end, and who can yell at each other, you can 
have that. But that is what you are doing.
    You are the majority, and you can do whatever you want. But 
you are not going to get good public policy as a result, and 
these folks might not even have their best interests served as 
a result. I thank the Chairman.
    Mr. Radanovich. The Subcommittee Chairman would respond 
that I am sad that this is a one-sided hearing, but I am afraid 
that your problem is with your minority staff and your minority 
who chose not to send people here. I don't think the people in 
this group, or the members that sit here, either the Chairman 
or myself, are afraid of intelligent debate when the other side 
does not show up.
    Mr. Filner. You could have just called me and said, Bob, 
would you like to be at a hearing and do you have any 
suggestions. You could have done that, George. You know that. 
Come on. If I was in your position, I would have done that.
    Mr. Radanovich. Under protocol the minority statute--
    Mr. Filner. I don't care what protocol. You guys know each 
other, and just give me a call and say we are doing stuff in 
Imperial County, and do you have any suggestions.
    Mr. Radanovich. OK. Thank you.
    Mr. Filner. And I appreciate your kindness and your--
    Mr. Radanovich. You are welcome. Any other questions--
    Mr. Filner. And you guys can do an overblown and do 
whatever you want, and it is not going to do your cause any 
good.
    Mr. Radanovich. You are out of order. Maybe now is the time 
to go to the Finding Nemo joke that was on the board here a 
little bit earlier. Mr. Brown, in your opinion, can mining be 
accomplished in the CDCA in such a way that it has little or no 
impact on mining and the endangered species?
    Mr. Brown. Well, we have to have regulations, and mining is 
a heavily regulated industry. Every aspect of a mining 
operation is scrutinized by numerous agencies long before the 
first shovel of material is moved, and right now the 
environment, the permitting environment, is one that is 
excessively time consuming and expensive, and if not changed 
will ultimately force the industry to go elsewhere.
    In 1999 when Congress requested a study by the National 
Research Council to assess regulatory framework for hard rock 
mining on Federal land, one of the conclusions was that the 
permitting process was needlessly long, and recommended that 
the BLM and Forest Service should implement a more timely 
process.
    And I think the effort that the BLM is trying to put forth 
in the West Mojave Plan and also in NECO and NEMO, which I am 
going to call the Las Vegas model, in theory should streamline 
the process, whereby a mitigation fee or mitigation ratio is 
established, and the proponent pays the fee, and moves through 
the process, rather than an endless amount of litigation.
    I think that it is a pragmatic and practical procedure, 
although not without flaws, since as significantly increased 
mitigation ratio of the fees to streamline the process, and 
ultimately result in solutions that are beneficial to both the 
species and the proponents of the project. So I think that the 
answer is yes.
    Mr. Radanovich. Thank you, sir. Are there any other 
questions of this panel?
    Mr. Pombo. If I could, Mr. Chairman, just one further 
question to Ms. Davis. I was somewhat intrigued by your 
testimony. Because it has become increasingly difficult or 
bureaucratic to have access for the industry that you are 
talking about, they are making decisions to film in what you 
said was Australia?
    Ms. Davis. And Canada.
    Mr. Pombo. And Canada, and other places. Is it worth it to 
them to make that big of a move just because of that process 
that exists here?
    Ms. Davis. Oh, absolutely, because most of the land that 
has the location look that they are over unfortunately is not 
available to them in the normal CDCA area and the rest of the 
land in the United States under Federal agencies.
    That is why we are looking at doing a programmatic that 
would perhaps open up the land for us for additional use and 
programmatics have already been done for other commercial 
users, so that perhaps we can be competitive with that.
    Mr. Pombo. That is interesting. I would be interested in 
working with you in the future to try to see if we could not 
move that along.
    Ms. Davis. I would love that.
    Mr. Pombo. Because that is--I know that industry spends a 
huge amount of money like others, and when you talk about 
multiple-use land, that is definitely part of it. So, thank 
you.
    Mr. Radanovich. Any other questions? Mr. Filner.
    Mr. Filner. I apologize, as I was late and missed the 
testimony. Mr. Brown, just again as someone who is trying to 
understand this, and trying to be respectful to both sides on 
this issue, but exactly how would you change the BLM plan that 
has been presented from the interests of the off-road 
community?
    Mr. Brown. The plan starts with its foundation in a 
scientific process that was filed from the start, and our 
concern with that is that with the listing of Peirson's Milk 
Vetch was incomplete data to start with, and even with the Fish 
and Wildlife Service, their own staff, they questioned the 
validity of that science when it was used to do that.
    And now that more studies have been done in the bureau's 
own monitoring process that the original studies that were 
conducted were not repeatable and verifiable, and therefore 
they could not monitor with them to see year to year how that 
process was going on.
    And as they developed a better monitoring process, they 
found that the plant was not having the difficulties that they 
originally felt that it was having across this range, and since 
then there has been extensive study done that have proven that 
there are more than 70,000 viable species in 1 year, and a 
large seed bank that will continue to allow this particular 
species to continue.
    And so if you take that as the foundation--I mean, it is a 
foundation on sand, and so from there you just keep building on 
that process, and as you create a ramp to protect something 
that does not necessarily need the protection as great as the 
ESA provides, you make management decisions that then lead to 
this type of a ramp situation being larger and more draconian 
than it should be, and not necessarily protective of the 
environment.
    And by restricting the uses into an ever smaller area, and 
restricting the number of people who can go into a specific 
area of the dunes, you may actually do more harm to the plant 
than good.
    So we see that this whole thing is built on a foundation of 
poor science to start with. We certainly would like to see them 
decide whether or not the plant should be delisted. There is a 
petition in front of them to delist the plant.
    If they were to delist the plant, then we would obviously 
see a whole another view of that ramp. They are going ahead--
the Fish and Wildlife Service continues down the path of 
critical habitat designation.
    The Bureau's statement in the press yesterday was that they 
have taken that into account in this process, and probably 
would not change the ramp. But still we just see--and then a 
business plan to implement a ramp that is designed for science.
    So you are asking me specifically what we would change; 
those conditions within a ramp that have to do with 
specifically protecting a species that does not reach the 
criterion, which included the 4-year revisit clause, and 
includes the limits of visitation in the center part of the 
dunes, and the restriction of the camping around certain areas, 
and any sort of buffer zone that is outside that area to hold 
those uses within a given quadrant.
    Mr. Filner. What is the congressional role in the situation 
now? BLM has put out a draft plan for comment. Does the 
Congress have any role, or is there any legislation one way or 
the other that can deal with it now?
    Mr. Radanovich. We might want to hear from the Director in 
the next panel.
    Mr. Filner. I have been trying by the way, and I think I 
was successful, along with Mr. Hunter, in getting increased 
funds for--I don't know the word that I want to use--for 
protection of the people. That is, some more police protection 
in the area. Is that something that you have any problem with, 
or something where you would want to see increased visibility 
of security?
    Mr. Brown. I think that those issues are intensely 
important to us, and we do feel strongly about that, and we 
appreciate the help that you have done in bringing that funding 
here, and it is something that needs to be repeated annually.
    These folks are going to continue to come and they are 
going to continue to go there to recreate, and they need the 
visitors services, and that is part of what we feel strongly 
that Congress needs to interject itself in, is the continual 
funding source to make sure that recreation across the west, 
and not just in the CDCA, but throughout the west.
    Our sand and recreation folks have many available spots on 
the Bureau of Lands throughout the western United States, as 
well as just general access to public lands, that provides a 
recreation component that needs to be funded by Congress.
    Mr. Filner. One last thing if I may, Mr. Chairman. I as a 
newcomer to Imperial County, I had thought that the county has 
not developed its echo tourism to the extent that it might. I 
mean, it is an incredibly beautiful area as the people who come 
there for the dunes know.
    Is there anything that the county or the State, or Federal, 
can do to be more welcoming to your community? What would you 
like to see done?
    Mr. Radanovich. Excuse me, but I am going to have to 
interrupt. No response from the crowd, please. This is a 
hearing. The information needs to go into the record and so the 
people who are recording it need to be recording it properly. 
So you may continue, but I would encourage people to--
    Mr. Filner. I mean, for example, that there might be a 
visitors center set up, et cetera, those kinds of things.
    Mr. Brown. And there has been north of the Glamis Store, 
and there the Bureau of Land Management has placed an area to 
interpret that, and to provide wilderness parking. The county 
has provided on the county property that is within the dunes a 
vista overlook that encourages the general public to come there 
and enjoy that view and vista. And with the interpretative site 
--
    Mr. Filner. Is there anything else that could be added?
    Mr. Brown. Not unless they were to do something to 
encourage more use, which certainly they could advertise or put 
an ad in the Sunset Magazine and ask more folks to come there. 
But as far as facilities, that is one of the problems with 
wilderness designation, is that you cannot build any facilities 
within the wilderness that provide visitor service.
    So they would all have to be built, all the services, all 
the visitor centers, all these interpretative signs, anything 
that you want, parking areas, any type of development would 
have to be done off of the lands that are designated 
wilderness.
    So the eco-tourists is certainly a viable possibility, but 
the numbers, I just--that area has been designated non-
motorized since 1980.
    Mr. Filner. Yes, but you get there from Interstate 8 one 
way or the other, or from the north. I mean, you can do 
something along those roads, I assume.
    Mr. Hubbard. Congressman Filner, if I could perhaps add a 
comment. The problem I think with eco-tourism in this 
particular area is that if you eliminate vehicle access, you 
have created for yourself really a safety issue. This is an 
extremely hostile environment if you are forced to walk very 
far.
    And one of the problems with the loss of access is that 
except for extremely able-bodied hikers, you have really 
reduced the areas that most people can go to safely anyway, and 
you can't very well have a strong eco-tourism in this area 
unless you are providing some level of vehicle access.
    And without the vehicle access, people will not go there. 
It is not safe for them to do so. So maybe eco-tourism with 
very tight restrictions on vehicle access works in some areas, 
but in this particular part of the desert it creates a safety 
issue, and I just don't see it happening.
    Mr. Brown. Imperial County does have an escape document 
here that they have printed, with the idea of bringing all 
forms of recreation to Imperial County. So it encourages all 
forms of access to public lands.
    Mr. Filner. Thank you.
    Mr. Radanovich. Any other questions of this panel, because 
we are going to dismiss this panel? Ladies and gentlemen, thank 
you so much for your testimony, and I appreciate you being 
here.
    We are going to bring up our third and final panel. Mr. 
Mike Pool, who is the California State Director of BLM< who is 
here from Sacramento, and Mr. Steve Thompson, who is the 
California-Nevada Operations Officer of the U.S. Fish and 
Wildlife Service, Sacramento.
    [The witnesses were sworn.]
    Mr. Radanovich. Thank you very much. Please be seated.

 STATEMENT OF MIKE POOL, CALIFORNIA STATE DIRECTOR, BUREAU OF 
            LAND MANAGEMENT, SACRAMENTO, CALIFORNIA

    Mr. Radanovich. Mr. Pool, I do not know how you manage an 
area as big and complex as this, as well as you, Mr. Thompson, 
and so I am looking forward to your testimony. If you want to 
go ahead and start, and again 5 minutes each, and then we will 
open it up for to the panel for what I am sure will be many 
questions, and we certainly appreciate it. Welcome to the 
Committee, and you may begin.
    Mr. Pool. Thank you. I do have some opening remarks. Mr. 
Chairman, and members of the Subcommittee, welcome to Southern 
California. Just to the east of us lies the California desert 
conservation area, or the CDCA. This 25 million acre region was 
recognized as unique among landscapes throughout the country 
when it was designated by Congress in 1976 as the Nation's 
second and by far its largest national conservation area.
    When that designation was made as part of the Federal Land 
Policy Management Act, Congress highlighted through its 
official planning a wide range of land management challenges. 
Some of these challenges include the very same conflicts that 
you have heard about today.
    That is, how to balance recreational access, particularly 
off-road vehicle access, with the protection of sensitive 
desert resources, particularly rare and endangered species of 
wildlife and plants. This landmark legislation was also 
recognized as very special public land resources that were 
uniquely located adjacent to an area of a large population.
    Your congressional predecessors were very foresighted 
legislators. In fact, the challenges that led out for the BLM 
in 1976 made it more daunting today than they were back then. 
For example, in 1976 there were only five wildlife plant 
species in the California desert listed as threatened or 
endangered under the Endangered Species Act, and now there are 
14 wildlife species and 10 plant species listed by the Fish and 
Wildlife Service in this region.
    The human population in Southern California has grown from 
an estimated 12 million in 1976 to 20 million people now, with 
dramatic growth occurring in the western desert region known as 
the Inland Empire.
    To address these challenges the Federal Land Policy and 
Management Act directed BLM to prepare a comprehensive long 
range plan for the management, use, development, and protection 
of the public lands in the CDCA.
    It also established the California Desert Conservation Area 
Advisory Committee to ensure full public participation and 
involvement in this important planning process, and that 
Committee, now called a council, plays a vital role in helping 
us guide management of the desert.
    The overall plan was completed in 1980 was developed in 
cooperation with State and local governments. The Los Angeles 
Times characterized the plan at that time as, quote, a balanced 
plan, and no one group will be entirely happy with it, and that 
is a good sign.
    Twenty-three years later the BLM is in the midst of 
updating that plan through six regional plan amendments that 
are being characterized by the media as much the same. 
Controversial plans that neither recreationalists nor 
environmentalists, nor the effected users, are very happy with.
    Whether that is a good sign or not, I will leave that to 
editorial writers and others to decide in the future. I can 
tell you that my staff, and I am here in California, are trying 
to do to the very best of our abilities to balance public 
interests as we develop these plan amendments and to make these 
plans fair.
    As State Director, I have made it clear that our overriding 
goal is to allow as much public access and use of the desert as 
we can, while meeting the legal requirements of the Endangered 
Species Act.
    The legal tightrope that we are talking about in this 
region is very real. The BLM alone has seven major lawsuits 
currently being litigated by both sides regarding this plan 
updates and implementation actions, with four more notices of 
intent to file lawsuits pending.
    The Fish and Wildlife Service has additional lawsuits filed 
whose outcomes will also affect BLM's ability to authorize 
various public land uses in the desert. Much of the controversy 
being discussed today can be traced back to one of those 
lawsuits filed in early 2000 by the Center for Biodiversity, 
the Sierra Club, and others, and settled to a series of five 
consent decrees between August of 2000 and April of 2001.
    This controversial settlement made in our behalf by the 
U.S. Department of Justice was done to avoid the likelihood of 
a Federal Court granting the plaintiffs' request for a desert-
wide injunction on all BLM authorized activities under the 
California Desert Plan until Endangered Species Act 
requirements were met.
    The injunction would have included almost the complete 
closure of the Imperial Sand Dunes to off-highway vehicle use, 
the elimination of livestock grazing, large scale road 
closures, and other massive disruptions to public uses in the 
desert.
    Rather than taking that risk the settlement required the 
BLM to reconstruct a much more narrowly focused range of public 
activities until we complete the land use amendments now 
underway.
    For the last 3 years, the BLM has been working against the 
clock to complete those plans. They have been very expensive, 
and they have been very controversial, and they have been very 
time consuming. However, with input from thousands of members 
of the public, as well as State and local governments, we have 
completed four of these regional plan amendments.
    These include plan amendments for the Northern and Eastern 
Colorado Desert, the Northern and Eastern Mojave Desert, the 
Coachella Valley, and the Western Colorado Desert. The final 
two plans for the West Mojave Desert and the Imperial Sand 
Dunes Recreation Area are still underway.
    The Imperial Sand Dunes comprise 160,000 acres located 
approximately 130 miles to the east of us, and we are in the 
final stages of developing a major update to our recreation 
activity plan, or RAMP, developed in 1987.
    In my personal opinion, the Imperial Sand Dunes provide a 
world-class recreation opportunity for off-highway vehicle use. 
Literally hundreds of thousands of recreationalists and other 
visitors come to the dunes annually to enjoy its vistas and 
off-highway vehicle opportunities.
    As one of the most popular OHV areas in the Southwestern 
United States, this area presents significant management 
challenges, including law enforcement, visitor safety and 
services, and protection of sensitive resources.
    The listing of a plant called Peirson's milk-vetch by the 
Fish and Wildlife Service in 1998 requires BLM to determine how 
to balance recreational use with required legal protections of 
the Endangered Species Act.
    We believe the plan now being finalized does that, with the 
creation of a 33,000 acre adaptive management area that will 
allow us to monitor the plant, while still providing limited 
OHV access use, so that we can gather evidence one way or the 
other as to whether the plant and vehicle are compatible.
    The settlement described earlier required us to close 
49,000 acres of the 160,000 acres of dunes used for OHV use. 
Our pending plan would open the 49,000 acres back to off-
highway vehicle use, including the 33,000 acres within the 
adaptive management area. We hope to have that plan completed 
very shortly.
    The West Mojave Plan now in draft for public review is by 
far the most comprehensive of the six regional land use plans. 
It is also a habitat conservation plan that is being prepared 
in collaboration with the region's cities, counties, State, and 
Federal Agencies to meet cross-jurisdiction requirements.
    As such, it is the largest HCP ever developed, covering 9.3 
million acres. The overall goal is to streamline and develop 
less costly procedures for complying with the requirements of 
both the Federal and California Endangered Species Acts. This 
approach is aimed to stimulate economic development within this 
rapidly growing region, while still conserving more than 100 
identified federally listed, State-listed, and sensitive plan 
and animal species.
    An innovative and broad-based super group of interests, 
representing the many public entities and groups affected by 
this plan, have held countless meetings to develop many aspects 
of the draft. The rest of our public is now providing us 
comments through September and we hope to have that plan out in 
early next year. Let me know how much time I have. I have more 
comments.
    Mr. Radanovich. How long do you think?
    Mr. Pool. I would say probably 2 minutes.
    Mr. Radanovich. Two minutes? You have got it.
    Mr. Pool. Thank you. Even though BLM has received 
tremendous public assistance and involvement in all these 
planning efforts, we know probably that none of these groups 
are completely satisfied with the plan's outcome.
    We understand their views, and we want to assure them that 
their comments are indeed being carefully considered. However, 
we also acknowledge that Congress gave us a tough job in 
balancing these widely divergent public expectations and 
desires about the future of the California Desert.
    I must also point out that the implementation of these 
plans will indeed be extensive. We will be working with the 
administration, the appropriations Committee, and members of 
the California delegation to try to obtain the necessary 
funding so we are not vulnerable to similar future lawsuits.
    A number of the California Desert's Congressional 
delegation have already been very supportive of funding needs, 
and we thank them for their personal efforts. In summary, Mr. 
Chairman, as a fellow Californian, I appreciate you bringing 
your esteemed Subcommittee here to listen to the public 
regarding these important issues.
    I very much appreciate hearing the views of those who are 
testifying today, and I assure you that the BLM here in 
California remains strongly committed to trying to reach a fair 
and balance approach to management of the public lands in this 
important region.
    That concludes my summary, and I have written testimony 
provided for the record. I have also provided the Subcommittee 
with an additional transcript of my written testimony. And I am 
glad to answer any questions that you may have.
    [The prepared statement of Mr. Pool follows:]

                Statement of Mike Pool, State Director, 
                  California Bureau of Land Management

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today on access to the California Desert 
National Conservation Area (CDCA) and, in particular, the Imperial Sand 
Dunes Recreation Area.
Background
    In 1976, with passage of the Bureau of Land Management's (BLM) 
organic act, the Federal Land Policy and Management Act (FLPMA), 
Congress recognized the 25 million-acre CDCA as unique among landscapes 
throughout the country. When the CDCA was designated as part of FLPMA, 
Congress highlighted a wide range of land management challenges in this 
area. Some of these challenges include the very same conflicts you are 
examining today--that is, how to balance recreational access, primarily 
off-road vehicle access, with the protection of sensitive desert 
resources, particularly rare and endangered plant and animal species. 
FLPMA also recognized that these very special public land resources 
were ``uniquely located adjacent to an area of large population.''
    The challenges Congress recognized when it created the CDCA twenty-
seven years ago are even more daunting today. For example, in 1976, 
there were only five plant or animal species in the California Desert 
that were listed as either threatened or endangered under the 
Endangered Species Act (ESA). Currently, there are 10 plant species and 
14 animal species in this region listed by the U.S. Fish and Wildlife 
Service (FWS). Moreover, the urbanization of this region has increased; 
the population in Southern California has grown from an estimated 12 
million in 1976 to 20 million people today. Dramatic growth has 
occurred in the western desert region, often referred to as the 
``Inland Empire.''
    To address these resource management challenges, FLPMA directed the 
BLM to prepare a comprehensive, long-range plan for the ``management, 
use, development, and protection'' of the public lands in the CDCA. 
Congress established the California Desert Conservation Area Advisory 
Committee to ensure full citizen involvement and participation in this 
important planning process. The overall plan, developed in cooperation 
with the State and local governments, was completed in 1980. Twenty-
three years later, the BLM is in the midst of updating that plan 
through six regional plan amendments. The California BLM is working 
diligently to balance the various competing public interests as we 
develop these plan amendments. It is our goal to allow public access 
and use of the CDCA consistent with the resource and species protection 
requirements of the ESA.
Plan Amendments
    For the last three years, the BLM has been working to complete plan 
amendments for the six plans that encompass the CDCA. The plan 
amendments fulfill the requirements of five consent decrees entered 
between August 2000 and April 2001, in connection with a lawsuit filed 
by the Center for Biological Diversity, Sierra Club, and Public 
Employees for Environmental Responsibility against the BLM. The 
resulting plan amendments, while controversial and very time-consuming, 
have been developed with substantial public, State and local government 
input. At present, we have completed four of these amendments. They are 
the Northern and Eastern Colorado Desert, the Northern and Eastern 
Mojave Desert, the Coachella Valley, and the Western Colorado Desert 
amendments. Attached to this statement is a detailed update on the 
progress of these four plan amendments. The two remaining plan 
amendments, covering the Imperial Sand Dunes Recreation Area and the 
West Mojave Desert, are still underway, and are discussed more fully 
below.
    The Imperial Sand Dunes (Dunes) comprise 160,000 acres located 
approximately 130 miles to the east of us. We are in the final stages 
of developing a major update to our Recreation Area Management Plan 
(RAMP) for the Dunes. The RAMP was originally developed in 1987. The 
Dunes provides world-class recreation opportunities for off-highway 
vehicles (OHV). Over a million recreationists come to the Dunes 
annually to enjoy its vistas and OHV opportunities. In 2002, 1.2 
million people visited the Dunes, with visitation during the busy 
Thanksgiving holiday weekend exceeding 170,000. As one of the most 
popular OHV areas in the Southwestern United States, the Dunes presents 
significant management challenges, including law enforcement, visitor 
safety and services, and protection of sensitive resources.
    The 1998 listing of the Peirson's milk-vetch as a threatened 
species by the FWS required the BLM to determine how to balance 
recreation use with resource protections under the ESA. We believe the 
plan now being finalized achieves this balance, through the creation of 
a 33,000-acre adaptive management area that will allow us to monitor 
the plant while still providing limited OHV access to determine the 
impacts of interaction between the plant and OHV use. While settlement 
of the litigation required us to close approximately 49,000 acres of 
the Dunes, our proposed plan would re-open those lands to OHV use, 
including the 33,000 acres within that adaptive management area. A 
Final EIS/Proposed Plan was released on May 23, 2003. Since the end of 
the required 30-day public protest period, the BLM has been evaluating 
11 protests it has received.
    On August 5, 2003, the Service proposed to designate critical 
habitat for this species on approximately 52,780 acres of sand dunes in 
Algodones Dunes in Imperial County, California. Earlier this year, the 
Service completed consultation on BLM's draft Recreation Area 
Management Plan (RAMP) for the Dunes. Based on the review of the draft 
RAMP and the provisions to conduct monitoring and study efforts, the 
Service determined that implementation of the RAMP would not likely 
jeopardize the continued existence of the Peirson's milk-vetch in the 
Algodones Dunes within the next four years.
    The West Mojave Plan, a resource management plan amendment which is 
also an interagency Habitat Conservation Plan (HCP), was prepared in 
collaboration with the region's cities, counties, State and Federal 
agencies, and covers 9.3 million acres in the western portion of the 
Mojave Desert. It includes within its boundaries China Lake Naval 
Weapons Center, Edwards Air Force Base, Fort Irwin, the Marine Corps 
Logistics Base at Barstow, and the Marine Corps Air Ground Combat 
Center. It is by far the most comprehensive of the six regional land 
use plans and is intended to streamline and develop less costly 
procedures for complying with the requirements of both the Federal and 
California Endangered Species Acts. The HCP is intended to stimulate 
economic development within this rapidly growing region while 
conserving more than 100 identified Federally-listed, State-listed and 
sensitive plant and animal species.
    The HCP would establish a balanced and equitable program that would 
cut permitting costs in half, eliminate construction delays through the 
adoption of a pre-approved conservation and mitigation strategy, and 
enhance business planning certainty. Cost reductions would result 
primarily from the elimination of the administrative costs associated 
with the preparation of the reports and applications necessary to 
obtain incidental take permits. The HCP would allow for appropriate 
resource use and community expansion. The West Mojave Plan would also 
include a regional strategy for conserving sensitive wildlife species 
that would be implemented in a collaborative manner by local 
governments and State and Federal agencies. The plan would be 
implemented on public lands through the amendment of the BLM's CDCA 
Plan, and on private lands through the issuance of programmatic 
incidental take permits to local cities and counties by the California 
Department of Fish and Game and FWS.
    An important part of this effort has been designing a network of 
motorized vehicle access routes for the western Mojave Desert to 
provide access to recreation venues, commercial and industrial sites, 
and other destinations. On March 21, 2003, the BLM published an 
environmental assessment that examined the impacts of establishing a 
vehicle access network. A 30-day public comment period followed. On 
June 30, 2003, the Record of Decision was issued for the West Mojave 
route designation. This access network is also included in the draft 
West Mojave Plan/HCP now out for public comment. The 90-day public 
comment period on the draft plan will close on September 12, 2003.
Conclusion
    The CDCA is a vast, challenging, controversial, and fascinating 
resource area. In keeping with Secretary Norton's 4Cs--consultation, 
cooperation and communication all in the service of conservation--the 
BLM remains steadfast and committed to reaching a fair and balanced 
approach to managing the public lands in this important region. We 
believe this approach will best serve the many competing needs and 
interests of the area. Mr. Chairman, that concludes my testimony. I 
would be happy to respond to any questions the Committee may have for 
me.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Pool. I appreciate your 
testimony. Mr. Thompson, welcome to the Subcommittee, and you 
may begin yours, and then we will open it up to the panel for 
questions.

   STATEMENT OF STEVE THOMPSON, CALIFORNIA-NEVADA OPERATIONS 
OFFICER, U.S. FISH AND WILDLIFE SERVICE, SACRAMENTO, CALIFORNIA

    Mr. Thompson. Thank you, Chairman Radanovich, and 
Congressman Pombo, and Congressman Filner. Again, my name is 
Steve Thompson, and I am the manager for the Fish and Wildlife 
Service operations in California, Nevada, and the Klamath 
Basin. and so we certainly have our hands full with Fish and 
Wildlife Service issues in the two States and Klamath.
    The Service really appreciates the invitation to make a 
presentation today about the Desert Tortoise Recovery Plan and 
its impact on access to Federal Land. The Service has a long 
history of working closely with the Bureau of Land Management, 
and Mike Pool and his staff, and John Jarvis of the National 
Park Service, and the State agencies, such as Bob Hiatt at Fish 
and Wildlife and their Fish and Game here in California, and 
Terry Cropworth in Nevada.
    Now, our purpose is the use of the public lands while 
providing for conservation and recovery of the Desert Tortoise 
and other listed species. The Desert Tortoise is one of the 
better known inhabitants of the California desert, and is 
currently listed as threatened under the Endangered Special 
Act. In 2994, the Service finalized critical habitat for the 
Mojave Desert population in California, Nevada, Arizona, and 
Utah.
    Now, this is a species that has been well studies by over 
40 years of research in the desert community and we still need 
to know a lot more about the desert tortoise. There is a 
tremendous amount of information that has yet to be learned.
    We also finalized the recovery plan for the tortoise in 
1994, and the goal of the recovery plan is to protect habitat 
and reduce mortality, through the establishment of management 
actions and partnership efforts, leading to the eventual 
delisting of the species.
    Recovery implementation balances conservation for the 
Desert Tortoise, with continued use of public resources. We 
continue to try to accomplish our primary objectives with the 
cooperation and involvement of local communities, land 
management agencies, State Fish and Wildlife agencies, and 
other partners.
    The Desert Tortoise Recovery Team was disbanded after the 
final recovery plan was approved by the Service in 1994. 
Subsequent recovery implementation and monitoring became a 
conservation strategy taken on by the Desert Tortoise 
Management Oversight Group, and the Desert Managers Group.
    Because recovery implementation occurs largely on public 
lands, recovery guidance and oversight involves land managers 
such as the Department of Defense, BLM, the National Park 
Service, as well as the Fish and Wildlife Service.
    Based on new information which indicates that there is a 
substantial decline in the Desert Tortoise population in 
numerous areas the Service is conducting a formal review for 
the 1994 recovery plan.
    In March of 2003, we formed an assessment team of 
scientists, comprised with expertise in desert tortoise 
biology, conservation biology, desert ecology, and disease, 
along with the scientists that would review the monitoring 
techniques to address concerns raised by the report completed 
by the GAO in December of 2002.
    The assessment committee will reassess the recovery plan, 
and recommend changes based on the new information. This 
assessment process is open to stakeholder involvement, and the 
assessment committee will submit a report with their 
recommendations to the Desert Tortoise Management Group and the 
Desert Management Group, or excuse me, the oversight group, for 
consideration by January of 2004.
    These groups will then use this new information to revise 
the recovery plan, which will take approximately 1 year. In our 
attempt to balance species recovery with appropriate land use, 
the BLM and the Service has been challenged on several lawsuits 
related to the Desert Tortoise.
    We currently have active lawsuits from environmental 
groups, to the off-road vehicle groups. Finding a balance 
between recreational use and environmental protection in the 
California desert is truly a challenge and our goal.
    Mr. Chairman, the Service is diligently working with BLM 
and interest groups so that an appropriate number of roads and 
trials can be developed that allows for both the conservation 
and the recovery of the desert tortoise, and access to the 
California desert.
    We are required by law to work toward the recovery of the 
desert tortoise. But we don't do it alone. We welcome the 
participation of any and all users of the desert, and only with 
broad participation can we develop plans that will protect the 
desert for people, and our tremendous wildlife heritage that we 
have in this country.
    We thank you for the opportunity to present this testimony, 
and I will be happy to answer any questions.
    [The prepared statement of Mr. Thompson follows:]

  Statement of Steve Thompson, Manager, California/Nevada Operations 
   Office, Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for the 
invitation to appear before you to present testimony regarding the 
desert tortoise recovery plan and its impact on access to Federal land 
in the California Desert Conservation Area and the Imperial Sand Dunes 
Recreation Area. I am Steve Thompson, Manager of the U.S. Fish and 
Wildlife Service's (Service) California/Nevada Operations Office.
    The Service is working with the Bureau of Land Management (BLM), 
the National Park Service (NPS), and State wildlife agencies to provide 
access and use of public lands while providing for the conservation and 
recovery of the desert tortoise and other listed species. We are 
required by law to work toward recovery of the desert tortoise; but we 
cannot do it alone. We encourage and welcome your assistance and 
guidance and the participation of any and all users of the desert. Only 
with broad participation can we develop plans that will conserve 
imperiled species and their habitats.
Background
    The desert tortoise is one of the better known inhabitants of the 
California Desert and is currently listed as threatened under the 
Endangered Species Act (ESA). Information on high mortality rates 
associated with a respiratory disease resulted in the emergency listing 
of the Mojave desert tortoise as endangered in 1989. In 1990, further 
review of other threats to the desert tortoise, such as habitat loss 
and degradation and predation by common ravens, led to its listing as 
threatened. In 1994, the Service finalized critical habitat for the 
Mojave Desert population in California, Nevada, Arizona and Utah.
    The threatened Peirson's milk vetch is another listed species found 
in the area. On August 5, 2003, the Service proposed to designate 
critical habitat for this species on approximately 52,780 acres of sand 
dunes in Algodones Dunes in Imperial County, California. The Service 
listed the plant as a threatened species under the Endangered Species 
Act in 1998 primarily because of threats to the plant by off-highway 
vehicle use. Earlier this year, the Service completed consultation on 
BLM's draft Recreation Area Management Plan (RAMP) for the dunes. Based 
on the review of the draft RAMP and the provisions to conduct 
monitoring and study efforts, the Service determined that 
implementation of the RAMP would not likely jeopardize the continued 
existence of the Peirson's milk-vetch in the Algodones Dunes within the 
next four years.
Desert tortoise recovery plan
    The Service initiated work on the recovery plan for the desert 
tortoise in October 1990 with the establishment of a recovery team 
including nationally recognized scientists in desert tortoise biology, 
conservation biology, desert ecology, and diseases of reptiles. The 
recovery team incorporated scientific data provided by researchers from 
the Service, BLM, NPS, and four State wildlife agencies from 
California, Nevada, Arizona and Utah, and from universities from 
southern California, Nevada and Colorado. The recovery team completed a 
draft recovery plan in 1993 and, after an opportunity for public 
comment, finalized it in 1994.
    The desert tortoise faces a variety of threats to its recovery. 
Upper respiratory tract disease, predation by the common raven, and 
habitat loss and degradation are among the foremost threats facing this 
species in the areas covered by the recovery plan. Human activities 
contribute to these sources of mortality by altering landscapes, which 
in some cases can increase resources for the common raven.
    The recovery strategy for the desert tortoise is based on accepted 
principles of conservation biology, including the creation of habitat 
reserves (desert wildlife management areas, or DWMAs) of sufficient 
size with establishment of adequate regulatory mechanisms to halt 
human-caused habitat destruction, degradation, and fragmentation and 
direct mortality of the species. To achieve the goal of habitat 
protection and species persistence, the recovery plan identifies and 
recommends, based on an extensive body of published literature, that 
certain types of management actions be taken to assist in the recovery 
of the species. In addition, the recovery plan called for monitoring of 
the recovery units to document the species condition over time. 
Furthermore, the plan identified delisting criteria which include: 1) 
as determined by a scientifically credible monitoring plan, the 
population within a recovery unit must exhibit a statistically upward 
trend or remain stationary for at least 25 years; 2) the long-term 
viability of desert tortoise populations within a recovery unit must be 
ensured through habitat protection or intensive management; 3) 
provisions must be made for population management within each recovery 
unit so that discrete population growth rates are maintained or 
increased; 4) regulatory protections or land management commitments are 
to be implemented to provide for the long-term protection of the 
species and its habitat; and 5) the population in the recovery unit is 
unlikely to need protection under the ESA in the foreseeable future.
    Based on the Desert Tortoise Management Group's (MOG) and others' 
input, the best available scientific and commercial data available at 
the time was used to formulate the management actions and options 
recommended in the recovery plan. The goal of the recovery plan is to 
protect habitat and reduce mortality via the establishment of 
management actions and partnership efforts, leading to the eventual 
delisting of the species. The recommendations in the recovery plan were 
consistent with BLM's Management Plan for desert tortoise habitat 
protection and with the NPS goals for Mojave Desert habitat protection.
    To achieve the goal of habitat protection and species recovery, the 
recovery plan identifies and recommends management actions be taken to 
assist the recovery of the species. Management actions target the 
recovery needs for each recovery unit, and land management agencies, 
both Federal and State, establish the specific boundaries and 
management of these areas through their land use plans.
Recovery Implementation
    Recovery implementation balances conservation of the desert 
tortoise with continued use of public resources. We continue to 
accomplish recovery objectives for the desert tortoise recovery with 
the cooperation and involvement of local communities, land management 
agencies, State fish and wildlife agencies and other partners. With the 
help of local communities, tortoise-proof fencing has been constructed 
along major roads and highways that bisect important tortoise habitat. 
In addition, other activities have contributed to recovery 
implementation including: the removal of excess wild horses and burros; 
the U.S. Department of Agriculture - Wildlife Services has conducted 
raven-control activities in Nevada to protect young tortoises 
vulnerable to raven predation; research has been initiated and 
conducted to address desert tortoise recovery issues including disease, 
translocation techniques, and effects of grazing; livestock permits 
have been purchased from willing sellers; habitat has been enhanced or 
restored through the efforts of many conservation partners; and a 
range-wide population monitoring program was initiated in 2001 to 
identify population trends and document recovery.
    Management actions in these conservation areas are not the sole 
decision of the Service or the BLM. We are a member of two 
organizations that provide management guidance related to tortoise 
recovery throughout the Southwest--the MOG, which is chaired by the 
Service, and the Desert Managers Group (DMG). Both groups have 
representatives from several federal and state land management 
agencies. These groups also seek input from the users of the desert, 
from environment organizations to off-road enthusiasts.
    The Desert Tortoise Recovery Team was disbanded after the final 
recovery plan was approved by the Service in 1994. Subsequently, 
recovery implementation and monitoring became a responsibility of the 
MOG and the DMG for the California deserts. The MOG and DMG work in 
concert to coordinate rangewide desert tortoise recovery 
implementation. Because recovery implementation occurs largely on 
public lands, recovery guidance and oversight involves land managers 
such as the Department of Defense, BLM, NPS, as well as the Service, 
which are all represented in the MOG and DMG.
    The Service has worked as a member of the MOG to outline processes 
and time frames for completing Section 7 consultations on BLM's land 
use plans. Since the listing of the desert tortoise and other species 
in the California Desert Conservation Area, the Service has issued over 
250 biological opinions, which have allowed the BLM and the public the 
ability to use and enjoy these lands. In addition, the Service has 
developed programmatic biological opinions, which allowed and continue 
to allow BLM activities and projects to go forward in desert tortoise 
habitat where the effects of the activities are expected to be small.
    Land use prescriptions recommended in the recovery plan have been 
implemented across the range of the desert tortoise to a limited 
extent. In its December 2002 report to Congress, the General Accounting 
Office stated, ``To protect the tortoise, government agencies have 
restricted grazing and off-road vehicle use and taken other protective 
actions in desert tortoise habitat, but the effectiveness of these 
actions is unknown. Research is underway, in several areas, including 
tortoise disease, predation, and nutrition, but the research has not 
assessed the effectiveness of the protective actions.'' The Service 
believes that the effectiveness of recovery actions is difficult to 
determine because desert tortoises may not respond in a measurable way 
for a number of years following implementation of recovery actions 
because of the length of time required for desert tortoises to reach 
maturity. Years of below-average rainfall will further slow the pace of 
recovery of the numbers of desert tortoises and the condition of their 
habitat.
The future of desert tortoise recovery
    Based on new information that indicates substantial declines in 
desert tortoise populations in numerous areas throughout its range, the 
Service is conducting a formal review of the 1994 recovery plan. In 
March 2003, we initiated an assessment of the 1994 plan by forming an 
Assessment Committee comprised of scientists with expertise in desert 
tortoise biology, ecology and disease, along with scientists who will 
review the monitoring techniques to address concerns raised by the 
recently completed GAO report. The Committee will reassess the recovery 
plan to gather and evaluate existing and new information on the status 
and trends of desert tortoise populations and recommend changes to the 
recovery plan based on new information. This assessment process is open 
to involvement from interested parties through participation in the MOG 
and DMG monthly meetings. The Committee will submit a report with its 
recommendations to the MOG and DMG for consideration by January 2004. 
These groups will use this new information to revise the recovery plan, 
which will take approximately one year.
    A desert tortoise disease workshop was conducted in November 2002, 
involving wildlife disease experts. At the workshop, the group 
concluded that the cause of mortality is influenced by multiple factors 
including drought, poor nutrition, environmental toxins, predation, and 
habitat degradation including human developments and infrastructure. 
These factors, in combination, may cause disease and mortality. The 
California Department of Fish and Game and U.S. Geological Survey are 
preparing a report which summarizes the discussions and recommendations 
from the workshop to address disease management. We anticipate this 
report in the near future.
    In our attempt to balance species recovery with appropriate land 
use, the BLM and Service have been challenged in several lawsuits 
related to the desert tortoise. We currently have active lawsuits from 
environmental groups and off-road vehicle groups. Finding a balance 
between recreational use and environmental protection in the California 
Desert is truly a challenge and our goal.
Conclusion
    Mr. Chairman, the Service is diligently working with BLM and 
interest groups so that an appropriate network of roads and trails can 
be developed that allows for both the conservation and recovery of the 
desert tortoise and access to the California desert. We are required by 
law to work toward recovery of the desert tortoise; but we don't do it 
alone. We welcome the participation of any and all users of the desert. 
Only with broad participation can we develop plans that will protect 
the desert for people and wildlife. Thank you for the opportunity to 
present this testimony and I would be happy to answer any questions.
                                 ______
                                 
    [Mr. Thompson's response to questions submitted for the 
record follow:]

  Responses to questions submitted for the record by Steve Thompson, 
              Manager, California/Nevada Operations Office

    The following are responses to questions raised at the above-
referenced hearing regarding reported declines in desert tortoise 
populations within wilderness areas in the California Desert 
Conservation Area and concerns about the listing of Peirson's milk-
vetch, which was published on October 6, 1998.
    Regarding desert tortoise populations, recently published studies 
conducted in the California desert by researchers with the U.S. 
Geological Survey Biological Research Division have reported population 
declines at several permanent study plots. We are currently reviewing 
these studies to determine if they provide evidence of long-term 
population trends in wilderness areas in the California desert.
    In his testimony, David Hubbard, Counsel for the Off-Highway 
Recreation Community, stated that the U.S. Fish and Wildlife Service 
(Service) had requested additional information regarding the Peirson's 
milk-vetch from the Bureau of Land Management (BLM). Mr. Hubbard 
emphasized that the Service never received this requested information, 
and asked why, despite this lack of response, we moved forward to list 
the plant. We believe he is referring to our November 14, 1996, 
memorandum (Attachment 1) to BLM that requested ``additional 
information on the abundance of Peirson's milk-vetch on BLM lands''. 
Our memo described what documents the Service had and asked specific 
questions to determine if BLM held other pertinent information. BLM 
provided no written response to our memo, but they did provide a letter 
(Attachment 2) during the earlier comment period which stated that no 
additional information or monitoring on the Peirson's milk-vetch had 
been conducted since 1992.
    Although BLM was not able to provide us with additional information 
regarding the Peirson's milk-vetch, we determined that the species 
should be listed, based upon the best available science. For any 
listing decision, the Service evaluates the five factors prescribed in 
section 4(a)(1) of the Endangered Species Act. After our evaluation of 
all the listing factors in section 4(a)(1), the Service concluded that 
Peirson's milk-vetch should be listed as threatened (rather than 
endangered) based on specific concerns relative to factors A (the 
present or threatened destruction, modification, or curtailment of its 
habitat or range), D (inadequacy of existing regulatory mechanisms), 
and E (other natural or manmade factors affecting its continued 
existence). A copy of the five factor analysis from the Federal 
Register notice listing the plant and a bibliography which demonstrates 
the science used by the Service in deciding to list the Peirson's milk-
vetch are attached (Attachment 3).
    You also expressed concern at the hearing that Service staff 
disagreed on the listing of Peirson's milk-vetch. We have reviewed the 
available information and have determined that the Ventura Fish and 
Wildlife Office and Carlsbad Fish and Wildlife Office were in agreement 
on the listing decision (Attachment 4).
    Finally, the Service recently made a 90-day finding that the 
petition to remove Peirson's milk-vetch from the Federal List of 
Threatened and Endangered Wildlife and Plants presented substantial 
information indicating that delisting this plant may be warranted. We 
have initiated a status review to determine if delisting this species 
is warranted. The comment period to provide information to the Service 
to be considered for the 12-month finding closed on November 4, 2003.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Thompson. I do 
have a couple of questions that I am going to start asking. Mr. 
Pool, you had mentioned that the Center for Biological 
Diversity has filed a lawsuit in conjunction with the Sierra 
Club and the Public Employees for Environmental Responsibility 
against the BLM.
    What has been the financial impact of that lawsuit in terms 
of time and responding to it and such. Can you give me an idea?
    Mr. Pool. Well, we have estimated that it is close to $9 
million over a 3 year period. It has been very expensive, and 
very time consuming, and laborious, because those were court 
ordered deadlines in which to complete the plans.
    Mr. Radanovich. What has been the effect of these lawsuits 
and your overall ability to manage the desert and maintain 
consensus with your various constituencies?
    Mr. Pool. I think that it has taken away from kind of part 
of our culture, BLM's culture for many, many years, to actually 
collaborate and sit down and talk to people, to public land 
users, and when you get into litigation arenas, I think it 
takes on kind of a life of its own. It is derisive, and causes 
polarization among the users, and polarization with county and 
local governments.
    Litigation can take people into a venue where they perhaps 
are excluded. They don't have a stake at the table. So I think 
it has been a heavy impact on the agency, and ever since that 
suit has been filed, and we have followed through or attempted 
to follow through diligently on the consent decrees, we have 
then tried to rebuild these relationships.
    We value our public users. Our field offices are in close 
proximity to areas where we deal with our users every day. But 
this has been kind of a new phenomenon for BLM on a grand 
scale. With the courts and deadlines that are dictating our 
outcomes, as opposed to taking more time to sit down and talk, 
and collaborate all interests at the table.
    And I am hopeful that once we get these plans complete that 
we can move back into that arrangement and plan implementation.
    Mr. Radanovich. Thank you. It was mentioned by some of the 
other people that were addressing the Committee that the Desert 
Advisory Council, whose members are appointed by the Secretary, 
and by other folks, it was mentioned that the BLM is sometimes 
unresponsive to their recommendations or input. What would be 
your response to that? It was mentioned that there were these 
10-to-2 votes,
    Mr. Pool. Yes, and I am aware of some of those dynamics. We 
do value our council. They are nominated and they are selected 
to advise the BLM in a variety of program categories. Some, and 
not all, but some cases partially do we adopt the 
recommendations.
    I would say that in the last 3 years, because of the 
emphasis placed on these plans that we were not able to adopt 
all or part of the recommendations, but to the extent possible, 
we tried to factor the recommendations and thoughts into our 
land use plans.
    The land use plans were the driving force because of the 
consent decree and the timeframe in which to complete these 
plans.
    Mr. Radanovich. Mr. Thompson, I just want to ask briefly if 
I may, and I don't know too much about the Desert Tortoise, and 
I don't have any desert in my district, and so this is all 
pretty much new to me. But I understand that there is an 80 
percent mortality rate in the Desert Tortoise on land 
designated as wilderness.
    In other words, in lands where there is on recreational use 
permitted, how do you reconcile that? Is that something that is 
a tough thing to reconcile, or--
    Mr. Thompson. I am not aware of that number, and so that is 
a new number to me. I can ask the biologists and get a answer 
back to you in writing to answer that question, but that is 
something new to me.
    Mr. Radanovich. All right. Under the Desert Recovery Plan, 
in the absence of monitoring, how do you determine the 
effectiveness of the Desert Tortoise Recovery Plan?
    Mr. Thompson. Well, we do have a monitoring program going 
on and previously there was a density system that was working 
and we are now in a line sampling system that is in, I believe, 
its third year.
    And my understanding is that we will be doing that for 
another couple of years until we can get a trend established 
and a baseline to move from that. The problem or the challenge 
that we have I guess is that sampling on an area from Nevada, 
and Utah, and California, it is huge area to sample, and to get 
a typically significant sample costs a significant amount of 
dollars.
    All the agencies, including the Park Service, BLM, and a 
huge push in the Department of Defense, we have been able to do 
as much monitoring as we can afford. But we need to do more.
    Mr. Radanovich. And my question was based I guess on a GAO 
2002 report which criticized the Fish and Wildlife for its lack 
of monitoring of the Desert Tortoise, and am I to understand 
that those have been changed on what has been happening since 
then?
    Mr. Thompson. Yes.
    Mr. Radanovich. All right. Thank you. I am going to have to 
leave. I have a six o'clock flight out to go back home, but I 
just wanted to thank the Chairman for holding this Subcommittee 
hearing here, and I think it is really good to get this 
information in the record, and I appreciate the opportunity to 
do that, and so we will recognize my Chairman for any 
questions.
    Mr. Pombo. I am going to recognize Mr. Filner for any 
questions that he may have at this point.
    Mr. Filner. Just briefly, I think, George, that you showed 
in your colloquy with Mr. Pool the difficulties when you get 
into litigation. I mean, with litigation, and again I would 
just say--and I say it with all sincerity, and not to cause you 
any--or just to be ornery or anything.
    The only way to avoid that is to get people into the same 
room and talking with one another, and get them at the same 
table and try to figure it out. I don't know about the past, 
but if we are going to go like this, we are never going to get 
out of litigation.
    I mean, you have one side that says one thing, and the 
other side another, and there are different rooms, and 
different times, and they just clash. And there will be 
litigation out of that.
    We are in this business of politics because we believe that 
there is rational decisionmaking that is possible, and there 
are compromises that are there, and people have to give and 
listen, and out of that process we believe that good policy can 
come out.
    And I would just encourage you in the future to try to get 
that discussion--and again, I don't know what has happened in 
the past, but all I can see is what I see in front of me, and 
we are not having that kind of discussion and we ought to.
    And I would pledge to be there and to have that discussion 
so we can in fact get away from spending $9 million in 3 years 
on litigation, which we all recognize is stupid, and it just 
does not help anybody.
    And we ought to figure out from people who wear the orange 
shirts, and people who don't wear the orange shirts, how to get 
that dialog done rationally. Thank you.
    Mr. Pombo. Well, I would just say to my colleague that 
welcome to our world. In the years that I have had the 
opportunity to be a member of Congress and to work on these 
issues, the conflict that is there sometimes is--that you see 
no way around it.
    And you work extremely hard to try to solve the problems. 
Mr. Pool, we have handed you what in my determination would be 
an impossible job, and that is to manage an area under a number 
of different Federal laws, with a number of different judges' 
decisions coming down on top of you, and told you to figure it 
out.
    If we were able to stop the clock where we are right now 
with all of the decisions that have been made with all of the--
of what I believe are contradictory Federal laws that are in 
place that you have to somehow manage this millions and 
millions of acres under, do you think that it would be possible 
to work out a multiple use plan for the desert that would 
protect the areas that are pristine, and the areas that are 
wilderness, and to protect those as wilderness areas; and to 
set aside the areas that are endangered species habitat, and 
come up with some kind of a plan that would allow this multiple 
use that we gave you, and we told you that it had to be managed 
as multiple use, could you put that all together if we could 
just stop the legal clock for a minute? Is it possible to put 
that together?
    Mr. Pool. That is a tough question. I think in looking at 
Southern California that what has happened over several years 
is that the desert is being allocated, and some of these 
allocations are permanent.
    Other allocations are still pending, like WSAs. Even when 
we complete these plans, we will get new demands on the 
landscape. So as the demands grow, and with the conservation in 
use, the landscape is finite. So the pressures will continue.
    I guess in reference to your question, Congressman, I feel 
strongly that how we go about these allocations should be done 
in an open collaborative way, such that people can feel 
comfortable to meet, and to discuss, and respect the other 
person's point of view, and the best solutions that I have seen 
in public plan management is when we create and allow those 
forums to become synergistic.
    People come up with new ideas, and I can say that everybody 
that I have gotten to know in this room today has always had 
that attitude, and have always expressed a willingness to work 
with BLM in a collaborative way and to go the extra step to 
assist on the ground.
    But there are those on the fringe, on the environmental 
fringe, that have no desire to do that whatsoever, and that I 
think is part frustration, and that's why I think we will 
continue to see more lawsuits, and countersuits, and it is 
enforcement that many of the land use decisions that we are 
obligated to make given our multiple resource charter is 
dictated by the courts.
    And so I am hopeful that with these new planning efforts, 
and they are by no means perfect, as they never are, that we 
can move forward and work with our user groups. And I will add 
this. That these plans will be extensive. The 1980 plan was 
extensive.
    And I think back in the '80's when BLM, and not only in 
California, but elsewhere, prepared a variety of land use 
plans. We were reliant, and perhaps solely reliant, on 
Congressional appropriations.
    And I think that in recent years that we have learned how 
to better leverage our resources to challenge cost shares, 
forming fringe groups, foundations, and building upon our 
volunteer program.
    The public lands belong to all members of the public, and 
the Bureau cannot go it alone. We need their assistance in all 
of our use categories, particularly recreation here in Southern 
California, to help manage these areas in an effective manner.
    Mr. Pombo. Well, I have got to tell you that I really do 
feel for you on the job that is in front of you, because--and 
the reason that I asked the question the way that I did, if we 
could stop the clock for a minute, was because we both know 
that no matter what solution that you come up with that there 
will be new lawsuits filed.
    And that changes the dynamic of everything and our ability 
to try to sit down and get different groups at the table and 
work something out. As long as there is always a constant 
threat of another lawsuit coming down, it makes it extremely 
difficult to effectively manage these areas.
    I think that most people that are the off-road groups and 
the outside users, the mining groups, they just want some 
certainty in this process. Tell us what we can do and what we 
can't do, and then leave us alone.
    And with that constituency, I think that is the most 
frustrating part, and one of the reasons why we are holding 
this hearing today is because of the frustration of so many 
people who have contacted the Committee and contacted me 
personally.
    Mr. Pool. I can appreciate that.
    Mr. Pombo. Mr. Thompson, just a couple of questions for 
you. In your prepared statement, you--and I am paraphrasing, 
and this may not be exactly what you said. But you said a 
balance between conservation and access.
    The Endangered Species Act really does not allow you to do 
that. The Endangered Species Act requires you to do whatever it 
takes to recover that species.
    Mr. Thompson. Well, we do have some flexibility with the 
Act, and I think it gets back to your earlier discussion about 
what I would really characterize as non-discretionary 
deadlines. And those are legal deadlines now that--both legal 
and through the courts that are on us.
    When we have the time to sit down--and we have some 
outstanding biologists, and they do a darn good job in my 
opinion of sitting down with all folks and working through 
tough challenges. There is some flexibility in the Act, and we 
have to take care of the species, and that is what the Act says 
to do.
    But when we are able to sit down with BLM up front and work 
hard through the process, we have done over 250 biological 
opinions in the desert, and the majority we have not heard 
about today. There have been some that we have had difficulty 
in getting through.
    So there is some flexibility in the Act, and if we had more 
time, we can normally work through these issues and get to a 
solution that people can live with and can also recover the 
species.
    Mr. Pombo. One of the issues that was testified to earlier 
involved new data and new studies that have been done on 
Peirson's Milk Vetch, and I believe the gentleman's name was 
Dr. Arthur Phillips.
    And the gentleman testified--Mr. Bramham testified 
earlier--about this new information that had come up. Are you 
familiar with that, and have you had a chance, or have the 
people in your agency had an opportunity to review that?
    Mr. Thompson. Yes, they have. They presented the data to us 
as part of their package, and we reviewed that with all the 
other data that is out there. We have to use the best available 
science to make a decision, and that is certainly part of it, 
the data presented by the folks today.
    Mr. Pombo. And I wouldn't ask you to prejudge what decision 
would come of that, but if a delisting procedure would be asked 
for, at that time you would pull in all of this new information 
and look at the possibility of delisting?
    Mr. Thompson. Yes. The first thing that we would do is make 
a 90 day finding, and at that point we would determine whether 
it was substantial or not, and then make a recommendation to 
the Director and to the Secretary, and they would make the 
final decision.
    Mr. Pombo. Just out of curiosity, on the original listing 
on the Milk Vetch, what was the scientific information that 
that was based on?
    Mr. Thompson. I would have to get back to you on that. I 
have not read the original package, and a part of it was the 
threats from the off-road vehicles, and that is part of the 
package that came in and I do know that part. But I would have 
to look at the original data and I have not seen that.
     Mr. Pombo. If you could provide that for the community, I 
would appreciate it, because I would be very interested to know 
what science was used in making that original decision. What 
year was that listed? Do you remember or does anybody know? 
'98?
    Mr. Thompson. 1998.
    Mr. Pombo. All right. If you could provide that on what 
information was used, because as you know, we have been working 
on the science provisions in the Endangered Species Act for the 
past few years, and we really would like to get to a point 
where we have more confidence in the science that is being 
used, and give you guys the ability to have more confidence in 
the decisions that are being made.
    I know that that when you get in the middle of lawsuits 
that sometimes a lot of that gets lost, but we would at least 
like to give you guys a fair shot at having better science, in 
terms of that. Mr. Filner, do you have any further questions?
    Mr. Filner. No, I would just thank you for coming down to 
San Diego. I do appreciate people sitting through several hours 
of testimony. I think we all learned from it. I came to learn, 
and I have learned a lot, and I will continue to try to learn 
from what appears to be two sides here.
    Just one thing, Mr. Pool, bothered me I guess a little bit 
on your statement to the Chairman, where you used the 
statement, environmental fringe. You were not implying that 
there was a fringe on only one side of this issue?
    Mr. Pool. No, no.
    Mr. Filner. That everybody on one side is OK, and the other 
side is not?
    Mr. Pool. No, let me correct that. There is fringe on every 
program category. I mean, over the course of my career. I am 
just saying that for what we have been dealing with more 
recently in Southern California, it seems like that there is an 
environmental fringe that purposely elect not to participate in 
a lot of our forums.
    And from scoping, to people devoting time at evening 
meetings, and on weekends, to try to come up with a consensus, 
and it is not as if they have been excluded and they are not 
invited. They have.
    But it seems that the only tool that they elect to place on 
BLM is litigation, and that is what I am saying, Congressman.
    Mr. Filner. All right. Well, Rich, I hope that we can find 
some way to improve some of these things that cry out for 
improvement. And I know that I am a new guy as you just said to 
these issues, but I want to work with you to solve them, and 
without putting people on two sides, if we can do that, and 
getting an intelligent decision out of here. Thank you.
    Mr. Pombo. Well, thank you, and I welcome your voice to the 
debate. This is something that has been going on for many, many 
years, and I know that with your new district that it is 
something that impacts your constituency a great deal.
    Mr. Pool and Mr. Thompson, I want to thank you very much 
for making the effort to be here to testify. I look forward to 
working and continuing to work with both of you on these issues 
in the future.
    Again, I want to thank our hosts for opening this facility 
for us for all of the interested members of the public for 
attending this. Thank you all for being here, and the hearing 
is adjourned.
    [Whereupon, at 5:05 p.m., the Subcommittee was adjourned.]


</pre></body></html>
